<html>
<title> - RECOGNIZING THE CONTINUING CONTRIBUTIONS OF THE 1890S LAND-GRANT UNIVERSITIES ON THE 125TH ANNIVERSARY OF THE PASSAGE OF THE SECOND MORRILL ACT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                       RECOGNIZING THE CONTINUING
                 CONTRIBUTIONS OF THE 1890S LAND-GRANT
  UNIVERSITIES ON THE 125TH ANNIVERSARY OF THE PASSAGE OF THE SECOND 
                                MORRILL
                                  ACT

=======================================================================

                                HEARING

                               BEFORE THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 15, 2015

                               __________

                           Serial No. 114-22


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov

                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-605 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001






                        COMMITTEE ON AGRICULTURE

                  K. MICHAEL CONAWAY, Texas, Chairman

RANDY NEUGEBAUER, Texas,             COLLIN C. PETERSON, Minnesota, 
    Vice Chairman                    Ranking Minority Member
BOB GOODLATTE, Virginia              DAVID SCOTT, Georgia
FRANK D. LUCAS, Oklahoma             JIM COSTA, California
STEVE KING, Iowa                     TIMOTHY J. WALZ, Minnesota
MIKE ROGERS, Alabama                 MARCIA L. FUDGE, Ohio
GLENN THOMPSON, Pennsylvania         JAMES P. McGOVERN, Massachusetts
BOB GIBBS, Ohio                      SUZAN K. DelBENE, Washington
AUSTIN SCOTT, Georgia                FILEMON VELA, Texas
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHELLE LUJAN GRISHAM, New Mexico
SCOTT DesJARLAIS, Tennessee          ANN M. KUSTER, New Hampshire
CHRISTOPHER P. GIBSON, New York      RICHARD M. NOLAN, Minnesota
VICKY HARTZLER, Missouri             CHERI BUSTOS, Illinois
DAN BENISHEK, Michigan               SEAN PATRICK MALONEY, New York
JEFF DENHAM, California              ANN KIRKPATRICK, Arizona
DOUG LaMALFA, California             PETE AGUILAR, California
RODNEY DAVIS, Illinois               STACEY E. PLASKETT, Virgin Islands
TED S. YOHO, Florida                 ALMA S. ADAMS, North Carolina
JACKIE WALORSKI, Indiana             GWEN GRAHAM, Florida
RICK W. ALLEN, Georgia               BRAD ASHFORD, Nebraska
MIKE BOST, Illinois
DAVID ROUZER, North Carolina
RALPH LEE ABRAHAM, Louisiana
JOHN R. MOOLENAAR, Michigan
DAN NEWHOUSE, Washington
TRENT KELLY, Mississippi

                                 ______

                    Scott C. Graves, Staff Director

                Robert L. Larew, Minority Staff Director

                                  (ii)
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Conaway, Hon. K. Michael, a Representative in Congress from 
  Texas, opening statement.......................................     1
    Prepared statement...........................................     3
Fudge, Hon. Marcia L., a Representative in Congress from Ohio, 
  submitted report...............................................    57
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................     4
Scott, Hon. David, a Representative in Congress from Georgia.....     5
    Submitted memorandum.........................................    57

                               Witnesses

Wright, Ph.D., George C., President, Prairie View Agriculture and 
  Mechanical University, Prairie View, TX........................     7
    Prepared statement...........................................     8
Bailey, Ph.D., Jessica M., Interim President, Fort Valley State 
  University, Fort Valley, GA....................................     9
    Prepared statement...........................................    10
Martin, Sr., Ph.D., Harold L., Chancellor, North Carolina 
  Agricultural and Technical State University, Greensboro, NC....    15
    Prepared statement...........................................    17
    Submitted question...........................................    86
Mangum, Ph.D., Elmira, President, Florida Agricultural and 
  Mechanical University, Tallahassee, FL.........................    20
    Prepared statement...........................................    22
Johnson, Ph.D., Brian L., President, Tuskegee University, 
  Tuskegee, AL...................................................    23
    Prepared statement...........................................    25
Bell, Ph.D., Juliette B., President, University of Maryland 
  Eastern Shore, Princess Anne, MD...............................    27
    Prepared statement...........................................    29
Rome, Sr., Ph.D., Kevin D., President, Lincoln University, 
  Jefferson City, MO.............................................    33
Smith, Jr., Ph.D., Kent J., President, Langston University, 
  Langston, OK...................................................    51
Alexander, J.D., Ph.D., Laurence B., Chancellor, University of 
  Arkansas at Pine Bluff, Pine Bluff, AR, prepared statement.....    71
Belton, Dr. Ray L., President and Chancellor, Southern University 
  and A&M College System, Baton Rouge, LA, prepared statement....    73
Burse, Raymond M., President, Kentucky State University, 
  Frankfort, KY, prepared statement..............................    76
Hammond, Ph.D., Pamela V., Interim President, Virginia State 
  University, Petersburg, VA, prepared statement.................    78
Hugine, Jr., Ph.D., Andrew, President, Alabama Agricultural and 
  Mechanical University, Huntsville, AL, prepared statement......    81
Rankins, Jr., Ph.D., Alfred, President, Alcorn State University, 
  Lorman, MS, prepared statement.................................    83

 
                       RECOGNIZING THE CONTINUING
                 CONTRIBUTIONS OF THE 1890S LAND-GRANT
  UNIVERSITIES ON THE 125TH ANNIVERSARY OF THE PASSAGE OF THE SECOND 
                             MORRILL ACT

                              ----------                              


                        WEDNESDAY, JULY 15, 2015

                          House of Representatives,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Committee met, pursuant to call, at 10:00 a.m., in Room 
1300, Longworth House Office Building, Hon. K. Michael Conaway 
[Chairman of the Committee] presiding.
    Members present: Representatives Conaway, Lucas, Rogers, 
Thompson, Gibbs, Austin Scott of Georgia, Crawford, Gibson, 
Hartzler, LaMalfa, Davis, Yoho, Allen, Rouzer, Abraham, 
Newhouse, Kelly, Peterson, David Scott of Georgia, Walz, Fudge, 
McGovern, DelBene, Vela, Lujan Grisham, Kuster, Nolan, Bustos, 
Aguilar, Plaskett, Adams, Graham, and Ashford.
    Staff present: Carly Reedholm, Haley Graves, Jackie Barber, 
John Goldberg, Mary Nowak, Mollie Wilken, Scott C. Graves, John 
Konya, Keith Jones, Liz Friedlander, and Nicole Scott.

OPENING STATEMENT OF HON. K. MICHAEL CONAWAY, A REPRESENTATIVE 
                     IN CONGRESS FROM TEXAS

    The Chairman. Well, good morning. This is hearing of the 
Committee on Agriculture to recognize the continuing 
contributions of the 1890s land-grant universities on the 125th 
anniversary of the passage of the Second Morrill Act, will come 
to order. I have asked David Scott to open us with a prayer. 
David.
    Mr. David Scott of Georgia. Thank you, Mr. Chairman. May we 
bow our heads, please.
    Dear Heavenly Father, we come before your throne of grace 
to give thanks. We have so much to be thankful for. We want to 
thank you, dear Heavenly Father, for the leadership of this 
Agriculture Committee under the leadership of Chairman Mike 
Conaway and Ranking Member Collin Peterson, for their 
stewardship, for their care, and for the consideration of our 
1890s African-American colleges and universities. We thank you 
for that.
    And now, dear Heavenly Father, in our prayer to you this 
morning, we lift up those magnificent words, the words that 
were spoken by that famed and wonderful scientist, an 
agricultural pioneer and American legend, George Washington 
Carver, when he said to Booker T. Washington, ``Mr. President 
of Tuskegee Institute, I pledge to you that I will do 
everything through God and Christ that strengthens me to better 
the condition of our people.''
    Dear Heavenly Father, we are here to carry on that mighty 
work that these extraordinary founders of the 1890s established 
to improve and better the condition of all of the American 
people. We thank you, dear God, for this day, this historic 
day, to have the 19 African-American Presidents of 1890s land-
grant universities to testify before the Congress of the United 
States.
    Oh, thank God Almighty for this extraordinary blessing you 
have given to us this morning, and all we can say is thank you, 
God. Amen.
    The Chairman. Amen. Thank you, David.
    Well, I want to welcome our panelists, as well as the other 
Presidents who are here today. The Committee on Agriculture 
will shift its focus from legislation and oversight to one of a 
less political nature, but of significant importance 
nonetheless.
    Land-grant institutions are often characterized as 1860, 
1890, and 1994 institutions based on the date of legislation 
that designated most of them with land-grant status. August 30 
marks the 125th anniversary of the enactment of the Morrill Act 
of 1890, commonly referred to as the Second Morrill Act. This 
law authorized additional direct appropriations for the land-
grant colleges of agriculture that had been established under 
the Morrill Act of 1862.
    The most significant feature of the Second Morrill Act was 
that the 1862 schools could receive the additional funds only 
if they admitted blacks into their programs or if they provided 
separate but equal agricultural higher education to black 
students.
    In the period following the Civil War, 16 southern states 
established separate land-grant colleges of agriculture for 
black students under this Act. Congress designated Tuskegee 
University an 1890 institution at a later date. Today in honor 
of the continuing contribution of these important institutions, 
we would like to hear directly from their leaders regarding not 
only the successes of the individual institutions, but 
likewise, the successes of the 1890's in general.
    This hearing is a result of David Scott's vision or dream 
to have this happen. When it became apparent that I was going 
to be the Chairman of the Agriculture Committee for this term, 
David came to me and said, ``I have a terrific idea for a 
hearing, a full Committee hearing, in which we would highlight 
and show the American people the impact that the 1890 schools 
are having on production agriculture and all the jobs 
associated with agriculture, but more importantly, the students 
that go through those schools and then become responsible 
citizens in this country.'' And so I said all right let's do 
that.
    I came down the hall a second ago with David and Collin; I 
have never seen a crowd as big as this one of folks trying to 
get into this hearing this morning. And we have folks in the 
overflow audience. So this is a direct result of David's work. 
If it goes really well, he and I will get the credit. If it 
goes really bad, he gets the blame. But this is a great, great 
day for the Agriculture Committee, and we appreciate everybody 
being here.
    In the coming months, we will further evaluate the land-
grant system looking for ways to strengthen their capacity to 
improve our agriculture research extension and educational 
programs. While six of the 1890s Presidents will testify this 
morning, we are fortunate in that the Presidents from 18 of the 
universities are in attendance today, and they also are 
prepared to answer questions should any Member ask them. That 
is a little unusual. Normally our questions are asked of just 
the folks at the table, but given the significance of all the 
Presidents who are here, Members are advised that they may ask 
any of the university Presidents in the room questions during 
the questioning.
    In addition to our witnesses joining us today, we have Dr. 
Andrew Hugine from Alabama A&M in Normal, Alabama. We have Dr. 
Alfred Rankins, President, Alcorn State University, Lorman, 
Mississippi. We have Dr. Cynthia Jackson-Hammond, President of 
Central State University in Wilberforce, Ohio. We have Dr. 
Harry Williams, President of Delaware State University, 
Wilmington, Delaware. We have Dr. Raymond Burse, President of 
Kentucky State University from Frankfort, Kentucky. We have Dr. 
Kent Smith, President of Langston University from Langston, 
Oklahoma. We have Dr. Kevin Rome, President of Lincoln 
University in Lincoln City, Missouri.
    We have Dr. W. Franklin Evans who is President of South 
Carolina State University in Orangeburg, South Carolina. We 
have Dr. Ray Belton, President, Southern University System, 
Baton Rouge, Louisiana. We have Dr. Laurence B. Alexander, 
Chancellor, University of Arkansas, Pine Bluff, Pine Bluff, 
Arkansas. We have Dr. Pamela Hammond, Interim President, 
Virginia State University, Petersburg, Virginia. And finally we 
have Dr. Brian Hemphill, President of West Virginia State 
University, Institute, West Virginia.
    If there are others in attendance and I didn't mention your 
name, please know that the Committee values your contributions, 
and we will get your name if you are not here, and I will 
recognize you later in the program.
    [The prepared statement of Mr. Conaway follows:]

  Prepared Statement of Hon. K. Michael Conaway, a Representative in 
                          Congress from Texas
    Good morning.
    Today, the Committee on Agriculture will shift its focus from 
legislation and oversight, to one of a less political nature, but of 
significant importance nonetheless.
    Land-grant institutions are often categorized as 1862, 1890, and 
1994 institutions, based on the date of the legislation that designated 
most of them with land-grant status.
    August 30th marks the 125th anniversary of the enactment of the 
Morrill Act of 1890, commonly referred to as the Second Morrill Act. 
This law authorized additional direct appropriations for the land-grant 
colleges of agriculture that had been established under the Morrill Act 
of 1862.
    The most significant feature of the Second Morrill Act was that the 
1862 schools could receive the additional funds only if they admitted 
blacks into their programs or if they provided separate but equal 
agricultural higher education to black students.
    In the period following the Civil War, sixteen southern states 
established separate land-grant colleges of agriculture for black 
students under this Act; Congress designated Tuskegee University an 
1890 institution at a later date.
    Today, in honor of the continuing contribution of these important 
institutions, we would like to hear directly from their leaders 
regarding not only the successes of the individual institutions, but 
likewise, the successes of the 1890's generally.
    In the coming months, we will further evaluate the land-grant 
system looking for ways to strengthen their capacity to improve our 
agricultural research, extension and educational programs.
    While six of the 1890's Presidents will testify this morning, we 
are fortunate in that the Presidents from 18 of the universities are in 
attendance today and are prepared to answer Members' questions:

    In addition to our witnesses, we have joining us:

    Dr. Andrew Hugine, Jr., President, Alabama A&M University, Normal, 
AL.
    Dr. Alfred Rankins Jr., President, Alcorn State University, Lorman, 
MS.
    Dr. Cynthia Jackson-Hammond, President, Central State University, 
Wilberforce, OH.
    Dr. Harry L. Williams, President, Delaware State University, 
Wilmington, DE.
    Dr. Raymond M. Burse, President, Kentucky State University, 
Frankfort, KY.
    Dr. Kent J. Smith, Jr., President, Langston University, Langston, 
OK.
    Dr. Kevin Rome, President, Lincoln University, Jefferson City, MO.
    Dr. W. Franklin Evans, President, South Carolina State University, 
Orangeburg, SC.
    Dr. Ray Belton, President, Southern University System, Baton Rouge, 
LA.
    Dr. Laurence B. Alexander, Chancellor, University of Arkansas Pine 
Bluff, Pine Bluff, AR.
    Dr. Pamela V. Hammond, Interim President, Virginia State 
University, Petersburg, VA.
    And finally, Dr. Brian O. Hemphill, President, West Virginia State 
University, Institute, WV.
    If there are others in the audience that I didn't mention by name, 
please know that the Committee values your contributions.
    It is now my pleasure to recognize the Ranking Member for any 
comments he wishes to make.

    The Chairman. So with that, I would like to recognize the 
Ranking Member, Collin Peterson, for any comments he may wish 
to make.

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    Mr. Peterson. Thank you, Mr. Chairman. Good morning 
everybody. I am glad to be here today to celebrate the 
anniversary of the enactment of the Second Morrill Act. And I 
am pleased that our 1890 land-grant university Presidents could 
join us today, including the President of the newest land-grant 
university, Dr. Cynthia Jackson-Hammond, from Central State 
University in Ohio. Thank you all for the good work that you 
do.
    As the Chairman said, the land-grant universities play an 
important role in agricultural research, extension, and 
educational programs. Research, as we know, is vital to 
agriculture. USDA's research, education extension programs help 
increase productivity, prevent plant and animal disease, 
improve human nutrition and health, and discover and utilize 
new technologies.
    So I look forward to hearing from all of you today and look 
forward to future hearings on agriculture research. Again, 
welcome to today's witnesses and all the other folks that are 
here. I look forward to the testimony and yield back.
    The Chairman. I thank the gentleman.
    The Chairman. It is now my pleasure to recognize the 
gentleman from Georgia, David Scott, and the instigator of all 
this madness today. So, David, any comments you would like to 
make.

  OPENING STATEMENT OF HON. DAVID SCOTT, A REPRESENTATIVE IN 
                     CONGRESS FROM GEORGIA

    Mr. David Scott of Georgia. Yes I would Mr. Chairman. The 
first comment I would like to make is just a tremendous thank 
you for your help on this. It may have been a germination of a 
seed coming from me, but its growth, its development, and to 
make sure this happened, comes from you.
    And it is very important for everybody to know that this 
extraordinary, historic hearing today would not have happened 
if it were not for the hard work and the help, tremendous help, 
and the leadership of Mike Conaway, our distinguished Chairman. 
I wish you would join me in giving him a round of applause.
    And, of course, it would not be possible if we did not have 
an extraordinary Chairman on the Democratic side, who for many 
years has toiled in the vineyards and have helped us on this 
Committee and throughout this nation in putting the interests 
of African-American 1890s land-grant colleges at the forefront, 
and I am speaking of who is now our Ranking Member, Collin 
Peterson, who is a former Chairman and provided so much 
leadership; and as he just mentioned to me, everything I did, 
David, I just did what the colleges wanted me to do, and that 
is Collin Peterson. Why don't you give him a hand.
    It is so important for us to recognize, ladies and 
gentlemen, that this is a bipartisan effort. You see before you 
Democrats and Republicans who care about our 1890s. That has 
been the history of it. It was through bipartisanship, 
Republicans and Democrats, if you all remember the Senator, I 
believe, Morrill, who started this first. And then he came back 
during the time when there was the Separate But Equal Doctrine 
and made sure that it was written into the law. As a United 
States Senator, he did that to say that the funds going into 
the 1890s would not be separate nor discriminate against and to 
make sure that there is funding for these 1890 institutions.
    And so we stand here, Democrats and Republicans, looking 
out at this wonderful audience, and as the Chairman has said, I 
have never seen such a crowd. And that is important for they 
understand how important the education of all of America's 
people is.
    And so, Mr. Chairman, I am delighted to be here, and I want 
to thank your staff, who did an extraordinary amount of work. 
And I want to thank my staff and Arthur Tripp. Arthur, are you 
here? Fantastic. Why don't we give our staffs a hand. Thank 
you.
    And so I close with this reminder. I want everyone to know 
that there are hundreds of thousands of African-American 
successful contributors to this nation and the world who would 
not have achieved that success if they did not have that way 
out towards education, that the 1890s provided for us African-
Americans. And so we thank you for carrying on this 
extraordinary pilgrimage and honor and distinction of carrying 
forth and making sure that deep in our hearts those words that 
I mentioned in my prayer is echoing through this room.
    The words of George Washington Carver rang true when he 
spoke to Booker T. Washington; and let us remember them today 
when he told Booker T. Washington that, ``Mr. President, I 
pledge to you that I will do everything I can through the 
strength of Christ who strengthens me to better the condition 
of our people.'' We are here to carry that charge. Thank you, 
Mr. Chairman.
    The Chairman. Thank you, David. I appreciate those 
comments.
    I also, too, want to thank our staffs. You and I make 
decisions; Collin and I make decisions, but our staffs are the 
ones who do all the work and put this together. The chair 
requests that other Members submit their opening statements for 
the record so that our witnesses may begin their testimony and 
to ensure there is ample time for questions.
    Now, turning to the witnesses at the table. I did not leave 
you all off the list of Presidents who were here. We just had a 
different time to introduce you.
    First off is Dr. George C. Wright, President, Prairie View 
Agriculture and Mechanical University, Prairie View, Texas. Dr. 
Jessica Bailey, Interim President, Fort Valley State 
University, at Fort Valley, Georgia. I have asked Ms. Alma 
Adams to introduce our next witness.
    Ms. Adams. Thank you, Mr. Chairman. As the Chancellor of 
America's largest historically black university, and my alma 
mater, North Carolina A&T State University, Dr. Harold Martin, 
Sr., has dedicated his career to helping students succeed in 
higher education.
    He is a native of Winston-Salem, North Carolina. He 
received his Bachelor's and Master's of Science in electrical 
engineering from North Carolina A&T, and Ph.D. from Virginia 
Polytech Institute and State University. He has held numerous 
positions in university administration at North Carolina A&T, 
at Winston-Salem State University, and the University of North 
Carolina at Chapel Hill.
    President Obama named Chancellor Martin to the Board of 
International Food and Agricultural Development, a board that 
advises the United States Agency for International Development 
on agriculture and higher education. Dr. Martin leads this 
premier 1890 land-grant university with passion and purpose 
promoting global and cultural competency and social awareness.
    Today A&T is growing both in terms of student enrollment 
and in investment. And since 1999, A&T has expanded its 
investments in facilities and infrastructure, transforming the 
campus into one of Greensboro's main economic engines.
    Today we recognize the importance of 1890 land-grants and 
all that it has done to create and sustain historically black 
colleges and universities. In April, North Carolina A&T 
celebrated the 125th anniversary of the Second Morrill Act of 
1890, established the funding mechanism and framework for 
providing access to education.
    As a two-time alumnus of North Carolina A&T, and as Mr. 
Scott has said, I did my later work, my terminal degree, at the 
Ohio State University because of the North Carolina A&T. So I 
welcome my distinguished fellow Aggie to the Committee today to 
share more about this amazing institution and his experiences 
with us this morning. Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you to the gentlelady. I ask the 
gentlelady from Florida, Ms. Graham, to introduce our next 
witness.
    Ms. Graham. Thank you, Mr. Chairman. I am so honored to 
have here today my dear friend, Dr. Elmira Mangum, President of 
Florida A&M University, located in my district. Go Rattlers. 
Under Dr. Mangum's leadership, FAMU and other 1890 institutions 
are leading the way in innovative research that will keep 
American farming practices at the forefront of the industry.
    FAMU has a history of excellence in agriculture, research, 
and development; and today the university boasts programs that 
span a wide range of issues that impact farmers and farm 
practices in the U.S. and worldwide. And I have been very 
honored to have an opportunity to be with Dr. Mangum on 
multiple occasions to hear about all of those.
    FAMU hopes to secure a land transfer agreement with USDA 
that would provide 3,800 additional acres for the university to 
expand its critical work. The land would be a training tool 
where new and beginning farmers will learn the latest in farm 
practices in biotechnology.
    I am so proud to have you here today, Dr. Mangum, to share 
FAMU's accomplishments with my colleagues on this Committee. We 
owe it to our farmers to continue supporting the institutions 
that keep American farming practices competitive. Thank you for 
being here, and I look forward to hearing your testimony. I 
yield back.
    The Chairman. The gentlelady yields back. We also have Dr. 
Brian Johnson, President, Tuskegee University, in Tuskegee, 
Alabama; and Dr. Juliette Bell, President of the University of 
Maryland Eastern Shore in Princess Anne, Maryland.
    So, thanks to everybody for being here. Dr. Wright, 
whenever you are ready to begin, the microphone is yours.

        STATEMENT OF GEORGE C. WRIGHT, Ph.D., PRESIDENT,
            PRAIRIE VIEW AGRICULTURE AND MECHANICAL
                  UNIVERSITY, PRAIRIE VIEW, TX

    Dr. Wright. Good morning, Mr. Chairman, Ranking Member, and 
Members of the Committee, thank you for the opportunity to 
address you today. I am George C. Wright, President of Prairie 
View A&M University.
    Prairie View A&M University is the second oldest public 
institution of higher learning in Texas. On August 14, 1876, 
the Texas Legislature established the Agriculture and 
Mechanical College of Texas for Colored Youths and placed 
responsibility for its management with the Board of Directors 
of the Agriculture and Mechanical College of Bryan, present day 
Texas A&M University, linking the 1862 and 1890 universities 
together.
    Prairie View A&M will have some 9,000 students this fall. 
During its 139 year history, some 60,000 academic degrees have 
been awarded. Prairie View A&M University's agricultural 
program prepares students to enter careers in the human 
sciences, animal, crop, and environmental sciences, and 
agriculture and resource economics. Students work with PVAMU 
faculty who are actively engaged in research that includes but 
is not limited to: increasing the shelf life of dairy products, 
protecting fruits against sun rays, advancing knowledge in the 
use of medicinal plants to improve health, securing water 
resources, and developing strategies to enhance watershed 
functions in a sustainable way.
    Because of the large population of Texas, and with the 
state having the largest number of farms, Prairie View receives 
the largest funding portion of any of the 1890 institutions for 
its various programs. For an example, in the past year, Prairie 
View received some $11 million from USDA. Over the past 10 
years, Prairie View received $42 million for agriculture 
research, $35 million for agricultural extension, and $14 
million to construct new facilities. Federal funding has 
enabled Prairie View to be involved in a number of programs 
that benefit young people not just in rural Texas, but in urban 
Texas as well. For instance, our program for 4-H Youth 
Development works with some 200,000 students throughout the 
State of Texas in a wide range of areas.
    I will conclude by saying that I am honored to have this 
opportunity to testify before you today, and on behalf of the 
faculty, staff and above all, students of Prairie View, thank 
you for this wonderful opportunity; and we appreciate all the 
support we have received from you over the years. Thank you.
    [The prepared statement of Dr. Wright follows:]

Prepared Statement of George C. Wright, Ph.D., President, Prairie View 
        Agriculture and Mechanical University, Prairie View, TX
The History of Prairie View A&M University as a Land-Grant University
    Mr. Chairman, Ranking Member, and Members of the Committee, thank 
you for the opportunity to address you today. I am George C. Wright, 
President of Prairie View A&M University. For those not familiar with 
Prairie View, please allow me to share a brief bit of our history.
    Prairie View A&M University is the second oldest public institution 
of higher education in Texas. On August 14, 1876, the Texas Legislature 
established the ``Agricultural and Mechanical College of Texas for 
Colored Youths'' and placed responsibility for its management with the 
Board of Directors of the Agricultural and Mechanical College at Bryan 
(present day Texas A&M University, linking the 1862 and 1890 land-grant 
universities).
    The University's original curriculum was designated by the Texas 
Legislature to be that of a ``Normal School'' for the preparation and 
training of teachers. This curriculum was expanded to include the arts 
and sciences, home economics, agriculture, mechanical arts and nursing 
after the University was established as a branch of the Agricultural 
Experiment Station (Hatch Act, 1887) and as a land-grant college 
(Morrill Act, 1890). Thus began the tradition of agricultural research 
and community service, which continues today.
    The University's enrollment now exceeds 8,000 including more than 
1,500 graduate students. Students come from regions throughout the 
United States as well as many foreign countries. During the 
University's 139 year history, some 60,000 academic degrees have been 
awarded.
Prairie View A&M University's Agriculture Program
    Prairie View A&M University's agricultural program prepares 
students to enter careers in the human sciences, animal, crop and the 
environmental sciences, and agricultural and resource economics. The 
University has a deep sense of responsibility and is committed to using 
its talents and resources to apply knowledge that will help advance the 
State of Texas in the global economy. PVAMU faculty are actively 
engaged in research that includes but not limited to: increasing the 
shelf life of dairy products, protecting fruits against sun rays, 
advancing knowledge in the use of medicinal plants to improve health, 
removing allergens from peanuts, securing water resources, and 
developing strategies to enhance watershed functions in a sustainable 
way. For instance, researchers at PVAMU are developing a set of 
management tools to enable watershed managers, regulators and other 
stakeholders to predict various short- and long-term land management 
scenarios and the impact of extreme weather conditions. Additionally, 
PVAMU researchers are developing water management strategies to 
optimize crop water use and minimize excess water losses. Funds 
allocated to PVAMU have resulted in nine patents being granted over the 
past 17 years to agricultural researchers in the food and plant 
sciences. Three of the patents deal with infusing fish-oil-based food 
emulsions into foods (milk and milk products, apple sauce, tomato 
sauce, and salad dressings) to increase oxidative stability and 
consumer acceptability of omega-3 fatty acids that are essential for 
maintaining human health.
    Currently PVAMU extension agents are located in thirty-five 
counties in Texas with plans in place to expand to sixty additional 
counties. PVAMU agents work primarily with limited-resource Texans. In 
2010, USDA established a StrikeForce Initiative for Rural Growth and 
Opportunity to address specific challenges associated with rural 
poverty. There are 96 counties in Texas considered by USDA as 
StrikeForce counties. PVAMU proposed expansion is directed toward 
working with citizens of those counties.
    Over the last decade, the Community Economic Development Program 
(CED) has reached 25,000 rural residents, helping to create 800 new 
jobs, which have in turn infused over $30 million into Texas' economy. 
Last year, the CED worked with thirty-eight Texas families to apply for 
home ownership or rehabilitation funding through USDA and $2.5 million 
was approved.
Support from the United States Federal Government
    Because of the large population of Texas and with the state having 
the largest number of farms, Prairie View receives the largest funding 
portion of any 1890 Institution for its programs. In total, PVAMU 
receives about $11 million annually from USDA. Over the past 10 years, 
Prairie View received $42.2 million for agricultural research, $34.5 
million for agricultural extension and $14.1 million to construct new 
facilities or renovate existing ones in the College of Agriculture and 
Human Sciences.
Impact
    With its Federal financial support, the PVAMU 4-H Youth Development 
Program since 2012 has, over the last 5 years, reached more than 
181,000 youth in both rural and urban counties across the state through 
educational programs and activities focused on increasing Science, 
Technology, Engineering, Agriculture, and Mathematics (STEAM) 
awareness, civic participation, and healthy living habits. The PVAMU 
Family and Consumer Sciences Program, along with the 4-H Program, have 
created a core of 622 youth ambassadors who reached more than 35,000 
other youth and family members. Also, the Agriculture and Natural 
Resources Program conducted workshops and assisted 54 small and 
limited-resource Texas farmers in submitting applications for loans 
totaling up to $7.8 million, and to date $4.9 million have been 
approved.
Major Challenge
    Securing the total state match continues to be a major challenge 
for PVAMU to receive the full USDA allocation. Each biennium PVAMU has 
to work assiduously with the State Legislature to secure the match. 
Unfortunately over the years the University has not been successful in 
securing the match and has had to request a waiver from USDA to receive 
its full allocation.
Concluding Statement
    I will conclude by saying that I am honored to have had this 
opportunity to testify before you today and on behalf of faculty, staff 
and students associated with the agriculture program at PVAMU thank you 
for your continuous support.

    The Chairman. The gentleman yields back, and the chair 
recognizes that he left 2 minutes on the clock. So, Doctor, I 
thank you very much for that. We appreciate that. Those of you 
that are just new to this process, that is a big deal. So thank 
you, Dr. Wright.
    Dr. Bailey, you are recognized for 5 minutes.

         STATEMENT OF JESSICA M. BAILEY, Ph.D., INTERIM
         PRESIDENT, FORT VALLEY STATE UNIVERSITY, FORT
                           VALLEY, GA

    Dr. Bailey. Thank you. Chairman Conaway, Ranking Member 
Peterson, and Members of the House Committee on Agriculture. My 
name is Jessica Bailey, and I serve as the interim President of 
Fort Valley State University. I would like to just highlight 
some of the wonderful work that is being done at Fort Valley 
State University.
    Fort Valley State is supporting USDA Strategic Goal 1 by 
researching renewable energy and biobased products. In 
particular we are doing research on the Paulownia elongata 
tree, forestry woods, and switchgrass. In addition, biodiesel 
processing basics have been introduced to over 500 4-H and FFA 
students in Georgia.
    Through Project GREEN, Fort Valley State has been able to 
save Georgians thousands of dollars through energy audits, 
equipment efficiency savings, and weatherization upgrades. We 
are also involved in the process of recruiting and training a 
new generation of agricultural and food scientists. For 
example, young people come to our institution to receive 
communications and professional skills training. We have 
programs that reach out to K through 12 levels of students and 
give them hands-on experience in molecular biology techniques.
    Also, all of these programs serve as a pipeline to our 
stellar programs in veterinary technology and agricultural 
biotechnology. We are also diligent in supporting USDA 
Strategic Goal 2, because we collaborate with other entities to 
support minority forest landowners. We increase the overall 
knowledge through training and money management skills, estate 
planning, marketing, and other necessary skills, and by doing 
so, we have contributed to the efficient distribution of 
millions of dollars.
    We support Strategic Goal 4 by promoting healthier diets 
and reducing the risk of foodborne illnesses. More than 12,000 
youths in Georgia have been given training in food education. 
Also, the university conducts world-renowned research on sheep 
and goat herds, as well as the development of healthier 
livestock products.
    We have done groundbreaking research in peach trees, 
identifying factors that contribute to tree survival and fruit 
production. We also have programs that do training to educate 
farmers and ranchers about the offerings of the USDA. We have a 
mobile information technology center that assists the elderly 
and shut-ins.
    Last year it is estimated that we were able to save 
Georgians more than $5\1/2\ million. We appreciate the support 
that we have received in the past, and we know that increased 
funding can enable us to become a unique demonstration farm for 
resource-constrained small farmers and ranchers.
    Producers must become environmental stewards, and so we 
envision that we can create a dynamic nutrient-cycling system 
for sustainable, organic, small-scale production. It can save 
costs. We can produce food to be consumed on our campus, and 
also we can assist in helping the United States fortify its 
position as the world leader in food production.
    Thank you for allowing me the opportunity to report on what 
Fort Valley State University has done and can do. Thank you.
    [The prepared statement of Dr. Bailey follows:]

Prepared Statement of Jessica M. Bailey, Ph.D., Interim President, Fort 
                Valley State University, Fort Valley, GA
    Testimony on the request to the Task Force for $37 Million Each 
Year for Five Years in the Areas of Motivating and Educating Students 
for Achievement; Innovative and Sustainable Small Farmers, Ranchers and 
Landowners; and International Engagement and Development before the U. 
S. House of Representatives for the Committee on Agriculture July 13, 
2015.
    Chairman Conaway, Ranking Member Peterson, and Members of the House 
Committee on Agriculture. My name is Jessica Bailey and I serve as the 
Interim President of Fort Valley State University.
    It is indeed an honor to be here along with my fellow colleagues to 
testify on the impact of United States Department of Agriculture (USDA) 
funding on the 1890 land-grant universities. Fort Valley State 
University was established in 1895 and was designated a land-grant 
university pursuant to the Second Morrill Act of 1890. The school's 
College of Agriculture, Family Sciences and Technology offers 
undergraduate programs in eight areas and graduate programs in Animal 
Nutrition, Reproductive Biology, and Animal Products Technology, Plant 
Biotechnology, Animal Biotechnology and Applied Biotechnology.
    Thank you for the opportunity to share our work and offer insights 
into how USDA funding received via Evans-Allen Program, 1890 
Institutions Extension, 1890 Capacity Building Grants, McIntire-Stennis 
Cooperative Forestry, Cooperative Extension, Teaching Grants, and other 
research grants has been impactful and how, if enhanced, we could be 
even more effective.
    With regards to USDA Strategic Goal 1, assisting rural communities 
to create prosperity so they are self-sustaining, re-populating, and 
economically thriving, FVSU has supported development, production and 
consumption of renewable energy and biobased products. The National 
Institute of Food and Agriculture (NIFA) states the importance of 
sustainable bioenergy describing it as ``valuable to the nation's 
ability to create new jobs and promote rural prosperity''. USDA Federal 
funding has helped FVSU address the challenges in the production of 
sustainable bioenergy.
    Additionally, FVSU researchers have been working on developing a 
sustainable bioenergy system using Paulownia elongata trees as an 
alternative fuel. Our current research indicates that there is immense 
potential for Paulownia as a bioenergy crop for farmers and growers in 
the southeastern United States. Our preliminary studies indicate that 
Paulownia can be harvested as a short rotation tree crop after 18-20 
months for the production of ethanol or bio-gasoline and for timber in 
a 7-8 year rotation.
    FVSU and Oklahoma State University are also evaluating sweet 
sorghum as a potential renewable energy crop for ethanol production. 
This high carbohydrate producer crop can be cultivated on marginal 
lands, has low input requirements and is adapted to nearly all 
temperate climates.
    Several power generation companies have visited our experimental 
research farm to see the potential application of our bioenergy 
research in moving toward biomass-based power generation. We have 
introduced biodiesel processing basics to over 500 4-H and FFA students 
in Georgia with one high school student winning a county-wide science 
fair and competing in an international science fair.
    Fort Valley State University has been able to educate over forty 
low to moderate income families on Energy Audits and to distribute 
energy related publications to over 240 Georgians through its Project 
GREEN, which stands for Georgia Residential Energy Efficiency Network. 
Through the GREEN Project, residents received 12 free energy audits 
providing for an additional savings of $4,800.00, 14 free energy kits 
that provided an energy efficiency saving of $20,007.68, and 484 CFL's 
were distributed to Georgia residential homes resulting in a $32,525.00 
energy efficient equipment cost savings. FVSU also partnered with the 
Middle Georgia Community Action Agency to perform weatherization 
upgrades valued at more than $10,000 for eligible senior citizens.
    Additionally, FVSU has initiated an investigation on the use of 
forestry woods and energy crops (switchgrass) as renewable energy 
sources for power generation through combustion for greenhouse heat. In 
fulfilling Objective 1.1 of enhancing rural prosperity, including 
leveraging capital markets to increase government investment in rural 
America, FVSU has provided Stronger Economies Together training to 
Georgia's designated SET teams. As a result of the SET training both 
teams received approximately 40 hours of technical assistance to aid 
them in the development of their high quality plans to address an 
aspect of their region's community and economic development 
deficiencies. The teams' coverage area encompassed 24 counties, of 
which approximately 96% are designated as StrikeForce counties.
    Another objective of USDA Strategic Goal 1 is to protect the 
foundation of the Agricultural System. In order for this to happen, the 
nation must recruit and train a new generation of agricultural 
scientists and also increase the number and diversity of students 
entering the agricultural and food sciences fields. Fort Valley State 
University is involved in this effort in many ways.
    Through one grant, FVSU has increased awareness of career 
opportunities in food and agriculture among high school students in 
Georgia and increased the number of minorities in the agricultural 
economics professional workforce by providing undergraduate 
agricultural economics students the opportunities for professional 
development which translates into higher retention rates and higher 
graduation rates. Results of this program included one FVSU 
agricultural economics major being on the second place team at the 
Southern Agricultural Economics Association quiz bowl. Additionally two 
FVSU students won second and third places at the Biennial Research 
Symposium of the Association of 1890 Research Directors student paper 
competition.
    Under another grant, FVSU is enhancing the number and quality of 
underrepresented populations in agricultural economics to satisfy the 
demand for highly qualified personnel in the workforce and in graduate 
education. Results during the first year included an enhanced 
appreciation for the scope of agriculture and participation in the 
MANRRS National Conference to further develop communication and 
professional skills and an enhanced understanding of the scope of 
agriculture.
    A separate grant had as its objective to enhance the quality of 
animal science undergraduate and graduate degree programs by 
incorporating hands-on experience in molecular technologies in 
instruction. An additional goal is to expose K-12 students to 
agricultural biotechnology through mini-projects and workshops. Such 
students with practical experience in molecular technology will be 
better prepared to (a) make career decisions, (b) pursue graduate 
studies and, (c) seeking employment in industry, academia and 
government agencies. As a result of this program, an 8th grader from 
Fagan Mill Middle School in Houston County conducted a research project 
entitled, ``Plasmid DNA transformation in E. Coli: effect of microwave 
on transformation efficiency''. The student received first prize for 
his project in a regional science fair and was selected for the Georgia 
State Science Fair at the University of Georgia where he also received 
two prizes. Workshops have been conducted at local high schools to 
inspire students to major in Ag biotechnology.
    A grant whose goal is to empower youth by assisting them in 
developing leadership, career and interpersonal skills will include a 
summer weeklong tour of agribusiness firms, government agencies, and 
1862 research institutions. After completion of the 8 month program 
students will be expected to apply for summer research internships with 
1862 and 1890 institutions, governmental agencies or industry.
    Another of FVSU's projects aims to increase recruitment and 
retention of minorities in veterinary medicine at all levels. FVSU 
offers the only accredited Bachelor of Science degree in veterinary 
technology in the University System of Georgia, and the only accredited 
Veterinary Technology Program at a Historically Black College and 
University.
    In an additional future grant, FVSU aims to enroll and graduate at 
least 15 students in agricultural biotechnology at FVSU through 
systematic and proven outreach to local high schools focusing on 
underrepresented students. The project will advance the institution's 
and NIFA's missions to recruit, retain and graduate higher numbers of 
professionals in plant biotechnology.
    FVSU has submitted and been permitted to develop a proposal for a 
Food Science BS program. While we are awaiting final approval, the 
establishment of this new Food Science program was recommended by the 
project evaluation committee at the beginning of this funded teaching 
project.
    Our U.S.-Honduras partnership has the goal of strengthening global 
competence of students and faculty in food and agricultural sciences, 
expanding their global awareness in a Central American culture, and 
introducing them to a new global vision through collaborative 
partnerships with Honduran institutions.
    As a result of all of these grants FVSU has been ranked No. 11 in 
producing agricultural undergraduate degrees; No. 28 in producing 
electronic engineering technology undergraduate degrees; and No. 47 in 
producing family and consumer science undergraduate degrees for persons 
of African-American descent. FVSU is also ranked No. 34 in producing 
agricultural undergraduate degrees for all minority races. In graduate 
programs, FVSU is ranked No. 25 in producing graduate degrees for 
persons of African-American descent, in the biological and biomedical 
sciences programs, which would include our graduate programs in public 
health, animal science and biotechnology.
    With regards to USDA Strategic Goal 2, to ensure our National 
Forest and private working lands are conserved, restored, and made more 
resilient to climate change, while enhancing our water resources, one 
of the objectives that helps accomplish this goal is through the 
improvement of the health of the nation's forests, grasslands and 
working lands by managing natural resources. Of Georgia's 24.7 million 
acres in forestland, nearly 18 million acres are owned by private non-
industrial landowners. Timber is the highest valued vegetative crop in 
Georgia. Georgia's forest resource creates a $12.7 billion direct 
economic impact in the state.
    FVSU's Cooperative Extension Program is collaborating with the 
University of Georgia Cooperative Extension Service, USDA Rural 
Development, USDA Forest Service and other agencies to address the 
issues of minority forest landowners not receiving any technical 
assistance and/or information that will assist them in their operation 
of maintaining and managing their forestlands to maximize their 
operation's income. The impact of this program is an increase in the 
overall knowledge of 350 landowners in the following topic areas: wills 
and estate planning, timber management and marketing, USDA cost-sharing 
programs, wildlife management, and land management including surveying. 
Additionally, factsheets on the Tree Assistance Program have been 
developed and distributed throughout the FVSU Extension 30 county area.
    Landowner Initiative for Forestry Education or (LIFE) Program 
resulted in twenty workshops being conducted for more than 1,300 
landowners. FVSU hosted ten estate planning clinics, which resulted in 
45 estate plans saving Georgians over a quarter of a million dollars 
and succession plans involving $33 million in homes and assets.
    In relation to USDA Strategic Goal 4, which is to ensure that all 
of America's children have access to safe, nutritious, and balanced 
meals, FVSU has promoted healthy diets, physical activity, and the 
improvement of access to nutritious food. A key priority of NIFA is 
addressing the causes of obesity and finding effective interventions. 
We believe that if we can address the obesity problem in children, then 
we will have healthier adults. FVSU, as part of the Expanded Food and 
Nutrition Extension Program (EFNEP), is helping parents feed their 
children healthier meals and snacks, save money on food and reduce the 
risk of foodborne illnesses. Nutrition education is also provided to 
youth ages 4 through 18. USDA Evans-Allen Funding has helped FVSU 
develop economically viable nutritional strategies that result in 
healthier goat products and sustainability of small goat farms. The 
impact of this work is that dairy goat farmers can replace a large 
amount of corn with smaller amounts of soybean oil in goat diets to 
produce milk with a healthier fatty-acid composition.
    The FVSU 4-H program has engaged 3,000 youth in healthy living 
activities resulting in improvement of dietary choices, improvement of 
attitudes toward and understanding of healthful foods, increased 
willingness to try new nutritional foods, increased understanding of 
the elements of sound nutrition and daily caloric need versus physical 
exercise, and increased participation by the family in eating together. 
In 2014, the FVSU 4-H program also engaged 12,543 youths in 
experiential learning opportunities in an effort to increase their 
knowledge, skills, competencies, and experiences. The impact of the 
Program resulted in raising enough money to contribute to rebuilding a 
fire damaged local library and gaining national recognition. Also, FVSU 
is in the process of creating a Mobile Food and Nutrition Unit that 
will expand our food safety, nutrition and health education outreach 
programs. This is in addition to our on campus facility that supports 
teaching, research and extension programs.
    Fort Valley State University works with farmers in order to reduce 
infection by gastrointestinal nematodes that threaten the economic 
viability of the farmer and the health of the sheep or goat. Because of 
the work of Fort Valley State University and a consortium of others, 
farmers have greatly improved the sustainability of their sheep and 
goat production systems through the use of Sericea lespedeza and other 
condensed tannin-containing plants. This has helped farmers reduce 
synthetic drug usage by up to 90 percent which saves approximately 
$150-$200 per 100 animals per year and identify and retain parasite-
resistant breeding stock. Anemia detection has also been made easier 
for sheep and goat producers because of work of the consortium.
    Fort Valley State University researchers have demonstrated the use 
of non-thermal technology for the destruction of E. coli on goat 
carcasses and continue to evaluate cost-effective pathogen reduction 
strategies and food safety training for small and very small meat 
processors in Georgia. The impact of this project to Georgia's 
agriculture is the enhanced safety and marketability of meat products 
through the improvement of processing intervention treatments or a 
combination of treatments applicable to small and very small processors 
and an increased knowledge of food safety practices.
    Fort Valley State University is researching the sustainability of 
the dairy goat industry and limited resource dairy goat farmers through 
the development of goat milk infant formula, reduced fat and reduced 
cholesterol goat cheeses and yogurts, iron fortified and CLA enhanced 
goat cheeses. Additional Federal funding is allowing the development of 
nutritionally enhanced small ruminant meat and dairy products with high 
levels of antioxidants and longer shelf stability.
    FVSU Agricultural Research on winter cover crops based dryland and 
irrigated farming systems for the production of field and vegetable 
crops has contributed to increased use of winter cover crops in the 
cultivation of important cash crops, such as cotton and corn in 
Georgia. More than 35 years of FVSU research on peach tree short life 
and rootstock has accomplished a wider understanding of biotic and 
abiotic stress factors responsible for reducing tree survival, orchard 
longevity, and fruit production. FVSU's biotechnological 
investigations, involving development of in vitro plant regeneration 
protocols amenable to genetic enhancement, indicates that peach is a 
highly recalcitrant species.
    To provide support to beginning farmers and ranchers in agriculture 
and to improve outreach and communication to military veterans about 
farming and ranching opportunities, FVSU has conducted three quarterly 
workshops impacting Georgia's StrikeForce counties that have engaged 
245 participants on USDA programs, GAP/GHP certification, organic and 
sustainable food production, conservation and assistance available from 
USDA and local farm support agencies. FVSU has several agreements with 
USDA agencies to assist beginning farmers and small and limited 
resource farmers. FVSU also provides technical assistance to under-
served farmers in the development of farm conservation plans.
    Additionally, the 2014 Farm Bill provides support for conservation 
practices. FVSU research has demonstrated that cover crops improve soil 
quality by increasing soil organic nitrogen and carbon composition, and 
can also enhance spring soil microbial activity essential for release 
of nutrients for a subsequent summer cash crop. County extension agents 
serving 34 counties (primarily StrikeForce Counties) assist small and 
limited resource farmers, as well as veterans and ranchers in a variety 
of ways. Family and Consumer Science Agents afford homeowners 
opportunities relating to safety, food preparation, and nutritional 
planning.
    FVSU has an 18 acre organic farming system where farmers are 
exposed to organic tree, shrub and vine fruit growing, organic barrel 
gardening, organic small plot gardening, organic hoop house gardening, 
and organic animal production. We have year-round breeding of goats, 
genetic manipulation in goats that can lead to production of goats with 
larger muscle mass, year-round marketing of dairy goat products and 
recognition from the American Dairy Science Association. Sheep breed 
evaluation resulted in the establishment of additional flocks of sheep 
in the Southeast. Meat/goat/buck performance testing by our researchers 
in studying growth and muscle development, internal parasite tolerance, 
behavior, and reproductive capacity of bucks of different breeds has 
created an awareness of the importance of using scientific data, in 
addition to physical appearance of animals, in selection programs. FVSU 
work has helped producers understand the extent of genetic differences 
within a herd and its relationship to performance.
    The Georgia Small Ruminant Research and Extension Center (GSRREC) 
at Fort Valley State University (FVSU) is the largest such facility 
east of the Mississippi River and is recognized as a national leader in 
goat research. Small ruminant scientists, producers, and individuals 
interested in goat production visit the facility from all over the 
world.
    Our Mobile Information Technology Center educates communities on 
record-keeping and accessing USDA information on the web. It is also 
used to assist in providing services to veterans and others who need to 
utilize technology to access government services via the web. 
Additionally, working with the State Health Insurance Assistance 
Program and the Senior Medicare Patrol, we have saved Georgians more 
than $5\1/2\ million.
    Life on the Farm (LOTF) is a live animal mobile exhibition 
providing firsthand knowledge of farm life and how it affects each 
person on a daily basis. The Life on the Farm educational program is 
presented throughout the state at locations such as schools, daycare 
centers, public libraries, churches, town festivals, fairgrounds and 
other public meeting places. Life on the Farm completed 50 visits to 
sites in 18 different cities. Across Georgia, 6474 youth and 1154 
adults participated in the Life on the Farm experience.
    We appreciate the long-running support that this Committee has 
shown for agricultural research, extension, and higher education at 
Fort Valley State University. A continuation of funding for Fort Valley 
State University will allow the university to (1) contribute 
significantly to the United States being a world leader in the 
production of bioenergy and at the same time provide a source of 
revenue for small and limited resource farmers and ranchers, (2) 
improve the economic viability of rural families through reducing 
energy consumption and an diversification of agricultural products, (3) 
increase the number of students of color into the agricultural industry 
while also offering these students the global knowledge and skills 
necessary to operate in today's global economy, (4) increase the 
nutrition, diet and health of limited-resources families with an 
emphasis on reducing obesity, (5) enhance 4-H and youth skills in 
science, technology and math, (6) improve technology proficiency for 
farmers, senior citizens, youth and other rural Americans, and (7) 
provide education opportunities for landowners in sustaining and/or 
increasing their land productivity. These are things we have done and 
will continue to do.
    But our service to the State of Georgia and to this nation can 
expand with your increased assistance. It will enable Fort Valley State 
University to become a unique showplace as a demonstration farm for 
small farmers and ranchers who are resource constrained. Small and 
limited resource farmers make up a majority of the farms in the United 
States. In the Southeast, many of these farmers are former tobacco 
producers, interested in growing other high-value crops for better 
long-term economic stability. Many farmers, both organic or 
conventional, are concerned about energy costs, fertilizer costs, soil 
management, water use and quality, invasive species management, 
alternative pest control methods, climate change, and the production of 
crops on their farms. Developing integrated agriculture production 
systems (plant and animal) which address these factors for small-scale 
producers and entrepreneurs would greatly benefit farmers in rural and 
economically depressed regions of the United States. FVSU's goal is to 
develop an integrated plant and animal agriculture production system as 
a model for small-scale producers and entrepreneurs to improve 
sustainability in these regions.
    With increasing fertilizer costs and environmental consequences of 
nutrient runoff, developing low cost sustainable nutrient management 
systems is important for limited resource farmers not only for cost 
savings, but for environmental stewardship. In order to create a 
dynamic nutrient cycling system for sustainable/organic small farm 
production integrating plant and animal systems, FVSU could establish a 
50 acre demonstration farm to (1) identify agricultural waste for 
compost and feeding for soil nutrient management and animal production, 
(2) develop safe and sustainable effluent and aquaponic systems with 
vegetable crops and an aquaculture species, (3) develop a sustainable 
forage-based small ruminant management practice, and (4) assess the 
economic sustainability of the proposed integrated system of 
production. By combining plant and animal systems, agro-diversity and 
profitability will be optimized by creating year-round income for small 
producers, dynamic food webs, and nutrient systems with high-value 
crops in economically depressed regions. Additionally, food produced on 
this model farm will be served at our campus dining establishments, 
which will contribute to developing a campus culture that promotes 
sustainable foods and environmental stewardship. Last, FVSU will be 
making a contribution to helping the U.S. incrementally fortify its 
status as the world leader in agricultural innovation.

    The Chairman. Thank you, Dr. Bailey.
    Dr. Martin, your 5 minutes.

 STATEMENT OF HAROLD L. MARTIN, Sr., Ph.D., CHANCELLOR, NORTH 
     CAROLINA AGRICULTURAL AND TECHNICAL STATE UNIVERSITY, 
                         GREENSBORO, NC

    Dr. Martin. Good morning, Chairman Conaway, Ranking Member 
Peterson, Members of the House Committee on Agriculture. With 
special recognition being given to Congressman David Scott for 
his commitment to 1890 land-grant institutions, Congressman 
David Rouzer of North Carolina, and North Carolina A&T 
University graduate, Congresswoman Alma Adams, who has served 
as a Representative and advocate for more than 20 years, both 
in the North Carolina General Assembly, and now in the U.S. 
House of Representatives.
    I am Harold Martin, Chancellor of North Carolina A&T State 
University; and, Mr. Chairman, I am absolutely pleased to be 
here to testify before this Committee today.
    Today's hearing provides 1890 land-grant institutions the 
opportunity to highlight the innovative research being 
performed by our outstanding faculty, discuss the return on 
investment we provide to our local, state and regional 
economies through the education, research, and outreach we 
provide, and I will offer recommendations for ways the Federal 
Government can further support the 1890 community.
    Established in 1891, shortly after the passage of the 
Second Morrill Act, North Carolina A&T State University is a 
university with a variety of academic and research programs, 
serving approximately 10,700 students. Provides throughout its 
history ladders of opportunity to high-achieving students 
seeking a superior education and ensuring the betterment of 
under-served communities in North Carolina and beyond.
    In an era when family farms and farmland are rapidly 
disappearing from the American landscape, farm Census data 
shows that African-American farms in North Carolina are on the 
rise. Despite these successes challenges still loom for the 
small and minority farm communities. The A&T provides these 
farmers opportunities to enhance their success through 
dedicated and knowledgeable extension agents, deploying new 
science and innovative farming techniques, developed by faculty 
and other institutional partners.
    Three examples illustrate the outstanding work that our 
faculty and staff do. First, the Piedmont Triad region where 
the university is located was ranked one in the nation for food 
insecurity by the Food Research and Action Center. USDA has 
also designated 24 food deserts in the City of Greensboro. In 
recognizing that need, A&T has partnered with the City of 
Greensboro to establish the city's first urban farming 
enterprise to serve residents of longstanding food deserts.
    A&T is now training those residents in best practices for 
urban farming, providing communities with nutritional 
programming aimed at reducing obesity, diabetes, and other 
chronic diseases. The expectation is that this site will become 
a model for other communities across the state.
    Second, in October 2014, National Geographic published an 
extensive expose on North Carolina's persistent hog waste and 
the challenges it created for fisheries and water resources. 
Heeding the call to action, A&T's swine unit used research, 
supported by the Evans-Allen program, developed new 
technologies to attack this problem.
    As a result, the Bioadhesive Alliance, an A&T spin-off 
company, was established to market technology for hog-waste 
derived bioasphalt and bioadhesives that performs better and is 
produced at a fraction of the cost of petroleum-derived 
asphalts and adhesives. This product, which has been named 
PiGrid, has the potential to convert North Carolina's 15.5 
million tons of hog waste from a costly environmental issue 
into a green source of revenue for our state and our farmers.
    Such innovative research underscores A&T's relevance to 
North Carolina's economy where agriculture is the largest 
industry, contributing $78 billion to the state's economy.
    And finally A&T's USDA federally-funded research has 
resulted in notable success important to allergy sufferers. 
Food scientists in our School of Agriculture have developed a 
post-harvest process for reducing the major allergens in 
peanuts. This research has produced the University's newest 
spin-off company, AlrgnBio, which is now marketing 
hypoallergenic peanut technology to technologies for food 
companies. The same A&T research team hopes to expand its 
research to allergen-reducing processes for soy, wheat, and 
tree nuts for the benefit of millions of Americans who suffer 
from these dangerous food allergies.
    Mr. Chairman, Ranking Member, and Committee, as you can 
see, the investments made to A&T through USDA National 
Institute of Food and Agriculture funding have led to 
scientific breakthroughs and innovations in agriculture that 
have created a real return on investments for our taxpayers. To 
sustain the level of innovation I have described, competitive 
funding is essential.
    A&T fully supports President Obama's Fiscal Year 2016 NIFA 
budget request which includes an increase from Fiscal Year 2015 
to support Central State University, the newest 1890 land-grant 
university, and encourages Members of Congress to continue to 
make overall NIFA funding a high priority.
    A&T and its fellow 1890 institutions have always about done 
more with less. However, it has never been by choice. Secretary 
of Agriculture Thomas Vilsack recently cited studies that show 
that every dollar invested in agriculture research returns $20 
to the nation's economy. Unfortunately, each year \1/2\ or more 
of the 1890s do not get the full match from the states they 
serve, and most are required to complete burdensome waiver 
documentation to become eligible for at least a portion of 
Federal funds allocated. A&T requests that Congress provide 
additional oversight to ensure that states meet their 
obligation for providing the one-to-one match, a requirement to 
encourage states to provide eligible formal funding to each 
land-grant university in each state.
    Mr. Chairman, Ranking Member, and Members of the Committee, 
thank you for this opportunity to testify before the Congress.
    [The prepared statement of Dr. Martin follows:]

 Prepared Statement of Harold L. Martin, Sr., Ph.D., Chancellor, North 
  Carolina Agricultural and Technical State University, Greensboro, NC
    Chairman Conaway, Ranking Member Peterson, and Members of the House 
Committee on Agriculture; with special recognition being given to 
Congressman David Scott for his commitment to 1890 land-grant 
institutions and North Carolina Agricultural and Technical State 
University graduate--Congresswoman Alma Adams, who has served as a 
representative and advocate for our university for more than 20 years, 
both in the North Carolina General Assembly and now in the U.S. House 
of Representatives.
    I am Harold L. Martin Sr., Chancellor of North Carolina 
Agricultural and Technical State University (N.C. A&T) in Greensboro, 
North Carolina. Mr. Chairman, I am pleased to submit my written 
testimony for the official hearing record.
    Mr. Chairman, today's hearing provides 1890 land-grants the 
opportunity to highlight the innovative research being performed by our 
outstanding faculty, discuss the ``return on investment'' we provide to 
our local, state and regional economies through the education, research 
and outreach we provide, and offer recommendations for ways the Federal 
Government can further support the 1890 community.
Background: N.C. A&T and the Second Morrill Act of 1890
Yesterday
    In 1890, Congress passed the Second Morrill Act, which included the 
stipulation that African-Americans be included in the U.S. land-grant 
higher education system without discrimination. With southern and 
border states unwilling to admit African-American students to their 
universities, many of states established second land-grant 
institutions. The Agricultural and Mechanical College for the Colored 
Race--now N.C. A&T--was established as that second institution in the 
State of North Carolina by an act of the General Assembly, ratified on 
March 9, 1891. Originally operating in Raleigh as an annex to Shaw 
University, the college made a permanent home in Greensboro. In 1915, 
state legislators changed the college's name to the Agricultural and 
Technical College of North Carolina; and in 1967, they elevated it to 
university status. A&T became a constituent university of the 
University of North Carolina in 1972.
Today
    N.C. A&T is a learner-centered community that develops and 
preserves intellectual capital through interdisciplinary learning, 
discovery and engagement, and is committed to fulfilling its 
fundamental purposes through exemplary instruction, scholarly and 
creative research, and effective public service and engagement. A&T is 
dedicated to providing ``ladders of opportunity'' to high-achieving 
students seeking a superior education and is committed to creating a 
campus climate that fosters student satisfaction and a sense of 
community. The university's academic and outreach efforts illustrate 
how campus and community collaborations enhance the quality of life for 
the citizens of North Carolina, the nation, and the world. Through the 
years, A&T has adapted its curriculum to strengthen science, 
technology, engineering and mathematics (STEM)--its academic core and 
foundation. Riding the crest of the technological revolution, A&T has 
moved rapidly to blend its academic and research programs with the 
needs of society and industry, forming a symbiotic relationship.
    A&T is ranked by the Carnegie Classification System as a 
``doctoral/research university'' and, for the past 9 years, has ranked 
third among The University of North Carolina system's member 
institutions for sponsored research funding. With an enrollment of 
nearly 11,000 students, A&T is recognized as the largest among the 
nation's historically black colleges and universities, and the School 
of Agriculture and Environmental Sciences at A&T is the largest school 
of its kind among the nation's HBCUs. A&T ranks No. 1 in the nation for 
the number of baccalaureate degrees in engineering awarded to black or 
African-Americans (American Society for Engineering Education) and is 
the top producer of African-Americans with undergraduate degrees in 
STEM disciplines, arts and humanities, and education. Notably, the 
Carnegie Foundation for the Advancement of Teaching selected A&T for 
its 2015 Community Engagement Classification.
Tomorrow
    A&T considers the social, economic and global challenges facing 
higher education as opportunities for a new 21st century renaissance. 
The goals established for its future, recognize the importance of 
embracing diverse populations of students and pursuing research agendas 
that focus on the solutions to critical world issues such as poverty, 
health care, adequate and secure foods, clean water and other problems 
that challenge global sustainability. Educational delivery 
methodologies will continue to transcend older limitations imposed by 
time and space. As laid out in our strategic plan, ``A&T Preeminence 
2020,'' A&T is a university committed to embracing the history, 
traditions and outstanding accomplishments of its rich past and 
creating a future as a global driver of technology-enhanced 
scholarship, teaching, learning, and engagement.
A&T's Commitment to Under-Served Communities
    In an era where family farms and farmland are rapidly disappearing 
from the American landscape, North Carolina farm Census data shows that 
African-American owned farms in North Carolina are on the rise, having 
increased in number from 1,491 in 2007, to 1,637 in 2012. Overall 
acreage under cultivation in these enterprises has increased by nearly 
20,000 acres. Despite these successes, challenges loom for North 
Carolina's small farming community, and particularly, for new farmers. 
According to North Carolina farm Census data, 86 percent of African-
American farms had gross sales of less than $50,000 and 51 percent of 
those farmers' sole source of income is farming. Small farmers of all 
races are also aging and nearing retirement and unfortunately, only 
three percent are under 34 years old. A&T is committed to providing the 
education and training needed to attract and retain the next generation 
of farmers and has done so through effective community outreach and 
innovative undergraduate and graduate programs.
    A&T is striving to make small farming in North Carolina more 
profitable and more attractive, while continuing its unique mission to 
serve minorities in rural communities. Through new ideas like our Small 
Farms Collaborative and Local Foods and Health Initiative (funded 
through the 1890 Facilities Program), A&T plans to use its 492 acre 
farm as a strong community education resource for local food 
production. Elements of the farm plan mentioned include a food 
processing facility to teach entrepreneurs how to add value to North 
Carolina agricultural products, a pasture-based dairy and creamery 
producing A&T-branded yogurt, ice cream and artisanal cheeses for 
revenue production, an organic vegetable production research and 
demonstration site, a student-run farm, and land for community gardens 
that will be available to residents of the surrounding communities.
A&T's Commitment to the Piedmont Triad Region
    The Piedmont Triad where A&T is located, was recently ranked No. 1 
in food insecurity in the nation by the Washington-based Food Research 
and Action Center. USDA has designated 24 food deserts in the city of 
Greensboro and many more than that exist across the state. In 
recognizing a need, A&T has partnered with the city of Greensboro to 
establish the city's first urban farming enterprise to serve residents 
of long-standing food deserts. The city has already provided land and 
committed additional resources, and A&T has engaged several 
enthusiastic and well-established community groups, which the 
agriculture school will train in best practices for urban farming. The 
expectation is that this site will become a model for other communities 
across the state.
    A&T's School of Agriculture faculty have also been active in 
getting a new Guilford County Food Council chartered, which is 
dedicated to strengthening the local food system by supporting local 
farms, growers and other food businesses to create access to healthy 
food to all communities.
    In addition to assisting small farms with newly created agriculture 
technologies, A&T's Cooperative Extension service is also helping 
families and communities, particularly in impoverished rural counties, 
with nutrition programming aimed at: reducing obesity, diabetes and 
other chronic diseases; parenting classes for troubled families; 
financial literacy training; and youth development through 4-H 
programs. Cooperative Extension specialists at A&T have also partnered 
with Wal-Mart for research and farmer education on organic 
strawberries. In addition, the Cooperative Extension Program is 
developing organic vegetable production technologies and conducting 
research to serve small-scale meat producers with assistance from 1890 
extension program funding.
A&T's Commitment to North Carolina
    In October 2014, National Geographic published an extensive expose 
on North Carolina's persistent hog waste problem and the challenges it 
creates for North Carolina's fisheries and water resources. Heeding the 
call to action, A&T's swine unit used preliminary research supported by 
the Evans-Allen program to develop solution oriented technology. As a 
result of those efforts, The Bioadhesive Alliance--an A&T spin-off 
company--was established to market the technology for hog-waste derived 
bioasphalt and bioadhesives that perform better and can be produced at 
a fraction of the cost of petroleum derived asphalts and adhesives. 
This product, which has been named PiGrid, has the potential to convert 
North Carolina's 15.5 million tons of hog waste from a costly 
environmental issue into a profitable, green source of revenue for our 
state and our farmers, and will create savings for Departments of 
Transportation and industries that rely on adhesives.
A&T's Commitment to All
    A&T's USDA federally-funded research has resulted in notable 
success important to allergy sufferers. From the university's Carver 
Hall, a building named after agricultural researcher George Washington 
Carver, who is renowned for his work with peanuts, A&T food scientists 
are continuing his legacy. They recently developed a post-harvest 
process for reducing the major allergens in peanuts by 98 percent or 
more. This research has produced the university's newest spin-off 
company, AlrgnBio, which is now marketing the hypoallergenic peanut 
technology to food companies. This same A&T research team hopes to move 
on to research allergen reducing processes for soy, wheat and tree 
nuts, for the benefit of millions of people who suffer from these 
dangerous food allergies. Such innovative agricultural research 
underscores A&T's relevance to North Carolina, where agriculture is the 
largest industry, contributing $78 billion to the state's economy, 
accounting for more than 17 percent of the state's income, and 
employing 16 percent of the workforce.
FY 2016 Budget Request
    1890 land-grant universities provide much of the research and 
education that sustain U.S. food production and delivery, while 
addressing many urgent and important local, regional, and national 
needs. Financial support for this global innovation comes from both 
public and private sources, but the most significant funding source is 
the Federal-state partnership managed by the National Institute of Food 
and Agriculture (NIFA).
    A&T fully supports President Obama's FY 2016 NIFA budget proposal 
request (which includes an increase from FY15 to support Central State 
University--the new 1890 land-grant university) and encourages Members 
of Congress to continue to make overall NIFA funding a high priority 
and specifically requests funding for the six core NIFA priorities 
(Agriculture and Food Research Initiative, Smith-Lever 3(b)-(c) Hatch 
Act, Evans-Allen, 1890 Institutions Extension, McIntire-Stennis 
Cooperative Forestry, 1994 Institutions Research and Extension) that 
support research, education, and extension efforts at America's land-
grant universities.
Evans-Allen One-to-One Match Oversight
    A&T and its fellow 1890s institutions have always done ``more with 
less.'' However, it has never been by choice. Since being signed into 
law in 1977, the Evans-Allen Act and the National Agricultural Research 
Extension and Teaching Policy Act (NAREPTA) of 1977 have provided 
critical base funding for agricultural research and Extension programs 
at 1890 institutions. The investments made in 1890 universities by 
Evans-Allen and NAREPTA funding have led to scientific breakthroughs 
and innovation in agriculture that has created a real return on 
investment. Secretary of Agriculture Thomas Vilsack recently cited 
studies that show that every dollar invested in agricultural research 
returns $20 to the economy.
    Unfortunately, each year \1/2\ or more of the 1890s do not receive 
the full match from the states they serve. This shortage means that 
each year, \1/2\ or more of the 1890 institutions are confronted with a 
burdensome need to produce waiver documentation in order to become 
eligible for at least some of the Federal farm bill funds allocated 
over the 50 percent threshold. According to the Association of Public 
and Land-grant Universities' (APLU) policy briefing entitled Land-Grant 
but Unequal: State One-to-One Matching Funding for 1890 Land-Grant 
Universities; ``From 2010 to 2012, 56 percent of the 1890 land-grant 
institutions did not receive 100 percent of the one-to-one matching 
funds from their respective states for either extension or research. 
The loss of funding to 1890 land-grant universities due to states not 
meeting the one-to-one match requirement for between 2010 and 2012 is 
nearly $57 million.''
    At this time, A&T requests that Congress provide additional 
oversight to ensure that states meet their obligation for providing the 
one-to-one match requirement and to encourage states to provide 
equitable formula funding to each land-grant university within each 
state.
Conclusion
    In conclusion, Mr. Chairman, Ranking Member, and Members of the 
Committee, thank you for the opportunity to be one of six 1890 
university Presidents and Chancellors to testify before you today. It 
is my hope that the opportunities for improvement and recommendations 
mentioned today are considered as you move forward with budget 
negotiations.

    The Chairman. Thank you, Dr. Martin.
    Dr. Mangum, you have 5 minutes.

         STATEMENT OF ELMIRA MANGUM, Ph.D., PRESIDENT,
FLORIDA AGRICULTURAL AND MECHANICAL UNIVERSITY, TALLAHASSEE, FL

    Dr. Mangum. Good morning, Chairman Conaway, Ranking Member 
Peterson, and distinguished Members of the House Committee on 
Agriculture. Thank you, Representative Graham, for the kind 
introduction and also for your service to Florida and the 
nation.
    On behalf of our board and 10,000 students, 3,000 faculty 
and staff, and 70,000 alumni, including the Honorable David 
Scott, thank you, Mr. Chairman, for this invitation.
    The strength of Florida's $120 billion agricultural 
industry is due in part to the strength of the state's two 
land-grant institutions, Florida A&M University and the 
University of Florida. With the research of these institutions, 
we have been able to improve our methods of production. Our 
extension services share the technologies and techniques born 
in the labs and classrooms with Florida urban and rural 
communities. One beneficiary of Florida A&M's research is 
Jasmine Hall, a recent graduate. Federal funding allows FAMU to 
foster early research experiences to undergraduates like 
Jasmine. Working with Professor Violeta Tsolova at our Center 
for Viticulture and Small Fruit Research, Ms. Hall has earned 
public recognition as the first young scientist to clone a gene 
from the muscadine grape. Identifying and using grape's 
antioxidants as a dietary supplement will help to reduce 
cancer, obesity and improve human health overall.
    FAMU holds nine patents in agriculture, including one for 
the distinct cultivar of the muscadine grape plant, the Majesty 
Grape. The vines of this cultivar are vigorous, productive, and 
disease resistant.
    Our research programs through our four research centers 
contribute to the advancement of new knowledge and scientific 
discoveries that have national and international implications 
through a variety of initiatives, including developing 
biological strategies to control invasive pests and plants like 
the honeybee mite. These invasive species interrupt 
agricultural production, as you know.
    Our researchers are also working on developing best 
management practices for efficient use of fertilizers in 
tomatoes and field corn that reduce water contamination and 
enhance farm profitability. Partnering with agencies such as 
the USDA Natural Resources Conservation Service and the USDA 
Animal Health Inspection Service, FAMU is poised to play a more 
prominent role in helping to promote agriculture in Florida, 
the nation, and the world.
    Our Vet Tech Program and Biological and Agricultural 
Systems Engineering Programs are just two examples of this 
partnership. At FAMU, the NRCS has been the lifeblood of the 
base program, and APHIS has been the lifeblood of the 
Veterinary Medicine Technology Program.
    BASE is a biologically-based engineering discipline that 
integrates agricultural, biological, chemical, environmental, 
life, and engineering sciences. It focuses on solving problems 
and designing systems related to the preservation and 
enhancement of natural resources and the environment, as well 
as biological and agricultural production and processes.
    Approximately 65 percent of all African-American doctorates 
in BASE programs are graduates of two ABET accredited programs, 
North Carolina A&T University and Florida A&M University. The 
Cooperative Extension Program at the College of Agriculture and 
Food Sciences serves as the outreach arm of FAMU. This program 
provides services throughout the entire State of Florida.
    A few examples of these programs include the Farm to School 
Program, FAMU Statewide Small Farm Program, School and 
Community Gardening, and the Family Resource Management 
Program. These programs have reached approximately one million 
children in Florida and adjacent states, improved sales, 
developed community gardening and farming skills and assisted 
approximately 300 individuals with home ownership.
    The transfer of the 3,800 acres in Brooksville, Florida by 
the USDA Agricultural Research Service to Florida A&M will be 
the single largest land transfer to a historically black 
college in history. The transfer will enable FAMU to develop 
educational training and developmental programs for new and 
beginning farmers and ranchers and to teach them the latest 
biotechnical innovations.
    With your continued and enhanced support, we will continue 
to use these resources to expand our teaching, research, and 
extension programs to serve the increasing needs of our state 
and our nation.
    We have adopted a university wide commitment to advancing 
agricultural innovations, drawing on the strengths of our many 
colleges and institutes. To realize this vision, FAMU will 
leverage its research across the State of Florida, including 
extension programming at satellite locations and research and 
development at the Brooksville property.
    FAMU is well-positioned to help Florida and the nation meet 
the agricultural demands of the 21st century and beyond. And, 
again, on behalf of Florida Agricultural and Mechanical 
University, I thank you, Mr. Chairman, and Committee for this 
opportunity.
    [The prepared statement of Dr. Mangum follows:]

    Prepared Statement of Elmira Mangum, Ph.D., President, Florida 
        Agricultural and Mechanical University, Tallahassee, FL
Introduction
    Good morning. Chairman Conaway, Ranking Member Peterson, and 
distinguished Members of the House Committee on Agriculture. Thank you, 
Representative Graham, for your kind introduction and your service to 
Florida and the nation.
    On behalf of our more than 10,000 students, 3,000 faculty and 
staff, and 70,000 Alumni, including the Honorable David Scott, the 
Honorable Corrine Brown, the Honorable Alcee Hastings, and the 
Honorable Al Green. Thank you, Mr. Chairman, for this invitation.
    Founded on October 3, 1887, we are proud of our 127 year legacy of 
providing access and opportunity for thousands who but for FAMU would 
never have had the opportunity to fulfill their dream of getting a 
college degree. More than 65 percent of our students are Pell Grant 
recipients and come from households with income below $40,000 annually.
    Agriculture, as you know, is a critical component of Florida's and 
America's economy. Data provided by your former colleague Commissioner 
Adam Putnam of the Florida Department of Agriculture and Consumer 
Services show that Florida has 47,000 commercial farms, encompassing a 
total of 9 million acres, and contributes more than $120 billion to our 
state's economy and supports two million jobs.
    The strength of Florida agriculture is due, in part, to the 
strength of the state's two land-grant institutions--Florida A&M 
University and the University of Florida.
    With the research of these institutions, we've been able to improve 
our methods of production. Our extension services share the 
technologies and techniques born in the labs and classrooms with 
Florida urban and rural communities.
    One such beneficiary of FAMU's research is Jasmine Hall, a recent 
graduate. Federal funding allows FAMU to foster early research 
experiences to undergraduates like Jasmine. Working with Professor 
Violeta Tsolova at our Center for Viticulture & Small Fruit Research, 
Ms. Hall has earned public recognition as the first young scientist to 
clone a key gene from muscadine grapes. Identifying and using the 
grape's antioxidants as a dietary supplement will help to reduce 
cancer, obesity and improve human health overall. Ms. Hall's 
breakthrough work will appear in an upcoming issue of the Journal of 
Biotechnology & Biomaterials.
    FAMU holds the patent for the distinct cultivar of the muscadine 
grape plant, the Majesty Grape. The vines of this cultivar are 
vigorous, productive and disease resistant.
    Our research programs through our four research centers contribute 
to the advancement of new knowledge and scientific discoveries that 
have national and international implications through a variety of 
initiatives, including developing biological strategies to control 
invasive pests and plants like the Tropical Soda Apple, Japanese 
Beetle, Asian Longhorn Beetle, Asian Black Carp, Hydrilla and many 
others that interrupt agricultural production, tourism, recreation, and 
commercial fishing. These invasive species also diminish local property 
values and threaten our $15 billion honeybee industry.
    Our researchers are also working on developing best management 
practices for efficient use of fertilizers in tomatoes and field corn 
that reduce groundwater contamination and enhance farm profitability.
    Partnering with agencies such as the USDA Natural Resources 
Conservation Service--the NRCS, and the USDA Animal and Plant Health 
Inspection Service, or APHIS, FAMU is poised to play an even bigger 
role in helping to promote agriculture in Florida, the nation, and the 
world.
    Our Vet Tech Program and Biological and Agricultural Engineering 
Systems (BASE) Program are just two examples of this partnership. At 
FAMU, the NRCS has been the lifeblood of the BASE Program and APHIS has 
been the lifeblood of the Vet Tech Program. I will talk briefly about 
BASE.
    BASE is a biology-based engineering discipline that integrates the 
agricultural, biological, chemical, environmental, life, and 
engineering sciences. It focuses on solving problems and designing 
systems related to the preservation and enhancement of natural 
resources and the environment, as well as biological and agricultural 
production and processes. Because of this diverse background, BASE 
students are uniquely qualified to understand the many different facets 
of a project from an engineering perspective. This diverse background 
also enables them to function exceptionally well on multidisciplinary 
teams.
    Approximately 65 percent of all African-American doctorates in BASE 
programs are graduates of two schools--North Carolina A&T University 
and Florida A&M University. Forty-five (45) percent of all BASE 
graduates have gone on to pursue graduate degrees at over 21 different 
colleges nationwide; most were on undergraduate scholarships provided 
by the NRCS.
    The Cooperative Extension Program at the College of Agriculture and 
Food Sciences serves as the outreach arm of FAMU. This program serves 
the entire State of Florida. A few examples of these programs include:

  <bullet> Farm to School Program.

  <bullet> FAMU Statewide Small Farm Program.

  <bullet> School and Community Gardening.

  <bullet> Family Resource Management Program.

    These programs have reached approximately one million children in 
Florida and six adjacent states, improved sales, developed community 
gardening and farming skills and assisted approximately 300 individuals 
with home ownership.
    The transfer of 3,800 acres in Brooksville, Florida by the USDA 
Agricultural Research Service to Florida A&M University will be the 
single largest transfer of land to a historically black college or 
university in history. The transfer will enable FAMU to develop 
educational training and developmental programs for new and beginning 
farmers and ranchers and to teach them the latest biotechnological 
innovations and other key initiatives.
    With your continued and enhanced support, we will continue to use 
these resources to expand our teaching, research and extension programs 
to serve the increasing needs of our state and nation.
    We have adopted a university wide commitment to advancing 
agricultural innovations drawing on the strengths of our Colleges of 
Agriculture and Food Sciences, Pharmacy and Pharmaceutical Sciences, 
the Schools of Business and Industry and the Environment, and the 
Institutes of Public Health and Sustainability.
    To realize our vision, FAMU will leverage its reach across the 
State of Florida, including extension programming at satellite 
locations and research and development at the Brooksville property.
    With additional funding to support our research and outreach 
initiatives, we can help to provide solutions to our food security and 
safety, energy and water resource problems, increase agriculture output 
through new and improved farming techniques and biological pest control 
and management, improve local economies by training small ranchers and 
farmers, and address health issues by providing nutritional training 
and growing healthy food in our community gardens.
    FAMU is well positioned to help Florida and the nation meet the 
agricultural demands of the 21st century and beyond.
    Again, on behalf of Florida Agricultural and Mechanical University 
thank you, Mr. Chairman, for this opportunity.

    The Chairman. Thank you, Dr. Mangum.
    Dr. Johnson, 5 minutes.

   STATEMENT OF BRIAN L. JOHNSON, Ph.D., PRESIDENT, TUSKEGEE 
                    UNIVERSITY, TUSKEGEE, AL

    Dr. Johnson. Chairman Conaway, Ranking Member Peterson, 
Members of the Congressional Committee, on behalf of Tuskegee 
University, I am very pleased to report to you on this day 
regarding Tuskegee University and its work with 1890s.
    Tuskegee University is pleased to report that funding 
received from the agricultural research and extension have 
resulted in innovations in science, education, and economic 
development of importance to the State of Alabama, the southern 
region and the nation. Agricultural programs, as Congressman 
Scott pointed out, began in Tuskegee in 1896 when George 
Washington Carver joined the Tuskegee faculty and pledged to 
serve alongside of Booker T. Washington. Carver contributed 
significantly to southern agriculture through his research and 
extension activities.
    Now there are roughly 3,100 students at Tuskegee 
University; 2,100 of these students are in STEM or STEM-related 
fields. Research and extension programs at Tuskegee University 
focus on fruit and vegetables and food animals produced by 
small farmers with emphasis on profitability. This program is 
important because it is a partnership of socially disadvantaged 
and under-served farmers working together in clusters with Wal-
Mart, Lipman, Pura Vida, W.P. Rawls and other commercial 
marketers to provide fresh, locally grown fruits and vegetables 
to commercial retailers.
    Importantly, Tuskegee University assisted the farmers in 
passing farm audits for the GAP, Good Agricultural Practices 
Harmonized Food Safety Standards required by commercial 
markets. This partnership has demonstrated potential for 
bringing jobs and economic development to persistent poor 
counties in Alabama and other states. The results are an 
excellent illustration of effective use of 1890 land-grant 
capacity funds to support farm and agribusiness based on 
economic development in rural communities.
    Tuskegee University scientists continue work on peanuts 
through genome analysis focused on disease resistant gene 
identification and mapping; sweet potatoes through breeding new 
varieties, enhancing nutrition through plant biotechnology, and 
developing new crop uses for food and fuel. Tuskegee 
researchers have targeted reduction in parasites in meat 
animals by using molecular and genetic-based technologies and 
through a patented system that uses a plant bark as an 
effective natural feed supplement.
    A patented chemical treatment enhances reusability for 
poultry litter for application to land by reducing excess 
phosphorous levels by 90 percent. Another patent Tuskegee 
researchers have developed detects foodborne pathogens in 
poultry in hours versus days or weeks, thus potentially 
preventing human illness.
    Agroforestry research is assessing the dual impact of pine 
stand control, caprine parasite control, and related economic 
viability of long leaf and loblolly pine stands. And diet, 
nutrition, and exercise programs are focused on intervention 
strategies to reduce obesity and cancer and improve the overall 
health of youth and adults.
    One project targets 8 to 15 year old children in multiple 
counties to determine food preferences and influence the food 
access and food quality in rural counties.
    We are pleased that recent data indicates Tuskegee 
University ranks number 1 in the nation in African-American 
graduates in agriculture, agriculture operations, and related 
sciences, number two in African-American graduates in natural 
resources and conservation, number 1 in graduating African-
Americans in veterinarian medicine and is among top producers 
in African-American engineers.
    Our funding challenges and opportunities: Our work with 
small farmers is important because they represent 90 percent of 
all farmers, control more than 50 percent of the land, and have 
the potential to increase jobs and economic development across 
many rural communities, especially if they work together. The 
models we are developing can be duplicated in other states and 
regions of the United States, especially in areas with 
persistent poverty. This would simultaneously assist the 
commercial markets and consumers because of savings in energy 
and transportation costs and the increased local product 
quality and freshness can be passed on to consumers.
    One final remark, in 1998 and 1999, Congress made 
provisions for an 1890 land-grant university to obtain one-to-
one matches from states for Capacity Research and Extension 
Grants. Fifteen years later, this is a work still in progress 
for many states. For Fiscal Year 2015-2016, Tuskegee University 
will be at a .87-to-1 ratio, the highest ratio obtained since 
the required match inception, and we are grateful to all 
involved.
    Once again, we thank Congress for its support of not only 
Tuskegee University, but its sister 1890 institutions.
    [The prepared statement of Dr. Johnson follows:]

  Prepared Statement of Brian L. Johnson, Ph.D., President, Tuskegee 
                        University, Tuskegee, AL
Historical Perspective
    Tuskegee University is pleased to report that funding received for 
Agricultural Research and Extension has been instrumental in developing 
agricultural research programs of importance to the State of Alabama, 
the ``Southern Region, and the nation.'' Tuskegee University's 
agricultural programs began in 1896 when famed scientist, George 
Washington Carver joined the Tuskegee University faculty and pledged to 
Booker T. Washington to do ``all I can through Christ who strengthens 
me to better the condition of our people.'' Carver contributed 
significantly to southern agriculture, through his research and 
Extension activities on peanuts, cotton, sweet potatoes, southern peas 
and other commodities. His testimony before Congress in 1921 was well 
received and helped to protect U.S. farmers. Carver's Bulletin #43 
Nature's Garden for Victory and Peace published during World War II 
helped provide nutrition information during times of scarcity and his 
design of the first ``Wagon on Wheels'' led to the Jesup Wagon and 
selection of the first demonstration agent, Thomas Campbell in 1906, a 
forerunner of the Cooperative Extension, which was formally established 
in 1914 by Congress. Carver's work set the tone in the south for using 
science based information to improve agricultural production by 
farmers, including African-American farmers who were struggling to 
survive and make a living during challenging times.
    Carver, the scientist and humanitarian never lost sight of his 
mission for going to Tuskegee . . . ``to help his people,'' and in so-
doing helped the entire south through promotion of peanuts and other 
legumes as rotation crops for cotton and (2) introducing sustainable 
agricultural practices that permitted small (mostly tenant) farmers to 
survive. It was not until 1967 that the 1890 land-grant universities 
received their first funding for agricultural research from USDA. This 
amount was increased slowly by Congress over many years. During this 
time Tuskegee University developed areas of research and Extension that 
focused on counties with persistent poverty, commonly called Black Belt 
Counties, both because of its dark, Prairie soils and also the 
relatively high African-American populations. This strategic selection 
of geographic and demographic foci complemented and did not duplicate 
research and Extension activities by other institutions in the state.
Current Research and Extension Successes
    In recent times integrated Extension and research programs at 
Tuskegee University have focused on fruit and vegetables and food 
animals produced by small farmers with emphasis on profitability. This 
important program has developed into a partnership of socially 
disadvantaged and under-served farmers working together in clusters 
with Wal-Mart, Lipman, Pura Vida, W.P. Rawls and other commercial 
markets to provide fresh, locally grown fruits and vegetable to 
commercial retailers. Importantly, Tuskegee University assisted the 
farmers in passing farm audits for ``Good Agricultural Practices (GAP) 
Harmonized Food Safety Standards,'' required by commercial and other 
markets. This relatively new partnership of small farmer clusters and 
commercial markets has demonstrated great potential for bringing jobs 
and economic development to persistent poor counties in Alabama and 
other states. The current progress is based upon many years of Tuskegee 
University's research and Extension staff working with small farmers 
and rural communities because of Capacity Research and Extension funds. 
The results are an excellent illustration of effective use of capacity 
funds to support farm- and agribusiness-based economic development in 
poor rural communities.
    Today Tuskegee University scientists continue work on: peanuts 
through genome analysis focused on disease resistant gene 
identification and mapping; plant breeding of sweet potatoes to produce 
new varieties; enhancing crop nutrition through plant biotechnology and 
developing new uses of crops for food and fuel. Research by Tuskegee 
scientists has targeted reduction in parasites in meat animals such as 
goats and sheep using two approaches: (1) molecular and genetic-based 
technologies are being used to find effective solutions and (2) a 
system was patented that uses plant bark as a natural feed supplement. 
Another recent patent is a chemical treatment that makes reusable 
poultry litter better for application to the land by reducing excess 
phosphorus levels by about 90 percent, while retaining the other 
essential elements needed for plant growth. Still another patent by 
Tuskegee scientists detects different foodborne pathogens in poultry in 
hours versus days or weeks. This time-saving invention can be used to 
rapidly find out which pathogens may be present in poultry samples and 
prevent human illness.
    Agroforestry research is uniquely assessing the dual impact of pine 
stand control and caprine parasite control on economic viability and 
fire suppression on long leaf and loblolly pine stands via controlled 
foraging by food animals. Integrated Research and Extension Programs 
are assessing the impact of diet, nutrition and exercise on youth and 
adult obesity and cancer. One project targets 8 to 15 year old children 
in multiple counties to determine food preferences and influence the 
food access and food quality in rural counties. The goal is to develop 
effective intervention strategies to reduce obesity and improve their 
overall health.
Innovations and Successes in Education and Service
    We are pleased that recent data indicates Tuskegee University ranks 
number one in the nation in African-American graduates in 
``Agriculture, Agriculture Operations, and Related Sciences'', number 
two in African-American graduates in Natural Resources and 
Conservation; number one in graduating African-Americans in Veterinary 
Medicine and is among top producers of African-American Engineers.
    We are pleased to report that eight USDA agencies joined with 
Tuskegee University to form the Carver Integrative Sustainability 
Center at Tuskegee University that brings together faculty and staff 
from all disciplines to work on problems systemically associated with 
small social disadvantaged and under-served farmers and rural 
communities. We are learning to work together across agency and 
university department lines to better serve the public and protect our 
natural resources. Students of all levels (K-12, community college, 
undergraduate and graduate levels) are integrally involved and receive 
invaluable ``hands on'' experiences and other programs. A benefit of 
such partnerships is that students are gaining interest in agriculture, 
including seeking food and agricultural careers such as agronomy, 
horticulture, animal science, food science, natural resources and 
agribusiness. There is high demand for food and agriculture majors by 
the food and agriculture industry and recent data indicates the need 
for such majors is increasing. Universities such as Tuskegee University 
and other 1890 land-grant universities provide much needed talent and 
diversity for such industries.
    We take special note of our successful integrative graduate 
programs and their success in producing outstanding scientists, 
engineers and health professionals. In particular our Materials 
Sciences and Engineering Ph.D. Program and leadership were cited by 
both President George Bush and President Barack Obama for its long-term 
research and student development that have served our nation and 
industry well. The Integrative Biosciences Ph.D. students address 
agriculture, and related environmental and health problems from multi-
disciplinary approaches; these students serve as great role models for 
undergraduate students and the Integrative Biosciences graduates are 
serving our nation in key government, academic and private sector 
positions. Newer graduate programs in Interdisciplinary Pathobiology, 
Agricultural and Environmental Sciences Engineering, and Integrative 
Public Policy and Development will produce well-trained agricultural 
scientists, engineers and policy specialists needed by our nation to 
address challenges of the future, including preparing for a global 
world population increase from seven billion to a nine billion 
population by 2040. Enhanced funding for such innovative programs will 
strengthen the diverse undergraduate and graduate pipeline needed by 
the private sector, government, academia other sectors as documented in 
recent reports.
Funding Challenges and Opportunities
    Our work with small farmers is important because they represent 90% 
of all farmers, control more than 50% of the land and have the 
potential to increase jobs and economic development across many rural 
communities, especially if they work together for optimum volume, 
scale, efficiency, sustainability of operations and marketing. Most 
socially disadvantaged farmers gross under $10,000 and very small 
farmers make a profit. This is contrasted with the top 15% of farmers 
classified as large farmers who make 90% of the profit. The models we 
have developed can be duplicated in other states and regions of the 
United States, especially in areas with persistent poverty. If funds 
are enhanced we could reach more small farmers and impact more 
communities in a positive way. This would simultaneously assist the 
commercial markets and consumers because of reduced transportation and 
storage costs associated with distance based supply of perishable goods 
like fresh fruits and vegetables. These savings in energy and 
transportation costs and the increased product quality and freshness 
can be passed on to consumers. There are many gaps along the supply 
chain that require integrated research and Extension solutions. We have 
the momentum and passion to get the job done and have presented a plan 
to USDA that involves all states with 1890 land-grant universities 
working together. We look forward to your support.
    As a final note, in 1998-99 Congress made provisions for 1890 land-
grant universities to obtain 1:1 matches from states for Capacity 
Research and Extension Grants. Fifteen years later this still is a work 
in progress for many states. For FY 2015-16 Tuskegee University will be 
at a 0.87:1 ratio, the highest ratio attained by Tuskegee University 
since the inception of the required match and we are grateful to all 
involved. We look forward to next year going ``over the top''!

    The Chairman. Thank you Dr. Johnson.
    Dr. Bell, 5 minutes.

        STATEMENT OF JULIETTE B. BELL, Ph.D., PRESIDENT,
    UNIVERSITY OF MARYLAND EASTERN SHORE, PRINCESS ANNE, MD

    Dr. Bell. Chairman Conaway, Ranking Member Peterson, and 
Members of the Committee, good morning. My name is Juliette 
Bell. I am the President of the University of Maryland Eastern 
Shore, and I also have the pleasure of serving as the chair of 
the Council of 1890 Universities and the co-chair of the USDA 
1890 Task Force established by the Secretary of Agriculture.
    On behalf of the 1890 universities, thank you for this 
great opportunity to testify before this Committee as we 
celebrate our 125th anniversary of the Second Morrill Act which 
established the 1890 universities. Today the 1890 universities 
continue to focus on teaching of practical agriculture, 
science, and mechanical arts to improve and uplift our 
communities. Collectively the 1890s have led the way in 
innovation, discovery, and outreach and have provided access to 
educational opportunities for countless thousands of students 
across this country.
    For more than a century, the University of Maryland Eastern 
Shore has embraced and advanced the land-grant mission. The 
funding we received has enhanced the university's capacity to 
deliver practical education and training for our students. 
There are three critical areas where the funding has had the 
greatest impact. These are in workforce development, research 
and innovation, engagement and outreach.
    Today the challenge of developing an educated, diverse, 
highly-skilled, and innovative workforce remains a top 
priority. With 67 percent African-American students, UMES is 
one of the most diverse campuses of the University System of 
Maryland, ensuring access to all students. We offer eight 
baccalaureate degrees, four master's, and three Ph.D. degrees 
in Critical Science, Technology, Engineering, Agriculture, and 
Mathematics areas.
    Our role in providing access and opportunities for many who 
otherwise may not have had the opportunity to attend college is 
critical. UMES and the other 1890 universities face great 
challenges compared to our 1862 counterparts in providing a 
quality education for many students who are first-generation, 
economically disadvantaged, and often under-prepared for 
college, and we do this with less funding.
    UMES has leveraged its annual Federal research capacity 
appropriation of about $1.5 million to establish nationally 
recognized programs in key areas such as food security and 
safety, obesity prevention, forestry, and conservation of 
coastal and marine living resources. Our unique geographic 
location between the Atlantic Ocean and the Chesapeake Bay on 
the Delmarva Peninsula has positioned the university to 
strategically provide critical research and serve as an 
economic engine for our region. For instance, given the 
importance of food and water security, our scientists are 
exploring how unmanned aerial vehicles, UAVs, can be used in 
precision agriculture to improve the efficiency of water use 
and the application of nutrients to large farm plots.
    Given our location in the heart of Maryland's billion 
dollar poultry industry, our faculty and students have been 
invaluable in generating knowledge on food safety. Our 
extension faculty are working directly with the seafood 
industry, another important sector in Maryland, to support the 
safety of seafood products.
    Through our strong extension and outreach programs, we 
continue to address the challenges related to rural poverty and 
health services of under-served populations in urban areas. For 
many years UMES has conducted a small farms outreach initiative 
for farmers in the region with the goal of improving the 
economic conditions of small-scale, limited-resource, and 
socially disadvantaged farmers to provide educational programs 
that improve their farm management skills and expedite their 
participation in USDA farm programs.
    Continued strategic investment in the 1890s at the state 
and the Federal level will allow us to carry on our mission. 
Greater investment will allow us to be more competitive and 
effective at producing a diverse workforce to engage in the 
research and outreach that addresses the many issues facing our 
world today and tomorrow.
    As we celebrate this momentous 125th anniversary of the 
signing of the Second Morrill Act of 1890, we look back with 
pride on our accomplishments and forward to the many challenges 
that our 1890s universities can and will address with your 
continued support. Strategic investment in the 1890s is 
investment in the future.
    Again, I thank you for your continued commitment and 
support of the University of Maryland Eastern Shore and all of 
the 1890s universities. Thank you.
    [The prepared statement of Dr. Bell follows:]

Prepared Statement of Juliette B. Bell, Ph.D., President, University of 
               Maryland Eastern Shore, Princess Anne, MD
Meeting 21st Century Challenges for Innovation in Agriculture, Science, 
        Engineering and Technology
    To each of you, the Members of the United States House of 
Representatives, good morning/afternoon.
    My name is Dr. Juliette B. Bell and I am honored to bring you 
greetings not only as President of the University of Maryland Eastern 
Shore, but also as the Chair of the Council of 1890 Universities of the 
Association of Public and Land-grant Universities, and as Co-chair of 
the USDA/1890 Taskforce, established by the U.S. Secretary of 
Agriculture.
    Congressman Justin Morrill, one of the founders of the Republican 
Party, authored the Land-Grant College Act of 1862, ``in order that 
colleges be established for the endowment and support of the education 
of the ``sons of toil;' '' that they should be educated not only in 
classical studies and military drill, but also in the mechanical arts, 
and agriculture, which Morrill described as ``the foundation of all 
present and future prosperity.''
    Enacted in the midst of the Civil War, The Morrill Act, as this 
legislation would become known, did not provide for the education of 
the African-American citizenry, as segregation of races prohibited the 
admission of African-Americans to these land-grant colleges.
    Following the Civil War, in the years of reconstruction, Senator 
Morrill continued his advocacy for the ``sons of toil'', this time 
seeking to include those citizens of color who were not provided for 
under the original Act.
    Thus, in 1890, with the enactment of the Second Morrill Act, funds 
from the sale of public lands were set aside for ``the more complete 
endowment and maintenance'' of land-grant colleges except that no funds 
would be distributed to states where there was a ``distinction of race 
or color'' in admissions. However, the Act did stipulate that ``the 
establishment and maintenance of such colleges separately for white and 
colored students'' would be considered compliant with the Act provided 
the state ``equitably divided'' those funds between the institutions.
    And so, in Alabama, Arkansas, Delaware, Florida, Georgia, Kentucky, 
Ohio, Louisiana, Maryland, Mississippi, Missouri, North Carolina, 
Oklahoma, South Carolina, Tennessee, Texas, Virginia, and West 
Virginia, 19 universities, founded primarily for the education of 
African-American ``sons and daughters of toil'', were designated land-
grant institutions, with the notion that educational opportunity was 
not reserved for an elite few, but available to all, regardless of race 
or class.
    Today, these 19 universities celebrate the 125th anniversary of the 
Second Morrill Act, which made it possible for each of these 
universities to fulfill Senator Morrill's mission.
    Indeed, the land-grant mission, established more than a century 
ago, remains as relevant today as it was in 1890. Today, the 1890 
universities continue to focus on the teaching of practical 
agriculture, science and mechanical arts to improve and uplift our 
communities in a time when race and class remain obstacles for so many.
    Collectively, the 1890s, as these universities are called, have led 
the way for innovation, discovery, and outreach and have provided 
access to education and opportunities for countless thousands of 
students across the country.
    Founded in 1886 as the Delaware Conference Academy with a mission 
focused on educational opportunity for former slaves and freemen, the 
University of Maryland Eastern Shore was designated as Maryland's 
``1890'' university.
    For more than a century, the University of Maryland Eastern Shore 
has embraced and advanced the land-grant mission.
    At this time, I would like to take a few moments to introduce you 
to the University of Maryland Eastern Shore, our programs and our 
accomplishments as a result of the funding we receive to advance the 
land-grant mission.
Statistical Information
  <bullet> Located on more than 1,100 acres on Maryland's Delmarva 
        Peninsula.

  <bullet> Over 4,200 students.

  <bullet> 270 full and part-time faculty.

  <bullet> 14:1 student to faculty ratio.

  <bullet> 78% of our students are Maryland residents, with a 
        significant number from others states and some 30 nations.

  <bullet> 67% African-American, 33% other race students.
Our Programs
  <bullet> 38 undergraduate majors including: Agriculture and 
        Agribusiness.

  <bullet> 22 graduate programs including masters and doctoral degree 
        programs in Food and Agricultural Sciences, Food Science and 
        Technology and Marine and Estuarine Sciences, Natural Resource 
        Sciences and Quantitative Fisheries and Resources Economics.
Funding
    The university's annual operating budget is approximately $141 
million.
    For FY 2015, UMES received $3,861,253 in Federal capacity support 
for research, extension, facilities and forestry while our sister 
institution received $6,867,792 for its capacity programs.
Impact of Funding
    The funding we receive has enhanced the university's capacity to 
deliver practical education and training for students, particularly in 
areas of innovation in science, engineering and technology. But, 
perhaps most critical have been the developments in agriculture, food 
and natural resources sciences.
    In the next few minutes I would like to address three critical 
areas where the funding has had the greatest impact. These areas are:

  <bullet> Workforce Development.

  <bullet> Research and Innovation.

  <bullet> Engagement and Outreach.
Workforce Development
    Clearly the nation's emphasis on the development of human capital 
has been the most essential ingredient in ensuring continued growth. 
Today, the challenge of developing an educated, diverse, highly 
skilled, and innovative workforce remains a top priority. The foresight 
of Senator Morrill was truly inspired.
    As an 1890 institution, UMES' role in providing access and 
opportunities for many who would otherwise not have had a college 
education is critical. Today, UMES is one of the most diverse campuses 
in the University System of Maryland, as we continue to focus on our 
core mission, while ensuring access to all. We offer eight 
baccalaureate degrees, four master's, and three Ph.D. degrees in 
critical Science, Technology, Engineering, Agriculture, and Mathematics 
(STEAM) areas.
    In many ways institutions such as ours face even more hurdles in 
comparison to our 1862 counterparts in ensuring that we provide quality 
education to many students who are often under-prepared for college. 
Such students often require greater attention and support--a challenge 
we have embraced by being innovative in our educational approaches.
Research and Innovation
    UMES has leveraged its annual Federal research capacity 
appropriation of about $1.5 million to establish nationally recognized 
programs in key areas such as food security and safety, water security, 
obesity prevention, forestry, climate change mitigation, and 
conservation and use of coastal and marine living resources. Using our 
unique geographic location between the Atlantic Ocean and the 
Chesapeake Bay on the Delmarva Peninsula, we have positioned ourselves 
strategically to provide critical research and serve key constituents 
in our region.
    Our scientists have continued to position themselves at the cutting 
edge of new innovations. For instance, given the importance of food and 
water security, our scientists are exploring how unmanned Aerial 
Vehicles (UAVs) can be used in precision agriculture to improve the 
efficiency of water use and application of nutrients to large 
commodities such as corn with very promising results.
    Just over a decade ago we established a state of the art research 
facility with Federal and state support. This facility and its 
nationally recognized faculty have become a nucleus for critical 
research on poultry and seafood safety and quality, Dr. Salina Parveen, 
one of our food safety specialists, serves on the Secretary of 
Agriculture's National Advisory Committee on Microbiological Criteria 
for Foods.
    Given our geographic location on the Eastern Shore, in the heart of 
Maryland's $8.5 billion poultry industry, our faculty and students have 
been invaluable in generating knowledge on food safety. Our extension 
faculty are working directly with the seafood industry, another 
important sector in Maryland to support the safety of seafood products. 
More recently and in collaboration with USDA ARS and FDA, UMES is at 
the heart of critical research on fresh produce safety, as well.
    Our research enterprise extends to a number of other important 
areas, and the potential for growth is immense.
Engagement and Outreach
    It is critical for us as a land-grant university to address the 
many national challenges and one of these has to do with rural poverty 
and health. Through strong extension programs, we have over the years 
strengthened our services to small farms and rural communities as well 
as the under-served in urban areas.
    Thus, recognizing the importance of providing a firm foundation for 
our children, our youth development programs provide a supportive 
setting for all youth to reach their fullest potential. Through 4-H and 
STEAM initiatives, youth learn beneficial cognitive and life skills 
through community-focused, research-based experiential educational 
programs.
    UMES participates in the Expanded Food and Nutrition Education 
Program (EFNEP), with initiatives targeting both youth and adults and 
thus achieving the primary goal of improving the diets of limited 
resource families and thus enabling them to enjoy better health, an 
improved quality of life, and increased productivity.
    For many years, UMES has implemented a Small Farm Outreach 
Initiative for farmers in southern Maryland and along the Delmarva 
Peninsula with the primary goal of improving the economic conditions of 
small-scale, limited-resource, and socially disadvantaged farmers by 
providing educational programs and training that improve their farm 
management skills and expedite their access to and participation in 
USDA farm programs.
The Future
    We continue to seek ways to enhance our ability to deliver 
solutions in key areas. Indeed, this year we have initiated a process 
of consolidating our capacity in key areas where we can deliver 
meaningful outcomes. To this end we have recently launched four 
centers.

  <bullet> Chesapeake Water Quality Center,

  <bullet> Center for Obesity Prevention,

  <bullet> Center for Agribusiness and Economic Development, and

  <bullet> International Center for Personal Protective Equipment.

    These centers will allow us to form strong and enduring 
partnerships to deliver solutions for the people of Maryland, the 
nation and world.
    Continued strategic investment in the 1890s at the state and 
Federal levels will allow us to continue carrying on the mission that 
was envisioned by Senator Morrill. Greater investments will allow us to 
be even more competitive and effective at producing an educated and 
diverse workforce to address the many issues that face our world today. 
As we celebrate this momentous 125th anniversary of the signing of the 
Second Morrill Act of 1890, we look back with pride on our 
accomplishments and we [look] forward to the many challenges that our 
1890 universities can and will address, with your continued support.
    Strategic investment in the 1890s is investment in the future.
    Again, thank you for your continued commitment and support of the 
University of Maryland Eastern Shore and all of 1890 universities.

    The Chairman. Well thank you, Dr. Bell.
    I want to thank all our witnesses. Great stories across all 
six institutions. I know if the other 12 Chancellors and 
Presidents could have made an opening statement, they would 
have similar stories. The record of the hearing will be open 
for 10 days for any of the other universities who want to make 
a statement. We will include those in the record as if you had 
actually testified.
    The chair will remind Members they will recognized for 
questioning in order of seniority for Members who were here at 
the start of the hearing. After that, Members will be 
recognized in order of arrival. I appreciate the Members' 
understanding.
    We do have all 18 Presidents with us today, so if Members 
would like to ask a President who is not seated at the witness 
table a question, they will be welcome to do so.
    I now recognize myself for 5 minutes. Again thank you very 
much, each of you, for being here.
    Dr. Wright, could you talk to us a bit about how Prairie 
View A&M works with the other institutions, the other A&M's, as 
well the other institutions in Texas, to coordinate and not 
duplicate and not overlap each other?
    Dr. Wright. Okay. Prairie View is a member of the Texas A&M 
system, and as such, we are fortunate in being located no more 
than 40 miles away from Texas A&M University. Therefore, some 
of the facilities they have, world class facilities, our 
students go there and use those facilities in meat processing, 
dairy activities, and the like.
    Also, Tarleton University, West Texas A&M University, other 
system universities, our agriculture deans and faculty meet on 
a regular basis, and so they interact. If you look at the 
Hispanic-serving institutions of Texas, Prairie View often 
works with those institutions when it comes to research 
projects; and so consequently there are instances where Prairie 
View may be the lead, other times one of the other 
institutions, whether it is Texas A&M or one of the other 
Hispanic-dominated schools will as well, so we find it very 
important.
    And I would also add that Langston University in Oklahoma 
and Prairie View were involved in a goat and sheep project in 
Ethiopia for 5 years where we introduced in seven different 
regions of that massive country--which is twice the size of 
Texas, to give you a sense--that we introduced tens of 
thousands of new goats and sheep, which were \1/3\ larger than 
the animals there in Ethiopia, which made a big difference 
there.
    I would close on this point by saying, with the fellow HBC 
institutions, we compete against them in athletics, but when it 
comes to other activities, we work closely with them on various 
research projects.
    The Chairman. I appreciate that. Dr. Martin, you and I were 
having a brief conversation about the way you link in with 
small farmers and the production, you mentioned a pretty great 
success story on hog waste and the impact--excuse me, Dr. 
Davis, or Mr. Davis--the hog waste issue that you talked--can 
you flesh out that about how you get the ideas, how you link in 
with what is actually needed on the farm to what you are doing 
at your university?
    Dr. Martin. Thank you, Chairman Conaway. One of the things 
that our university does, first, is we brand extension 
activities collaboratively with our colleagues at NC State, the 
1862 in North Carolina.
    We also spend an inordinate amount of our time deploying 
members of our faculty and staff and administration and 
extension agents out into the communities where there is the 
greatest need throughout our state to meet with community 
leaders, to meet with the farmers of those communities on their 
land. Assessing with them what their greatest needs are, 
whether it be soil-related issues, business planning models, or 
whether it be transitioning from one set of crops to a new set 
of crops, to understand what those farmers' needs are. We 
invite them to our campus to understand what their greatest 
needs are as well.
    And through those interactions, we frame strategies for a 
collective group of the farmers in a particular region and 
particular singular plans for a particular farmer to meet that 
farmer's needs, quite frankly.
    And so this is an ongoing, regular conversation with our 
constituents so that we are better understanding the needs of 
our farmers; and through the research we do in working 
collaboratively with our partners, we deploy best science, best 
technology.
    The Chairman. I appreciate that. Dr. Rome, would you mind 
stepping up to a microphone and answering a question real 
quick?

   RESPONSE OF KEVIN D. ROME, Sr., Ph.D., PRESIDENT, LINCOLN 
                 UNIVERSITY, JEFFERSON CITY, MO

    Dr. Rome. Yes.
    The Chairman. Yes, sir. Could you visit with us about what 
is the top success story at your institution?
    Dr. Rome. Thank you, Mr. Chairman, for asking that. We 
pride ourselves in organic farming, and so all of our farms, 
everything we do is organic, and we have a commitment to 
maintaining that.
    The Chairman. All right. Thank you. I yield back the 
balance of my time. The gentleman from Minnesota is recognized 
for 5 minutes.
    Mr. Peterson. Dr. Johnson, you mentioned in your testimony 
the need for additional funding to reach out to small farmers?
    Dr. Johnson. Yes.
    Mr. Peterson. Are you receiving funds through the 
Agriculture and Food Research Initiative or through the smaller 
programs like the Section 2501 outreach grants and the 
beginning farmer and rancher development programs?
    Dr. Johnson. Yes. The last part of your question I could 
not quite----
    Mr. Peterson. All right. The Section 2501 outreach grants, 
which is tied to the beginning farmer-rancher development 
programs, are----
    Dr. Johnson. I am not quite familiar with that particular 
section, but I will certainly follow-up with both you and your 
staff immediately following.
    Mr. Peterson. Are you getting funds through the Agriculture 
and Food Research Initiative programs?
    Dr. Johnson. Yes, we are.
    Mr. Peterson. Okay. The other thing I noticed in your 
testimony is that you are the number one producer of African-
American veterinarians in the country. That is something in 
Minnesota we have prided ourselves in and we have a tremendous 
veterinary school. It is, however, a real challenge in getting 
enough, especially large animal veterinarians, to fulfill the 
need. Your veterinarians, are they large animal, small animal 
practitioners?
    Dr. Johnson. Well, I am not exactly sure of the percentage, 
but certainly we have a number of students who have graduated 
and have gone into large animal work. I would be happy to give 
you the exact percentages of who is involved with small animal 
versus large animal.
    Mr. Peterson. Thank you. Dr. Wright, you mentioned the 
challenge of getting state matching funds. Can you walk me 
through what parts of this require state matching funds and how 
that all works exactly and what the problem you are having with 
it?
    Dr. Wright. Okay. Okay. Years ago--I am in my 12th year as 
President of Prairie View--there was no match requirement, but 
eventually it became a 25 percent, so the State of Texas would 
have to put up X amount for us to then get Y amount. So if we 
were getting $10 million, the state would have to match with 
$2.5 million.
    Mr. Peterson. Do you know what year that happened?
    Dr. Wright. It has been over, I would say over a 10 year 
period. It has gone from 25 to 50 to 75, and now it is at 100. 
Well, what USDA has done fortunately is that when we have not 
made the match--we have not made the match the last two times--
they have given us a waiver whereby they look at our effort to 
receive the match, and then they have the discretion to waive 
it.
    Mr. Peterson. So they are up to 100 percent now?
    Dr. Wright. Yes.
    Mr. Peterson. So in other words, whatever we are going to 
provide, the state has to come up with 100 percent?
    Dr. Wright. Right. That is my understanding. So our 
legislature has finished, and if my memory is correct, we are 
something like $3 million short. This time we needed $11 
million, and we received more like $8 million, so we are in the 
situation now where we will contact USDA and ask again for the 
match.
    Mr. Peterson. Are these on all the grants, or are these on 
some specific areas?
    Dr. Wright. It is on our research and extension area.
    Mr. Peterson. Is this required--I should know this, but is 
this required of the other land-grant universities throughout 
the whole system?
    Dr. Wright. Yes, it is. And the Texas A&M for instance, in 
our system, they have a much larger operation, and so they 
receive various pools, and so consequently they are able to 
make their match in that regard, from a number of different 
things. We just don't have as large a pool.
    As you may know, Texas A&M is one of the largest public 
universities in the country with some 55,000 students, and they 
are located in every county in Texas. Prairie View is not, but 
we have 8,000, almost 9,000, and we are located in only 30 
counties.
    Mr. Peterson. Thank you. Thank you very much. I yield back.
    The Chairman. The gentleman yields back. Mr. Scott from 
Georgia, 5 minutes.
    Mr. David Scott of Georgia. All right. Thank you, Mr. 
Chairman. Mr. Chairman, I have a memo I would like to insert 
for the record and have passed out just for point of 
discussion.
    The Chairman. Without objection.
    [The information referred to is located on p. 57.]
    Mr. David Scott of Georgia. Thank you very much. I will 
pass this to the Members and to the college Presidents.
    And it addresses a concern. I have read all of your 
testimonies, and there is such a concern about additional 
funding, particularly as we grapple with the issues of 
beginning farmers, the average age of the farmer.
    And so basically the first part of my 5 minutes I want to 
spend with just going through this. Currently, the 1890 land-
grant institutions received the majority of the United States 
Department of Agriculture funding through the farm bill every 5 
years, and these funds are to be used for three general 
purposes, research, education, and extension.
    As a result of the current farm bill, on February 9, 2015, 
the United States Department of Agriculture Assistant Secretary 
for Civil Rights, Joe Leonard announced the availability of 
more than $18 million for the 19 historically black land-grant 
colleges and universities in an effort to recruit, educate, and 
train African-American students for careers in agriculture.
    What I am proposing in this memo is just a small language 
addition. The proposed language addition would be to add one 
additional use to the current funding structure because in 
order to encourage, recruit, and train more African-American 
students for careers in agriculture, farming, and agribusiness, 
this additional use of the funds would be helpful and necessary 
to help achieve Assistant Secretary Joe Leonard's and our 
objective, which is to recruit, educate, and train more 
African-American students for careers in this very important 
critical and growing fields of agriculture, farming, and 
agribusiness.
    So the proposed new uses of funds, if we are able to add 
this language, will read as follows. These funds will be used 
for the following purposes, teaching, research, extension. The 
new addition would be ``student scholarships and student loan 
forgiveness.''
    Now let me give you the rationale for this proposed 
language addition. Knowing that the average age of agricultural 
farmers in the United States is 60 years of age, ladies and 
gentlemen, this is a national security issue. Agriculture is 
the food we eat, it is the clothes we wear, it is our energy, 
it is our whole financial growing system through commodities 
exchanges. Lord knows when we have a commodities exchange like 
ICE that has purchased the New York Stock Exchange, you know 
agriculture now is the single most important industry in the 
world. It is leading part of the economy of 44 of the states in 
the United States now.
    So, in addition to knowing that we face this challenge of 
the farmers' age going up towards 60 and knowing the difficult 
challenges facing beginning farmers and knowing the critical 
need to increase the number of African-American students 
seeking careers in agriculture and farming, therefore the 
United States Congress recognizes that we, the United States 
Congress ourselves, must play a critical role in reducing the 
average age of farmers, providing greater assistance for 
beginning farmers, and provide financial scholarships and loan 
forgiveness to bring more African-Americans into the 
flourishing careers of farming and agricultural business.
    In conclusion, thus through this language addition, that 
funds can now also be used for student scholarships and loan 
forgiveness for 1890 students, we are also helping to bring 
down the average age of farmers over time and open the door of 
opportunity for more beginning farmers.
    I submit this memo, and I appreciate your allowing it to be 
a part of the record as a point of discussion for us to move 
forward as something we collectively, as 1890 institutions, and 
in the bosom of this House Agriculture Committee, to discuss 
and to see how we might be able to make this additional 
language change and provide just this fourth area that funds 
may be used.
    I guess my time is up.
    The Chairman. The gentleman's time has expired.
    Mr. David Scott of Georgia. Thank you, Mr. Chairman.
    The Chairman. The gentleman's time has expired.
    Mr. Rogers from Alabama, 5 minutes.
    Mr. Rogers. Thank you, Mr. Chairman. And I take pride in 
having Dr. Brian Johnson from Tuskegee University here today. 
As you heard earlier, the Tuskegee University and staff have 
been continuing the creation of Booker T. Washington and George 
Washington Carver, and we are thrilled not only with the 
University but with our new President and look forward to 
working with him for a long time to come.
    One of the focuses of my energy as a Member of Congress in 
recent years has been on promoting public-private partnerships. 
We have a lot of economic challenges in this country, and I am 
convinced that whether it is transportation, our national 
defense, telecommunication, security, or agriculture, public-
private partnerships are going to be a creative avenue where we 
accomplish a lot of the goals that we need to focus on as a 
country.
    Tuskegee University is home to an award winning research 
program that remains competitive in receiving grants, and given 
that Tuskegee, unlike most of the HBCUs here from 1890 
legislation are public, Tuskegee is private, so you have some 
unique challenges in funding.
    So my question, Dr. Johnson, is, how do you see the future 
of research changing with regard to private funding as well as 
public-private partnerships with universities?
    Dr. Johnson. Congressman Rogers, thank you for the 
question, and I look forward to working with you as well. I 
want to give you a couple of examples. Currently, our wonderful 
faculty in the agriculture area is working with the private 
corporation, Wal-Mart, working with small farmers so that they 
can gain some profitability.
    One of the issues that consistently face small farmers is 
that they can produce items but they can't generate enough 
revenue to sustain their farms throughout the years, and so 
essentially what our faculty are doing is working with these 
small farmers on the private side. So that is an example of a 
private partnership.
    With the Federal Government, we are pleased that recently 
eight USDA agencies have come together to help form what we 
describe as the Carter Integrative Sustainability Center. This 
sustainability center will allow members of the USDA to have 
offices on a campus, on our campus, and also allow our faculty 
researchers to work there alongside of them.
    Mr. Rogers. Well, I am curious, anybody who has ever 
visited your campus can see that there is a history of 
corporate partnership with your university. Do you have an 
infrastructure that you are a part of that opens lines of 
communication to corporate America to help you familiarize 
yourself with what their needs are in a way that you could 
possibly be a partner in helping them resolve those concerns, 
or is there such an organization? There may not be. I am 
asking.
    Dr. Johnson. Well, obviously, we rely upon the 1890 Council 
for insight into what is happening nationally with corporations 
that we can continue to develop more and more partnerships 
with, but internally and internal to the institution, frankly, 
we work individually, corporation by corporation. Obviously, 
increased funding will help us to develop such an 
infrastructure that will enable us to do it faster.
    One of the things my colleagues and I would agree on is 
that we receive a lot of our ideas about how to make these 
corporations and partnerships work, but however, we need 
additional personnel, we need additional funding, we need the 
technology infrastructure to streamline in order to form, as it 
were, a clearinghouse whether it be shared by an 1890 
institutions or whether it is unique and intrinsic to the 
university.
    So let me just say that obviously we draw on what available 
consortiums we are a part of to note and see what corporate 
needs are nationally, but internal to the university, frankly, 
we work a partnership at a time to those who are willing to 
partner with the institution.
    Mr. Rogers. Well, I have the honor of chairing, along with 
Gerry Connolly of Virginia, the Public-Private Partnership 
Caucus, and we have been in place about 3 years now, and I look 
forward to reaching out to your institution as well as all the 
institutions here to establish a dialogue as to how we can 
better promote your partnership with the private sector in 
trying to accomplish some of the challenges we have as a 
nation.
    But with that I yield back, and thank you all for being 
here.
    The Chairman. The gentleman yields back.
    Ms. Fudge from Ohio, 5 minutes.
    Ms. Fudge. Thank you very much, Mr. Chairman, and I thank 
you all so much for being here today. Mr. Chairman, I ask 
unanimous consent to enter into the record an APLU policy brief 
which I will be referencing in my remarks today.
    [The information referred to is located on p. 57.]
    The Chairman. Without objection
    Ms. Fudge. Thank you very much.
    Let me just first congratulate all of the HBCUs, 1890s that 
are here today for the remarkable work you do under 
circumstances that are not always the best, and I especially 
want to thank you for taking a chance on students that most 
universities would not take a chance on, especially those who 
have low test scores or low GPAs. You, if no other institution 
does, recognizes that there is talent in a lot of these young 
people and that all they really need is an opportunity to 
succeed.
    I understand that we have students coming to your 
institutions who need some remedial or special work, and let me 
just say to you, that is probably going to get worse, and that 
is one of the reasons we do need to start giving more resources 
to your institutions because I also sit on the Education and 
the Workforce Committee, and we just passed out of committee a 
bill that is going to cut K-12 funding, which is going to make 
this problem worse, as well as they are going to block grant 
all title I funding, so it is going to be a major problem for 
young people coming into your institution. So again I thank you 
and ask that you would continue to invest in young people.
    The APLU report that I referenced, Mr. Chairman, indicates 
that from 2010 to 2012, only 61 percent of 1890 land-grant 
institutions received the 100 percent match from their states. 
The totals over that period of time some $57 million that 1890 
land-grants did not receive because their states did not give a 
match.
    Now, there has never been a problem with states giving a 
full 100 percent match to 1862s, and it is something that we 
need address, and I want to say today that my colleague, Mr. 
Davis from Illinois, has been working with me on how we can get 
states into a posture by which they could give the 100 percent 
match. So bipartisan efforts are going on to make sure that we 
can help with that, as well as the fact that we know that since 
1890s do not have very large endowments, there are resources 
that are needed in these institutions that are not needed in 
1862s.
    Let me just ask a question to whoever would choose to 
answer it. I didn't hear much about the hurdles that are faced 
by 1890s as it relates to funding and what happens when you 
don't get the funding. Anyone who chooses to answer it, please 
feel free. Don't be shy. Okay. Come on, Dr. Bell.
    Dr. Bell. Thank you for that very important question. One 
of the challenges that our institutions face that has to do 
with funding is the lack of adequate personnel to help carry 
out some of the extra duties that are required when we serve 
the population of students that we serve.
    As you indicated, many students do come to our universities 
needing remedial help or other kind of attention, and that 
takes people to work with them directly as well as to guide 
them in the appropriate way to learn those study skills and 
other skills that perhaps they did not pick up while they were 
in high school.
    So one of the challenges is to have adequate personnel so 
that we can then use our faculty to engage in the research and 
teaching efforts that are necessary to help move the mission of 
the 1890s forward. Many of our faculty who are outstanding 
researchers have inadequate time to be able to do the high 
quality work that is going to help drive the 1890 agenda and 
the land-grant agenda forward because of the excessive teaching 
loads that they carry. Most faculty are teaching 12 credit 
hours per semester at our institutions, which is an enormous 
load. So those are just some of the challenges that we face as 
a result of inadequate funding.
    Ms. Fudge. Thank you, Dr. Bell.
    And Dr. Martin, you talk about, in your testimony, of the 
burden of documentation when waivers are required, and I know 
my colleagues really don't like very much--they hate paperwork, 
right, we hear this all the time, so I am hopeful that we can 
address that issue for you.
    Last, let me just say, again, thank you, and on behalf of 
my colleague, our assistant Minority Leader, Mr. Jim Clyburn, 
who really wanted to address you today and was not able to do 
so, I want you to know how interested he is in what you had to 
say today, and on his behalf, I thank you as well for being 
here.
    Mr. Chairman, I yield back.
    The Chairman. The gentlelady yields back. The other Mr. 
Scott from Georgia, 5 minutes.
    Mr. Austin Scott of Georgia. Thank you, Mr. Chairman, and 
before I get into the questions, I want to just get a thank you 
to an old friend of mine, Lynmore James, who I served with for 
14 years in the state legislature. I know my colleague David 
Scott knows Lynmore. He was a graduate of Tuskegee, and he was 
a tireless advocate for Fort Valley State and certainly worked 
very hard on behalf of veterinary programs and other things for 
Fort Valley State.
    And so I haven't seen him in awhile, but Dr. Bailey, when I 
saw you today, it just reminded me of that friendship, and I 
actually have just sent him a text to make sure he knew I was 
going to be talking about his work on behalf of your 
institutions while we had you here today.
    I was at Fort Valley State in October of last year and had 
an interesting conversation with some of the veterinarians 
there. You have a tremendous research facility for ruminants, 
we would call those sheep and goats in south Georgia. I hope I 
pronounced the other word correctly. But I had a very 
interesting conversation with the veterinarian there, and I 
know one of your faculty members actually went to Afghanistan 
and translated some of the veterinary books into their 
languages so that they could understand how to better take care 
of their sheep and goats in that part of the world, and that 
good will has tremendous impact for America and our 
relationships in other parts of the world in helping them do 
that.
    But if you would just speak to the a program that you have 
that is called, Stronger Economies Together that Fort Valley 
State has been involved in. Would you be willing to share that 
with us on your leadership there and what Fort Valley State is 
doing with that?
    Dr. Bailey. Yes. Thank you for that question, Congressman. 
This particular program, Stronger Economies Together, Fort 
Valley State University has taken the lead, and what they do is 
they focus on those counties that are most economically 
depressed, what we call the StrikeForce counties. And the main 
thing that they do is bring rural leaders together so that they 
can cooperate, collaborate, and make decisions that will 
advance the economies.
    And so we have been quite successful in that because we 
have been able to get teams out to the eastern part of the 
state as well as the southwest part of the state, pulling the 
leaders together in order to make progress for the economies of 
those areas.
    Mr. Austin Scott of Georgia. I represent over 20 counties 
in that area, and I want to thank you for your work there, and 
it is pretty--when we lose one manufacturing facility, the 
impact in our area is much greater than certainly if they lose 
an individual manufacturing facility in a metropolitan area, 
and so certainly bringing manufacturing back is one of those 
things that we want to continue to work on.
    But the agricultural sector is what has been the bright 
spot for the rural parts of the country lately, and I want to 
thank you for being there for that in the research, and I want 
to thank you for your relationship with 4-H. I now we had a lot 
of 4-H students here today. That is a wonderful organization 
that does a tremendous amount of good for our country and our 
youth.
    Any other suggestions that you would have for us, Dr. 
Bailey, before we go? I am down to one minute, with regard to 
extension? I know Ms. Fudge brought up funding. Any suggestions 
on the funding related issues?
    Dr. Bailey. Yes. We have done a lot of training, food 
education training, especially through the 4-H and as well as 
FFA, so we are reaching young people. We need additional 
funding so that we can bring their families into the discussion 
because we know that it is a long-term investment in eating 
right and better healthy behavior, but also it is one that 
really permeates the entire culture.
    So additional funding will allow us to reach more counties, 
more students, more families as we move towards making a 
healthier and more economically prosperous state.
    Mr. Austin Scott of Georgia. Thank you, and thank you for 
being here, and I look forward to being at Fort Valley State 
again, and hopefully my friend Lynmore James can join us there 
for lunch one day. Thank you. I yield the remainder of my time.
    The Chairman. The gentleman yields back. The gentlelady 
from North Carolina, Ms. Adams, for 5 minutes.
    Ms. Adams. Thank you, Mr. Chairman. And thank you all for 
your testimony today. We appreciate having you. I have a very 
serious interest in HBCUs. I did my bachelors and masters at 
North Carolina A&T. I spent 40 years on the campus of Bennett 
College. Clearly it is in my blood.
    I did want to touch on something that Dr. Martin and some 
of the others talked about, and that is the funding, but since 
Ms. Fudge mentioned it, I am not going to pursue it so much, 
but just to say that there was a required match to states, and 
the states just aren't doing it, and ten southern states in 
particular withheld about $57 million, as you said, and so 
there is no penalty.
    We might need to look at that, not that I want to be 
punitive, but when we try to find ways for states to help with 
that funding, I think we need to look at that a little more 
seriously, so I won't dwell on that. But it has been a lot of 
money that our schools have lost, and in terms of the research 
and the other kinds of things that they could be doing, we do 
need this money, and it is about fairness because the other 
schools are getting it, and we want to make sure that 
everything is fair.
    And Mr. Scott, I want to thank you for the information that 
you provided. I think it is a very good suggestion.
    But Dr. Martin, let me just ask you, because you mentioned 
the food insecurity and food access, and we know that there are 
several problems in Greensboro and the Triad. I am pleased that 
my alma mater A&T is using its 492 acre farm as a community 
education resource in all that you are doing.
    And I commend you for that, but you mention barriers to 
young and minority farmers, and I guess my question, first of 
all, is what challenges do you see for A&T, for new farmers in 
North Carolina?
    Dr. Martin. Thank you very much, Congresswoman Adams. A 
variety of the areas we find are critical to small farmers in 
general, certainly minority farmers in particular, include 
making a living, a reasonable living from the soil of the land 
these farmers own, and what we have sought to do is provide 
both significant understanding of business opportunities for 
our small minority farmers and helping them find the best use 
of their land and crops to grow on those, on their property, 
and then connecting them with outlets to market their produce 
so that they are able to derive sufficient return on their 
investment on their farms as well.
    We have endless examples of where we have taken work with a 
small farmer who once produced one set of crops, say tobacco, 
for example, and help them understand the importance of 
transitioning to other opportunities for their land.
    For example, using the land to create a set of crops 
related to vegetables that are critically important in 
connecting the produce derived from that farm to some of the 
grocery store chains and outlets and farmers' markets so that 
they may then get a greater return on the produce of their 
farms. Or transitioning them from growing tobacco to creating 
fisheries, for example, to derive profit from growing prawns or 
producing catfish, or creating mushroom farms.
    We have a world class mushroom expert on our campus who has 
developed the technology that has then transferred to some of 
the small farmers in our region to help them learn to produce 
mushrooms, very important, very high quality mushrooms, 
producing these mushrooms, and then selling these mushrooms to 
grocery store outlets and chains as well.
    And these farmers are now doing better, are more 
prosperous, quite honestly, and that is critically important 
for us, obviously. That makes a difference in the economy for 
those regions of our state as well.
    Ms. Adams. Thank you very much. Before I run out of the 
time, I am sure you are aware that the reauthorization of the 
Higher Education Act is before the Congress, and can you share 
with us any priorities that you think we may not have on our 
radar screen that may be unique to North Carolina A&T?
    Dr. Martin. Thank you again for that excellent question. We 
believe that, obviously, the reauthorization of the Higher 
Education Act is critically important to higher education in 
general, certainly important to the 1890s and HBCUs in 
particular. There are core areas, first and foremost, related 
to financial aid, the Pell Grant, and ensuring that there is 
consideration given to expanding Pell Grant, the level of Pell 
Grant awards.
    We lost the opportunity to make Pell Grant awards during 
the summer months, which we think are critically important for 
our students and students we serve, and so if we could see 
opportunities to reintroduce that opportunity.
    Title III funding: Title III funding is part of the 
Reauthorization Act, critically important to HBCUs in 
particular, quite honestly. So restoring fully and expanding 
Title III funding, continued funding for the graduate education 
component of Title III that runs out this year. We are looking 
for another 5 year restoration of that funding, continuation of 
that funding, we think, will be critically important for us.
    Ms. Adams. Thank you very much. Mr. Chairman, I yield back.
    The Chairman. The gentlelady's time has expired. The 
gentleman from Pennsylvania, Mr. Thompson, 5 minutes.
    Mr. Thompson. Mr. Chairman, thank you so much. Each of the 
panelists, thanks to each of you for your leadership, your 
leadership marshalling our land-grant universities, pathways to 
opportunity, but also our land-grant universities are just 
great problem solvers. Some would say traditionally for rural 
America, I would say it is raw America, given the types of 
problems that our land-grant universities work on, so thank you 
so much.
    My question is, and I will open this up to whoever would 
like to respond. Do you believe that separate funding lines for 
the 1890 and 1862 land-grant institutions are still a necessity 
or is there a more efficient way to appropriate Federal 
agricultural research and extension funding?
    Dr. Bailey. Thank you for that question, Congressman. The 
idea of the separate funding is still appropriate. We have two 
groups of universities, but they have two very different 
missions, and the separate funding right now should continue.
    Mr. Thompson. Very good. Any other thoughts?
    Dr. Wright. I would like to add. George Wright from Prairie 
View A&M University. There are instances in our state where 
Texas A&M and Prairie View are located in the same county and 
in the same office, so you will have Texas A&M and Prairie 
View, yet the agents from both of those two institutions will 
say that they seem to be touching different constituencies.
    And so consequently, even though Prairie View does 
everything it can to open its doors to everyone, at the same 
time we do see a special need there to work with that 
community. I might also add that in many instances, the 
situation for Hispanics, many of them are newcomers to this 
country, mirror the same situations for African-Americans, and 
so if you look at some of the parts of Texas that do not have 
emergency care, do not have hospitals, or are missing some of 
the youth programs and so forth, then it is Prairie View agents 
who are doing it.
    I think it is fascinating that people only think about our 
program as doing the rural kind of things, but we are very 
involved in abuse of women, of bullying, of diet issues, and 
things like that, so there are some issues that we do see, yet 
at the same time we do understand the need to work 
collaboratively
    Mr. Thompson. Dr. Johnson.
    Dr. Johnson. Congressman, I would also like to echo Dr. 
Bailey's remarks. Being situated in Tuskegee, Alabama, I do 
recommend that these funding lines remain separate. We are 
situated in one of the poorest counties in one of the poorest 
states, and obviously, disproportionately African-American.
    And so not only would it remain separate but even be 
increased because of the unique issues Tuskegee, for instance, 
are confronted with, confronted with not only the rural farming 
problem but situated with the lack of capacity even within the 
city to assist not only our students but even for us to be a 
much more vital community partner with our local county and 
city.
    Mr. Thompson. Thank you. Dr. Mangum.
    Dr. Mangum. Thank you. I would also like to respond to that 
question. I do believe that we should have separate lines of 
funding for a couple of reasons.
    One, mainly because the capacity building funds is 
extremely important to our institutions. You probably know, as 
many do, that our endowment funds don't nearly match up to the 
endowment funds available to many of the 1862s which provide 
them with additional resources to be able to address the 
agriculture and other issues associated with the agricultural 
industry.
    So the capacity building funds have continued, and we 
certainly hope that they are expanded, would allow us the 
opportunity to become more competitive as we build out our 
institutions and build out our agricultural programs. Thank 
you.
    Mr. Thompson. Well, once again, thank you to all the panel. 
And Mr. Chairman, I yield back.
    The Chairman. The gentleman yields back. The gentlelady 
from Florida, Ms. Graham, for 5 minutes.
    Ms. Graham. Thank you so much. I want to thank everyone who 
is here today, and I also believe we have a pretty large 
overflow room as well, so thank you to those in the overflow 
room for being here.
    I would like to just say to Dr. Mangum again what an honor 
and a pleasure it has been to get to know you and to work with 
you, and as Rattler-in-chief, you are making all of us very 
proud, so thank you very much.
    My question, you mention the USDA land transfer, and one of 
the issues that I am very interested in as well is helping our 
veterans with employment opportunities as they come home, and 
farming is a natural opportunity, particularly in north 
Florida.
    What components of the USDA transfer are you thinking about 
potentially benefiting those veterans as they transition back 
from active duty into veteran status?
    Dr. Mangum. Thank you, Congresswoman, for that question. 
With the land transfer of the 3,800 acres, we need to partner 
with many people to establish the small farms and the ranches 
in that region, and the veterans association in our area has 
been pursuing us, in fact, when the opportunity became 
available.
    The idea of establishing small farms and allowing 
opportunities for our veterans to establish farms as a way to 
transition back into society is a great opportunity for us, and 
we are really looking forward to being able to do that.
    So we have several partners that we are looking to partner 
with to establish those farms in that area and those ranches.
    Ms. Graham. Well, thank you, and I just wanted to make sure 
that we had that on the record because I am so proud of all 
that FAMU is doing, in addition to now working with our 
veterans in that capacity, so thank you again. And I yield back 
the balance of my time.
    The Chairman. The gentlelady yields back the balance of her 
time. The gentleman from Florida, Mr. Yoho, for 5 minutes.
    Mr. Yoho. Thank you, Mr. Chairman. I appreciate everybody 
being here on the panel and all the other Presidents being 
present today. I am a graduate from the University of Florida 
land-grant university, and I appreciate Dr. Mangum being here 
with your rivalry of FAMU, and it is always good to see another 
great Florida school present here in Washington.
    What do you see as the biggest challenge getting students 
involved in the agricultural sector in your school? What have 
you come across?
    Dr. Mangum. Thank you for the opportunity to answer that 
question as well. I think one of the biggest obstacles is 
making agriculture attractive to young people. We need 
additional resources to enhance our offerings, enhance the 
experiences of our students to be able to become involved in 
it, to show them and have them experience the value of 
agriculture and show them the value of it in the future.
    Food safety, food security, and being able to have food 
that is healthy is a very important part of us being able to 
tell the story, having the laboratories, the greenhouses, and 
the facilities that would attract them to the agriculture 
industry is a challenge for all of us in a high-tech world 
where technology is taking over, but agribusiness is also 
extremely important. For us to be able to turn them onto those 
types of opportunities, we need to invest more in their world 
and exposing them to agriculture.
    Mr. Yoho. And it is such a critical thing that we all do 
because, as George Washington said, you have to have food 
security to have national security. And when I first came up 
here and I shared this story with somebody, they were arguing 
the farm bill, and one of the Congressmen from obviously a non-
farming state or not very big one said, what do we need a farm 
bill for, why don't we import our food.
    I think we tried that with oil, and I don't want to try 
that with our food, and so it is so important to get people 
involved in that. And it is a fun, and you know, on the 
campaign trail, one of my competitors said people don't want 
their kids working in the fields anymore, and I am like, heck, 
I have been doing that since I was 15 years of age, it is okay, 
and it is just something we need to promote more and more.
    Dr. Johnson, with your veterinary program--in fact, I had a 
classmate of mine, his wife went to Tuskegee, and she graduated 
in 1982. I believe it was Cindy Silas. Are you doing anything 
to get people to go into large animal medicine because as 
doctor--or my colleague, Mr. Peterson brought up, there is a 
shortage, and it is hard work. It is great work, though living 
there, working on the farms, working with people that make a 
living on our farms, feeding America and the world.
    Do you have any special emphasis that you are bringing 
people in there, knowing that the USDA has a loan forgiveness 
program for people that do rural animal medicine?
    Dr. Johnson. Sure. Thank you for that question, and in 
fact, I wanted to follow up with Ranking Member Peterson that 
our graduates are approximately 30 percent within the large 
animal field in terms of what areas they go into, and then 
approximately 70 percent small animal.
    With respect to trying to develop that pipeline, it is 
always a difficult challenge. I know that we have two deans, 
Dean Walter Hill and Dean Ruby Perry at both of the vet 
schools, as well as the agriculture. One of the things that 
they are thinking about is developing unique innovative ideas 
and partnerships about how to get veterinarian students as well 
as agriculture students working together.
    Obviously, your cattle, your animals benefit from the 
nutrients of the soil that they derive from and the food that 
they are eating, and so one of the things that I know that they 
are working in cooperation with is applying for more USDA 
funding to support that sort of work so that they can create 
additional pipelines, but we will certainly follow up and give 
you even more information if you need.
    Mr. Yoho. That is great. I appreciate it, and my affinity 
is that I am a veterinarian, so the more people--large animal, 
too. The more people you can put into that, the better off we 
will all be.
    And if you guys can, weigh in on this. One of the things we 
see is the benefit of the GMOs, genetically engineered, 
genetically modified, transgenic, whatever you want to call. We 
see the benefit. Less fertilizer, more yield, more nutrition. I 
assume you are all doing research in that.
    What we need to help us in this Committee is to get that 
word out, the benefits of GMOs, and to have spokesmen like you 
and your colleges that you are representing say it is okay, it 
has gone through research, it has gone through the development, 
and they are feeding the world, and they are using less 
pesticides, and if you guys could weigh in on that, and of 
course, I am out of time, but if you will help us do that, it 
would be greatly appreciated, and I thank you for your time and 
your efforts and all you do. I yield back.
    The Chairman. The gentleman yields back. The gentlelady 
from the Virgin Islands, Ms. Plaskett, for 5 minutes.
    Ms. Plaskett. Yes. Thank you, Mr. Chairman, and good 
morning still to all of the Presidents. I want to thank you all 
for the tremendous work that you do in educating our young 
people and bringing young people to be leaders here in this 
country.
    Mr. Chairman, if you would allow my indulgence, I wanted to 
do a little housekeeping myself. Dr. Lawrence Alexander, I want 
to thank you for taking care of my son. I have a son, Ariel 
Duffy who is a student at your university. He is the great 
nephew for O.C. Duffy. He is doing very well and you all are 
treating him very good, but I am watching. He is not the 
youngest child in my family, but he is the baby, so he is in 
Vespers Choir and really enjoying his time at University of 
Arkansas at Pine Bluff where his grandfather graduated and is 
an agricultural scientist before retiring, so thank you all for 
the work that you have done in that area.
    And I wanted to just thank you all for what I think is the 
commitment that you all have to the communities as well that 
you are in. My oldest son was at the University of the Virgin 
Islands, which is also a land-grant university, and did some 
work with not just the farmers but the fishermen in our areas 
and assisting them in statistical analysis that was needing for 
their yields from their fishing.
    And this the kind of work that you all engage in is really 
being a part of the communities in the land-grant, fulfilling 
that mission, and being a part of rural development in many of 
the areas that you are in. So I was going to ask you, whomever 
would like to answer the question, regarding the farmers and 
rural residents. What is the assistance in the work that you 
see yourselves really performing the most and the activities 
that your, not just the students but the professors in your 
extensions have the most need for among the rural farmers in 
the areas in which you are working?
    Dr. Bell. I would like to start.
    Ms. Plaskett. Yes, Dr. Bell.
    Dr. Bell. Thank you for that question. On the Eastern Shore 
of Maryland, one of the major concerns that our rural farmers 
have is on their use of fertilizer and impact on the Chesapeake 
Bay, and so helping those farmers to identify ways to modify 
their use of primarily poultry litter and to cut down on the 
phosphorous runoffs that occur as a result of that so that they 
can meet the regulatory requirement is a critical research area 
for us.
    We have been able to come up with some new technology that 
allows the poultry fertilizer to be used in a different way 
that does not produce the same level of runoff and odor that 
typically violates the regulations, and so it is an educational 
program for our small farmers.
    We have a poultry association that meets regularly on our 
campus to help bring them the latest technology as well as to 
help them to manage their farms and to be more competitive for 
USDA funding.
    Ms. Plaskett. Thank you. Do you see the area of the 
students entering into agribusiness to really provide 
assistance in this area or how are the students really using 
the degree of agribusiness that you find, those that are 
engaged in it? Is it being utilized here in the United States, 
or I know so many instances where students are using it more in 
developing nations and other areas.
    Dr. Martin. Thank you very much for the question. Quite 
honestly, the demand for our undergraduates by the 
agribusinesses we partner with are overwhelming. The demand is 
very high, and many of our undergraduates have just incredible 
high paying jobs, and many of them are going on into the 
marketplace, quite honestly.
    What we try to do as part of our educational engagement 
with our students is to get them involved in undergraduate 
research so that we are enabling and encouraging many of them 
to get involved and through their research to go on to graduate 
school and getting involved in work related to our extension 
activity. They may then see an opportunity to pursue graduate 
education, get involved in higher education career 
opportunities and then work in our research and connect what we 
do in our research laboratories and innovation we discover 
there and transitioning that research to the benefits and 
betterment of the farmers we work with as well.
    The scope of needs of our small farmers are quite varied 
across areas including limiting use of pesticides, developing 
crops where there is limited need for irrigation, and enhancing 
the use of a different set of more resilient seed in producing 
more abundant crops and capturing those crops and connecting 
our small farmers to outlets where they may then sell their 
produce.
    It is a varied set of expectations. They have limited hands 
on their farms to now farm the farm, if you will, and produce 
crops, so we are developing strategies to help them develop 
more efficient ways to grow produce and deliver their produce 
in a more abundant way to the marketplace.
    Ms. Plaskett. Thank you. Thank you all so much for your 
work, and I yield back the rest of time. Thank you.
    The Chairman. The gentlelady's time has expired. The 
gentleman from Georgia, Mr. Allen.
    Mr. Allen. Thank you, Mr. Chairman, and it is always a 
great privilege to be here, and I want to thank each and every 
one of you for what you are doing in education.
    My mom and dad were involved in education, and thank 
goodness they were involved in education, although there were 
many challenges there. Before that, we farmed, and of course 
back in those days what motivated me to get an education is we 
were dirt poor, but things worked out. And of course, I went to 
school at Auburn University over there in Alabama, and a great 
land, great land-grant university, and then of course, my folks 
graduated from the University of Georgia, another great 
agricultural school.
    So yes, I guess my question would be this. There are lots 
of opportunities in the agribusiness world, and we have heard 
about those over and over and over again, and students--we talk 
about funding and we talk about that we need money for this or 
we need money for that.
    And I guess my question is, outside of funding, what can we 
do to help motivate young people, or what is the biggest 
challenge we have with young people today, motivating them to 
take a look at this industry and the opportunities available to 
them? And I would be glad to offer that question to whoever 
would like the tackle it on the panel.
    Dr. Wright. Okay. I would like to give it a shot. It seems 
to me that so many of our young people, and I don't know where 
it comes from, have grown up with a stereotypical view of what 
agriculture equates into farm life means.
    One of the things our dean, who is here with me, tries to 
do is, someone made this comment earlier, I think it was 
Congressman Scott, in saying that it is about food, it is about 
clothing, it is about water, it is about security, it is about 
all of those things. It is also about working in forestry and 
so forth, so we try to show them the wide range of 
opportunities available.
    At Prairie View, roughly around May the 1st, the first 
Saturday in May, we have what is called ``Goat Day,'' and that 
is the day that brings everyone in our community to the 
university. We are very happy that a lot of white and Hispanic 
young people come because we want them to see Prairie View and 
consider coming there. We wish we could get more African-
Americans to come. We showed them all the things you can do 
with a goat. Anything you can do with a cow, you can do with a 
goat, and probably more, but it is very important to do that.
    So for us, it is just educating them about the 
opportunities that are available. We even talked to them about 
job possibilities here in Washington, working in USDA, working 
as attorneys, working in all sorts of things, and as one of my 
colleagues was just mentioning, we definitely try to show them 
how graduate education is possible, and all the different kinds 
of opportunities throughout this country are available, so it 
really is----
    Mr. Allen. How could we help you get that message out? How 
could this body help you?
    Dr. Wright. Again, I think a lot of it falls on us 
ourselves.
    Mr. Allen. I see.
    Dr. Wright. At Prairie View, like many of these, we try to 
say the ``A'' is there for a very important reason, and the 
``A'' has been there from the beginning, that it is 
agriculture, and agriculture is more than someone tilling the 
soil.
    Mr. Allen. Yes, I am on the Education and the Workforce 
Committee as well, and I was in one of our schools, and I asked 
the kids what is the largest industry in our district, and a 
little fella raised his hand, he said Wal-Mart.
    So Mr. Chairman, we have to get the word out that 
agriculture--of course, agriculture is our largest industry. 
Any others like to address that need?
    Dr. Mangum. May I----
    Dr. Bailey. Yes, I would like to just add that you asked 
what can we do to help, and I would like just to add that 
agriculture is not Google, and it is not one of these high-tech 
very attractive areas that young people want to be in, but it 
has to really start--the education has to start at the young 
ages, and so making sure that the message even goes down to----
    Mr. Allen. That is a great idea.
    Dr. Bailey.--K through 12 so that they realize that this is 
so important. It is a matter of survival but that their 
familiarity grows----
    Mr. Allen. Right.
    Dr. Bailey.--early and strong.
    Mr. Allen. And promote it, yes.
    Dr. Bailey. Yes.
    Mr. Allen. Okay. Well, I will have to yield my time back. 
My time is out. Thank you again so much for being here, and 
keep up the good work. We want to help any way we can.
    Thank you, Mr. Chairman. I yield back
    The Chairman. The gentleman's time has expired. Ms. Kuster, 
for 5 minutes.
    Ms. Kuster. Thank you very much, Mr. Chairman.
    And thank you to all of you. I will take you to a different 
part of the country. I am from New Hampshire in the 
northeastern part of the state, but we have a wonderful land-
grant university, the University of New Hampshire which is 
doing great things with agriculture.
    Two points: One is that I just want the say for those who 
don't think that government programs work, 125 years is a 
pretty good record, and I imagine the number of people that 
have been educated and certainly the security and the variety 
of our food industry is pretty extraordinary.
    I want to take a somewhat different look at young people. I 
am very proud of the fact that New Hampshire has a five percent 
growth rate in small farms. And by the way, all farms are small 
farms in New Hampshire by any of my colleagues' reckoning.
    And one of the reasons is that we have a resurgence in 
organic farming, farm-to-table, farmers' markets, we have a 
resurgence in our consumers wanting to know where their food is 
coming from and what is in it. And with all due respect to my 
colleague, Mr. Yoho, we might have a different perspective on 
the research that he has asked you to--and the advocacy that he 
is asked you to take on.
    What I see in my district, and certainly the polling bears 
this out, but the reality of our lives bears this out, people 
want to understand what is in their food, and the fastest 
growing restaurants in the country right now are Panera, 
Chipotle, people want to actually watch their food being 
prepared. They want to see what is going into it.
    So I wanted to ask you, this is what is inspiring young 
people, and then they are getting--the rest of us are catching 
up to CSAs and how to go back to cooking great food and real 
foodies. This is what is driving the economy for us in New 
Hampshire.
    I would like to ask you, are you seeing this? Do you see 
people interested in organics or natural foods or being closer 
to their food, and how are any of you, and this is just wide 
open, how are any of you responding to that?
    Dr. Martin. Congresswoman, thank you very much for that 
excellent question. We in North Carolina are seeing significant 
growth in farmers' markets. The attendance at our farmers' 
markets are overflowing because of the interest of individuals 
in wanting fresh vegetables and fresh produce and wanting to 
know what is in their food.
    We also are working very closely with our partner 
institution, 1862 institution, North Carolina State and 
research and centers of research and food production and 
partnering with all of our food outlets in North Carolina in 
our restaurants to gain commitments from them to bring to the 
table in our restaurants all over our state a certain 
percentage of their food grown in North Carolina.
    So we are seeing an accelerated interest and excitement 
about first partnerships in collaboration, but also food-to-
table through our work with our food producers, small farmers, 
larger farmers, and producers, and the outlets, our restaurants 
and grocery chains and the like in North Carolina. Lots more 
excitement and enthusiasm about growth in quality of food and 
safety of food.
    Ms. Kuster. Great. Thank you. Thank you very much. Any 
others?
    Dr. Bell. I would like to add that at the University of 
Maryland Eastern Shore, one of the initiatives that we are 
working on is what we call high tunnel greenhouse farming, and 
so we have a number of those high tunnel greenhouses that have 
been instituted around the region working with farmers who are 
then contracting directly with area outlets such as Whole Foods 
and others. And we have also introduced that into some of the 
school systems to help with the school age children, help them 
to become accustomed to growing food and seeing how it 
naturally develops. So it is a very interesting project.
    Ms. Kuster. Yes. And getting consumers and children closer 
to their food again. I have heard stories where children didn't 
know what our food looked like. They didn't know the name of 
it. They hadn't seen fresh food, so----
    Dr. Bell. Absolutely.
    Ms. Kuster. Dr. Bailey, I have 10 seconds.
    Dr. Bailey. Yes. I just wanted to add that at Fort Valley 
State University, we have devoted 18 acres to local farmers so 
that they can go out, grow their own fruits and vegetables, and 
we have a farmer's market associated with that. It is very 
successful.
    Ms. Kuster. Terrific. I think that is a great way to 
attract young farmers and attract young people to it.
    So thank you, Mr. Chairman.
    The Chairman. The gentlelady's time has expired. The 
gentleman from Illinois, Mr. Davis, 5 minutes
    Mr. Davis. Mr. Chairman, thank you, and I will not use all 
my time because I actually have to be on the House floor 
chairing proceedings at noon, but I do want to say, I had a 
chance to watch much of your responses to the questions while I 
was conducting some other meetings during this hearing, and it 
is just amazing to me some of the progress that you are making 
at your universities.
    And the focus, I do want to add to what my colleague from 
Georgia, Mr. Allen, said about focusing on agriculture. I come 
from Illinois. Obviously no one here is from the State of 
Illinois in representing an institution there, but Illinois is 
kind of a hub of where our land-grant universities came from 
and where they are today, and as a matter of fact, a former 
professor at Illinois College in Jacksonville, Illinois, an 
institution I went to for 1 year, and no, they didn't kick me 
out, Mr. Chairman, I left on my own volition.
    But Illinois College, Mr. Turner is credited by historians 
with helping Mr. Morrill come up with the idea for land-grant 
universities. So what you do is tremendous for us, and we are 
glad to partner with you in the great State of Illinois, 
especially on behalf of my land-grant university that I am 
proud to represent, the University of Illinois.
    I want to make sure that you have all the opportunities 
that you need to talk about some of the advances. What I care 
about most is being privileged to be the Subcommittee Chairman 
for the Subcommittee on Biotechnology, Horticulture, and 
Research. These issues of ag research are priorities of mine 
and at all of our land-grant institutions.
    I am going to throw this out, and if I get up in the middle 
of your response, I apologize because I do have to go, but I am 
going to yield back the balance of my time and allow you a 
chance to be able to maybe think about some of the issues that 
you would want our Subcommittee to address, and if you could, 
follow up with me later. Send a letter, send some 
correspondence, come see me, let me come see your institutions 
because what you do is an integral part of what we are able to 
do to make your institutions more successful in the future.
    And I would have to thank my colleague, who is not here, 
but she was instrumental in many of the issues that your 
institutions are facing, and we are working very closely 
together on some other issues regarding with our fellow 
appropriators, and that is my good friend Marsha Fudge from 
Ohio who I know had some very kind words for each of you 
earlier today, and thank you again for being here. Thank you 
for what you do for making agriculture such a priority, and 
thank you for educating so many students and turning them into 
great American professionals and giving him an opportunity and 
a career.
    Mr. Chairman, I yield back.
    The Chairman. The gentleman yields back. The gentleman from 
Louisiana, Mr. Abraham, for 5 minutes. I am sorry. I misspoke. 
The gentleman from Oklahoma, Mr. Lucas, former Chairman of the 
Committee.
    Mr. Lucas. Thank you, Mr. Chairman, and this is a very 
important hearing we are having. I always like to remind my 
colleagues what our Presidents out there know, which is that 
the wonders of the land-grant system, prior to the original 
1862 Act being passed, unless you were the child of a rich 
person in this country or for that matter anywhere in the 
world, an advanced education was not available to you, and with 
the 1890 Act and 1994 Act, we have made that available to 
everyone in this great nation, and that is really kind of the 
fundamentally amazing thing that we began in this great 
country.
    So we should all be very proud of all the land-grants. I 
have the privilege of representing Langston University, an 1890 
in Oklahoma, and I believe, Mr. Chairman, you said it would be 
all right to address some questions to the Presidents who are 
not at the table.
    The Chairman. Yes, sir.
    Mr. Lucas. Dr. Wright did a very good job discussing the 
goat program, but if I could call upon Dr. Smith, perhaps, to 
touch on that just a little bit more, we are very proud in 
Oklahoma of that particular research program at Langston, and 
if you could expand a little bit on that, Doctor, and perhaps 
Dr. Wright also, if he would care to, talk about this building 
relationships in foreign countries and the trust that comes 
from that in a time when perhaps Americans are not always the 
most trusted individuals around the planet.

  RESPONSE OF KENT J. SMITH, Jr., Ph.D., PRESIDENT, LANGSTON 
                    UNIVERSITY, LANGSTON, OK

    Dr. Smith. Thank you very much, Congressman. And we are 
very proud to have you as our Representative.
    We are proud of the partnerships we have domestically, but 
we are equally proud of the partnerships that we have 
established at Langston University and particularly with our 
goat research area. We are in Haiti; we are in Israel; we are 
in Africa. And these are partnerships that are literally 
transforming lives internationally.
    As mentioned by my colleague, we tend to think of the goat 
very differently in the United States of America. But when you 
go abroad, the goat is one of the most used animals out there. 
And when you talk about the impact both from a dairy standpoint 
but also from a meat standpoint, from clothing and what have 
you, it is nothing short of phenomenal what can happen in an 
under-served community when they are introduced to the 
possibilities that goat research and having goats available to 
them could provide.
    So we are heavily involved internationally at Langston 
University through our goat research program, and we are doing 
many of the things that my colleagues have mentioned 
domestically as well.
    Mr. Lucas. The opportunities there for your students, both 
graduate and faculty, to participate in those international 
trips, could you expand on that a little bit, because I suspect 
a typical land-grant university in this day is still much like 
Frank Lucas was several decades ago, had not spent a whole lot 
of time outside of his state, certainly not outside of the 
country, but it has to be a mind-expanding experience for the 
student?
    Dr. Smith. I will give you a personal example that just 
happened to me. It was July 4, and the reason I know that is I 
was outside with my young children, and we were popping 
fireworks on the campus, and literally six students walked up, 
well, about six students, and turns out they were students from 
Africa, exchange students from Africa, who had just gotten onto 
our campus the day before and they were there as a result of 
our faculty members' research and involvement in Africa, and 
they are here for the summer; and we started having a dialogue.
    And for my personal children, they got to interface with 
some people who were different from them, who were from another 
part of the world, and many conversations. Fast forward to the 
interactions that our students are having this summer with 
students from Africa, that is what being prolific in the area 
of research and going global can have on your campus. Our 
faculty is getting to interact in ways they would not have had 
otherwise.
    So it is a tremendous opportunity that is provided. When 
you give, you get back tenfold in terms of the research. So it 
is allowing us as a land-grant institution to talk about the 
university globally, but to interface with what is happening in 
education throughout the world.
    Mr. Lucas. Thank you, Dr. Smith, and thank you, Mr. 
Chairman. I yield back the balance of my time.
    The Chairman. The gentleman yields back. Now Mr. Abraham, 
from Louisiana, for 5 minutes.
    Mr. Abraham. Thank you, Mr. Chairman. Being a rural 
physician in the Louisiana Delta, I cannot tell you how 
important agriculture and land-grant universities have been to 
our state in the southeastern United States. We are very 
fortunate today, we have representation from Southern 
University.
    Dr. Belton, if you will just stand up for a minute, sir, I 
would love to recognize you. He is the newly appointed 
President and Chancellor of the Southern University System. And 
again, for me it is an honor for him to be here representing 
Southern. Southern is a shining star, not only in our State of 
Louisiana, but in the southeastern United States and really 
throughout the nation. It has directly and indirectly 
benefited, farmers, ranchers, agribusiness; and every resident 
the state, I can assure you, has been touched through the 
graduates and the work that Southern does.
    I in fact, I have an intern working with me this summer, 
Perez Pickney; he is a student of Southern University. So 
thousands of our students in Louisiana and across the nation 
have graduated with degrees from Southern, successfully 
employed, gone out and become just fantastic businessmen and 
businesswomen, leaders of our community, leaders of the 
nation's community. And additionally Southern has been 
recognized and accredited from the Urban Forestry and Natural 
Resources Department that offers a B.S., M.S., and Ph.D. in 
urban forestry and natural resources; and to date more than 300 
students have received degrees from just this department, and 
they are heavily recruited by the USDA.
    So, again, I just can't say enough about Southern being an 
integral part of our university system in the State of 
Louisiana but also in the state of the nation, and I am proud 
to have Dr. Belton and his representatives here to do that.
    And I will get to my question. Dr. Bailey, you alluded to 
this, but agriculture now is not what it was when I was growing 
up as far as getting a degree in agriculture. It is so much 
more. I couldn't begin to expound on the possibilities and the 
probabilities that are available in agriculture now. I guess my 
question is, of all the fields in agriculture that are new and 
upcoming, where do you guys see the most growth, and are there 
jobs available for these graduates when they get out? And 
anybody that wants to hit first, go right ahead.
    Dr. Bailey. Thank you for that question. I personally have 
a background in business, and that might make me favor 
agricultural economics. I think it is the basic area, the 
foundation. I know that there are career opportunities for our 
students in that area as well. It is an asset to the decision-
making, and I think that it will help all of the decision-
makers, the leaders, to hit the correct balance with regard to 
investment in food or fabric or shelter. Its importance simply 
cannot be minimized, and I would say that probably is where we 
need to go.
    Mr. Abraham. I agree totally. Anybody else? Yes, ma'am. Go 
ahead, Dr. Mangum.
    Dr. Mangum. Thank you. I would also like to expand on that 
question. I think scientists are needed in agriculture. Much of 
what we do, developing the biological controls, if we are going 
to protect the food supply and production, we need more 
students in the research area.
    Mr. Abraham. I totally agree. I think it is a national 
security issue, our food safety now; so you are spot on exactly 
with that. It has become that important. Anybody else----
    Dr. Bell. I was going to just add that food safety and 
security is a prime area on our campus, in particular given the 
industries that we serve in the region, and so we think that 
that is an area of growth for not just our region, but for the 
whole nation and the world actually.
    Mr. Abraham. Go ahead, Dr. Wright.
    Dr. Wright. I was going to mention water management is very 
important. It just so happens that in Texas we have had a lot 
of rain this year, but if you look over the last 5 or 6 years, 
we have more or less had droughts. And the fact that on our 
campus we have people very interested in that area is so 
important. It is again a research area, but water management is 
so important.
    Mr. Abraham. Yes. Look at California and what happened. I 
appreciate y'all's great work. Mr. Chairman, I yield back.
    The Chairman. The gentleman yields back. Before we adjourn, 
I turn to my colleague and friend, David Scott, for any 
comments he might have to close out the hearing.
    Mr. David Scott of Georgia. Oh, well, thank you, Mr. 
Chairman. First, again, thank you very much for your leadership 
in providing this hearing. We are very, very appreciative of 
that and with what we have to do.
    I was just sitting here and this whole morning, and I want 
everyone to know that this has been a hearing of soaring 
magnitude and historical significance, and we have accomplished 
a lot. We have strengthened the bond and relationship of the 
1890s with the Congress of the United States. You genuinely see 
the interest and the concern that Members of Congress have 
expressed, their knowledge, the work they did in getting their 
own research. You could tell by the in-depth questions that 
they asked.
    The other extraordinary part about this hearing that made 
it of soaring magnitude is that you all came so well prepared 
to talk about what you have done and are doing with the Federal 
funds that you are receiving. And furthermore, the talk that 
you have brought to explain the great efficiencies for how you 
are getting so much out of the amount of money and funds that 
we are giving.
    And, third, the fine recommendations of what you and what 
we can do to do, as I echo the words of George Washington 
Carver, what we can to better the condition of the American 
people.
    Now, one of the most prevailing things that have come out 
of this meeting is the urgency and the total understanding that 
we are facing here an issue of grave national security. That is 
why this is so important, and the role of the 1890s, going 
forward, will play a very critical role in addressing this 
national security area.
    One, the age of our farmers, those who produce our food, is 
continually escalating up, as I said, to 60 years of age. The 
1890s can play a critical role in that. The whole concern about 
beginning farmers, just for an acre of land now, it costs 
$8,000. So we in Congress must understand that we have to look 
at this as a national security area and get the resources out 
into your hands so that you can do the job of opening up these 
opportunities and dealing with this final issue of showing the 
proper image of agriculture to the African-American community.
    This was the final point that was made, and the gentleman 
from Prairie View A&M addressed it so succinctly when you said 
the stereotypical image of agriculture must be erased so we can 
show all of the greatness of agriculture, the significance of 
agriculture, the extraordinary jobs and opportunities that are 
all too often being bypassed by the African-American community 
because of this stereotype. As I said, it is the food we eat, 
the clothes, the energy; it is everything. And so I say to you, 
ladies and gentlemen, God bless you. This has been 
extraordinary. We say onward and forward.
    Again, thank you, Mr. Chairman.
    The Chairman. One of the worst things you can do is to 
follow a Baptist preacher. David, thank you for those comments.
    I too want to add my thanks and congratulations to the 
system for 125+ years. Some of those schools have been around a 
bit longer than that but at least from the 1890 version and 
supports given from that legislation. Congratulations on that. 
We probably won't have to wait for another 125 years to have 
you back to talk to Congress. This has been a really terrific 
hearing. You saw from the interest of the crowd outside when we 
all got here, we transitioned from the reception, the keen 
interest in that.
    Universities are at their core tools, tools to prepare kids 
for the future. I had a chance to meet with four young folks 
that are back there this morning to talk to them about what 
their plans are, where they are going, and the fact that they 
need to be really good because my generation and the one just 
below me and the one ahead of me have screwed this place up; 
and they are going to have to be really good to save us from 
ourselves in effect for all the problems that are out there 
that's going on.
    I marvel at the impact that teachers and administrators 
have on mentoring and teaching and training and loving and 
prepping young men and women for those tasks that will, in 
fact, make this country a better place and all of our lives 
better and then the ripple effect, because they will teach and 
train and mentor and love and hug, and do all those things.
    So thank you for being a part of that and being here. You 
have a great story to tell. It folds really nicely into the 
overall agricultural story. As we look at the future of the 
2018 Farm Bill, we have to create that awareness among folks 
who live in urban America and don't really have that link, 
other than eating three or four times a day, to agriculture and 
the impact it has on their lives.
    And so how do we make them aware because they already 
benefit from the cheapest, most abundant and safest food and 
fiber supply of any developed nation in the world based on the 
efforts of you and training those young farmers and all that 
they do. They just don't know it yet, and several of you 
mentioned the fact that this idea that they don't know where 
food comes from other than the grocery store and have no idea 
how it shows up there.
    And as we gentrify our country, more and more, and that is 
what is happening, and we lose that direct contact back to the 
land, that we run the risks of not appreciating just what 
agriculture does for us every single day. I may have told one 
of you I was in a conversation with one of our colleagues when 
I first got here, and I was talking about being on the 
Agriculture Committee; and she said, ``Well, I represent an 
urban area, and I don't have any agriculture issues in my 
district.'' I said, ``Does no one in your district eat?'' And 
she looked at me and she said, ``Well, yes.'' And I said, 
``Well, it seems they have a keen interest in the successful 
production agriculture industry in this country.''
    So I hope you have had a great time in Washington, D.C. I 
hope this has been beneficial for you to come and be a part of 
this. It has clearly been beneficial to us. And we appreciate 
all of your efforts to make that happen. As I mentioned 
earlier, the other schools, if you want to prepare an opening 
statement much like you would have been able to present under 
the rules of the Committee, the record of today's hearing will 
remain open for 10 calendar days to receive additional material 
as supplemental written responses from the witnesses to any 
question posed by a Member.
    Thanks everyone for being here today. This hearing of the 
House Committee on Agriculture is adjourned.
    [Whereupon, at 12:14 p.m., the Committee was adjourned.]
    [Material submitted for inclusion in the record follows:]
Submitted Memorandum by Hon. David Scott, a Representative in Congress 
                              from Georgia
Memorandum
  To: The United States House of Representatives Agriculture Committee
  From: U.S. Congressman, David Scott
  Date: July 15, 2015

  Re: The 1890 Land-Grant African-American Colleges and Universities' 
            funding proposed language addition

    Currently:

    The 1890 land-grant institutions receive the majority of their 
United States Department of Agriculture funding through the farm bill, 
every 5 years, and these funds are to be used for three general 
purposes: research, education, and extension.
    As a result of the current farm bill, on February 9, 2015, the 
United States Department of Agriculture Assistant Secretary for Civil 
Rights Joe Leonard announced the availability of more than $18 million 
for the 19 historically black land-grant colleges and universities in 
an effort to recruit, educate, and train African-American students for 
careers in agriculture.

    Proposed Language Addition:

    The proposed language addition is to add one additional use to the 
current funding structure. In order to encourage, recruit, and train 
more African-American students for careers in agriculture, farming, and 
agribusiness, this additional use of the funds would be helpful and 
necessary to help achieve Assistant Secretary Joe Leonard's, and our 
objective, which is: to recruit, educate, and train more African-
American students for careers in the very important, critical, and 
growing fields of agriculture, farming, and agribusiness.
    The proposed new uses of funds will read as follows:
    These funds will be used for the following purposes; Teaching, 
Research, Extension, Student Scholarships and Student Loan Forgiveness.

    Rationale for proposed language addition:

    Knowing that the average age of agricultural farmers in the United 
States is 60 years of age. And, knowing the difficult challenges facing 
beginning farmers, and knowing the critical need to increase the number 
of African-American students seeking careers in agricultural business 
and farming; therefore, the United States Congress recognizes that, we, 
the United States Congress, ourselves, must play a critical role in 
reducing the average age of farmers, provide greater assistance for 
beginning farmers, and provide financial scholarship and loan 
forgiveness to bring more African-Americans into careers in farming and 
agricultural business.
    Thus, through this language addition that funds can now also be 
used for student scholarship and loan forgiveness for 1890 students, we 
are also helping to bring down the average age of farmers, over time, 
and open the door of opportunity for more beginning farmers.
                                 ______
                                 
Submitted Report by Hon. Marcia L. Fudge, a Representative in Congress 
                               from Ohio
The Office for Access and Success Policy Brief
Report No. 3000-PB1
September 2013

By:

  John Michael Lee, Jr., Ph.D., Vice President, APLU.
  Samaad Wes Keys, Program Assistant, APLU.

    This OAS Policy Brief highlights the inequities that exist in state 
matching Federal formula funding to our nation's 1890 land-grant 
universities and provides policy recommendations to fix the systemic 
inequities in the nation's land-grant system.
Land-Grant But Unequal State One-to-One Match Funding for 1890 Land-
        Grant Universities

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
Highlights
 
    <bullet> From 2010-2012, 61 percent of 1890 land-grant institutions
   did not receive 100 percent of the one-to-one matching funds from
   their respective states for extension or research funding.
 
    <bullet> Between 2010-2012, 1890 land-grant universities did not
   receive more than $31 million in extension funding due to states not
   meeting the one-to-one match requirement.
 
    <bullet> From 2010-2012, 1890 land-grant universities did not
   receive more than $25 million in research funding due to states not
   meeting the one-to-one match requirement.
 
    <bullet> Combined, 1890 land-grant universities did not receive
   almost $57 million due to states not meeting the one-to-one match.
------------------------------------------------------------------------

Introduction
    On July 2, 1862, President Abraham Lincoln signed the Morrill Act 
into law, forging a new partnership between the Federal Government and 
the states to create the backbone for what is today the public system 
of higher education in America. Before the establishment of the state-
university system of higher education, private institutions primarily 
provided higher education to Americans and access was afforded only to 
the well off at a few institutions such as Harvard, Yale and Princeton 
(APLU, 2012).
    For more than 150 years since that historic event, the nation's 
land-grant colleges and universities have provided a ``liberal and 
practical education'' and these institutions have helped open the doors 
of access and empower students with the education they need. These 
institutions have also developed ground-breaking research that has 
moved our country forward and these institutions continue to provide 
rural communities in each state with robust solutions to the challenges 
they face--both agriculturally and socially. There is at least one 
land-grant institution in every state and territory in the United 
States and the District of Columbia (see Figure 1). Today, land-grant 
colleges and universities continue their mission to provide equitable 
access to education and develop innovations that continue to strengthen 
individual states and the country as a whole. Americans lead richer, 
productive and more prosperous lives because of the contributions of 
the land-grant university system.
    Under the 1862 Morrill Act, which created the vast majority of 
land-grant institutions, and the Morrill Act of 1890, which established 
18 black land-grant universities, the Federal Government committed to 
providing financial support to schools so long as states matched that 
level of support. Although 1890 land-grant universities produce 
talented students, innovative research and state-of-the-art practices 
in agriculture and STEM disciplines that are geared toward improving 
life in rural and high-risk communities, states are failing to provide 
the nation's 1890 historically black land-grant universities the same 
level of one-to-one matching dollars they provide other land-grant 
institutions that receive Federal funding.
Figure 1: U.S. Land-Grant Colleges and Universities

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Source: U.S. Department of Agriculture Cooperative State 
        Research, Education, and Extension Service, Washington, D.C. 
        Based on U.S. Department of Agriculture map: m2783, June 2003.

    The purpose of this policy brief is to highlight the disparities 
that exist in the matching of Federal formula funding to our nation's 
1890 land-grant universities and to provide policy recommendations to 
fix this systemic disparity in the nation's land-grant system. The 
brief gives a history of the land-grant system, offers detailed 
information about land-grant matching funds to 1890 universities, 
highlights survey data and concludes with four recommendations for 
policymakers to strengthen the land-grant system. While this brief 
compares and contrasts state one-to-one matching funds to 1862 and 1890 
universities, it does not suggest a zero sum game of taking needed 
funds from 1862 universities. Instead, the land-grant system is 
strongest when all universities--1862s, 1890s and 1994s--are funded 
adequately to carry out the land-grant mission.
The First Morrill Act of 1862
    The Morrill Act is named after the U.S. Congressman from Vermont, 
Justin Morrill, who led the passage of the legislation that established 
the land-grant institutions for each state known as the First Morrill 
Act (Allen & Jewell, 2002; Brown, Donahoo, & Bertrand, 2001; Redd, 
1998; R. Wilson, 1990). Though Congressman Morrill introduced his first 
version of the bill in 1857 and secured passage in 1859, it was vetoed 
by President James Buchanan (APLU, 2012). The passage of the First 
Morrill Act in 1862 reflected the demand for an expanded focus on 
agricultural and technical education in the United States that opened 
the doors of education to the agricultural and industrial workers. In 
the Morrill Act the purpose of the establishment of the land-grant 
system is stated in the following words:

          ``. . . the endowment, support, and maintenance of at least 
        one college where the leading object shall be, without 
        excluding other scientific and classical studies, and including 
        military tactics, to teach such branches of learning as are 
        related to agriculture and the mechanic arts, in such manner as 
        the legislatures of the states may respectively prescribe, in 
        order to promote the liberal and practical education of the 
        industrial classes in the several pursuits and professions in 
        life'' (Morrill Act of 162, sec. 4).

    This purpose was fulfilled and what started as a system of colleges 
to educate the industrial class, is today a system of comprehensive 
colleges and universities that are centers for research, teaching, 
agricultural innovation and the liberal arts. Many land-grants are also 
flagship institutions such as the University of Florida and The Ohio 
State University. Ultimately, most land-grant colleges have become 
large public universities that today offer a full spectrum of 
educational opportunities. However, there are some land-grant colleges 
that are private schools, including Cornell University, Massachusetts 
Institute of Technology and Tuskegee University.
The Second Morrill Act of 1890
    African-Americans could not benefit from the passage of the First 
Morrill Act in states that did not allow them to attend institutions of 
higher education. These states were primarily in Southern and border 
states. In fact, it was not until the passage of the subsequent 
legislation known as the Second Morrill Act of 1890 that African-
Americans were able to attend land-grant institutions in many states. 
The Morrill Act of 1890 prohibited the distribution of money to states 
that made distinctions of race in admissions unless at least one land-
grant college for African-Americans, was established, and thus brought 
about the establishment of 19 public black colleges (Allen & Jewell, 
2002; Provasnik, et al., 2004; Redd, 1998; Roebuck & Murty, 1993). It 
should be noted that several institutions outside of the South and 
border states provided access to African-American students long before 
the Morrill Act of 1890. Prior to the establishment of the black-land-
grant system in 1890, access to higher education for African-Americans 
in the United States was primarily limited to private universities such 
as Howard University and Fisk University.

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
1890 Land-Grant Universities
 
    A second Morrill Act was passed in 1890, aimed at the former
 Confederate states. This Act required each state to show that race was
 not an admissions criterion, or else to designate a separate land-grant
 institution for persons of color. Among the 70 colleges and
 universities which eventually evolved from the Morrill Acts are several
 of today's historically black colleges and universities. Though the
 1890 Act granted cash instead of land, it granted colleges under that
 act the same legal standing as the 1862 Act colleges; hence the term
 ``land-grant college'' properly applies to both groups. However, many
 did not receive land nor money.
 
1994 Land-Grant Universities
 
    Later on, other colleges such as the University of the District of
 Columbia and the ``1994 land-grant colleges'' for Native Americans were
 also awarded cash by Congress in lieu of land to achieve ``land-grant''
 status.
------------------------------------------------------------------------


------------------------------------------------------------------------
 
-------------------------------------------------------------------------
1890 Land-Grant Universities
 
    <bullet> Alabama A&M University (AL)
 
    <bullet> Alcorn State University (MS)
 
    <bullet> Delaware State University (DE)
 
    <bullet> Florida A&M University (FL)
 
    <bullet> Fort Valley State University (GA)
 
    <bullet> Kentucky State University (KY)
 
    <bullet> Langston University (OK)
 
    <bullet> Lincoln University (MO)
 
    <bullet> North Carolina A&T State University (NC)
 
    <bullet> Prairie View A&M University (TX)
 
    <bullet> South Carolina State University (SC)
 
    <bullet> Southern University System (LA)
 
    <bullet> Tennessee State University (TN)
 
    <bullet> Tuskegee University (AL)
 
    <bullet> University of Arkansas, Pine Bluff (AR)
 
    <bullet> University of Maryland Eastern Shore (MD)
 
    <bullet> Virginia State University (VA)
 
    <bullet> West Virginia State University (WV)
------------------------------------------------------------------------

Land-Grant But Unequal: State Matching Funds for 1890 Land-Grant 
        Institutions
    Over the years, land-grant status has implied several types of 
Federal support. The first Morrill Act of 1862 provided grants in the 
form of Federal lands (30,000 acres or equivalent in scrip for each 
Representative and Senator) to each state for the establishment of a 
public institution to fulfill the Act's provisions. At different times 
money was appropriated through legislation such as the second Morrill 
Act of 1890, which funded the establishing of the nation's public 
historically black land-grant colleges and universities; and the 
Bankhead-Jones Act of 1935 which provided an increase in Federal 
funding to land-grant colleges and universities during the depression.
    The nation has significantly expanded its contributions to land-
grant colleges and universities. This support includes funding for 
research through the Hatch Act of 1887 and the Smith-Lever Act of 1914 
that created the extension system at 1862 land-grant universities. 
However, because 1890 land-grant institutions are not eligible to 
receive funding provided by the Hatch Act or the Smith Lever Act, the 
Evans-Allen Act was established in 1977 (90 years after the Hatch Act 
of 1887) to support agricultural research at 1890 land-grant 
institutions with funds equal to at least 15 percent of the Hatch Act 
appropriations. Institutions currently receive about 21 percent of 
Hatch Act funding through the Evans-Allen Act.
    The National Agriculture Research, Extension and Teaching Act of 
1997 (NARETPA)--established 83 years after the Smith-Lever Act of 
1914--provides Federal funding for agricultural extension programs and 
activities at 1890 land-grant institutions similar to those of 1862 
universities under the Smith-Lever Act. NARETPA provided this funding 
directly to 1890 institutions for the first time. The United States 
Department of Agriculture (USDA) plays an integral role in the 
administering of Federal land-grant funds and the coordination of 
agricultural land-grant activities at the national level. USDA's 
National Institute of Food and Agriculture (NIFA) awards research 
funding through a combination of formula funding, non-competitive and 
competitive grants.

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
Important Federal Land-Grant Legislation
 
Hatch Act of 1887
 
    A key component of the land-grant system is the agricultural
 experiment station program created by the Hatch Act of 1887. The Hatch
 Act authorized direct payment of Federal grant funds to each state to
 establish an agricultural experiment station in connection with the
 land-grant institution in order to increase agricultural research. The
 amount of this appropriation varies from year to year and is determined
 for each state through a formula based on the number of small farmers
 in the state. A major portion of the Federal funds must be matched by
 the state.
 
Smith-Lever Act of 1914
 
    In order to disseminate information gleaned from the experiment
 stations' research to the farmers and other industrial workers in the
 state, the Smith-Lever Act of 1914 created the Cooperative Extension
 Service associated with each 1862 land-grant institution--1890 land-
 grant institutions did not receive this funding (APLU, 2013). Extension
 programs at land-grant institutions are the community and rural
 education programs that provide a direct impact to the citizens of each
 state and include programs to support small farmers and agricultural
 business development in every state. This Act authorized ongoing
 Federal support for extension services, using a formula similar to the
 Hatch Act, to determine the amount of appropriation. This Act also
 requires states to provide matching funds in order to receive the
 Federal monies.
 
Evans-Allen Act of 1977
 
    The Evans-Allen Act of 1977 provides capacity funding for food and
 agricultural research at the 1890 land-grant universities in a manner
 similar to that provided to the 1862 universities under the Hatch Act
 of 1887. Research conducted under the Evans-Allen Program has led to
 hundreds of scientific breakthroughs of benefit to both the unique
 stakeholders of the 1890 Institutions and the nation as a whole [7
 U.S.C. 3222, (Sec. 1445, Research Act of 1977)].
    The Evens-Allen Act was created to support continuing agricultural
 research at colleges that were created under the 1890 Morrill Act. Its
 purpose is to promote efficient production, marketing, distribution and
 utilization of products of the farm as essential to the health and
 welfare of people and to promote a sound prosperous agriculture and
 rural life.
 
The National Agricultural Research, Extension, and Teaching Policy Act
 NARETPA) of 1977
 
    The National Agricultural Research, Extension, and Teaching Policy
 Act of 1977 (NARETPA) as a law, provides the basis for Federal funding
 for agricultural extension programs and activities at 1890 land-grant
 institutions.
------------------------------------------------------------------------

    Though these funding sources have been made available to the 
nation's land-grant colleges and universities, this funding also 
requires the home state of the land-grant institution to match all 
formula based funding received from Federal funds on a dollar-to-dollar 
basis commonly referred to as the one-to-one match requirement. While 
one-to-one matching is a requirement for all states with land-grant 
universities, states often do not fulfill the matching requirement for 
its 1890 land-grant institutions while meeting and in many cases 
exceeding the matching requirement for 1862 land-grant institutions in 
the same state. Federal legislation allows institutional waivers for 
the one-to-one match requirement for 1890 land-grant institutions while 
1862 land-grant institutions are not eligible to receive waivers. As a 
result, from 2010-2012, 1890 land-grant institutions did not receive 
almost $57 million in Federal matching funds for research and extension 
activities.
The Matching Disparity
    The one-to-one matching inequity that is being experienced by 1890 
land-grant institutions is not in any way caused be the Federal 
Government or the U.S. Department of Agriculture. In fact, Congress 
established the matching requirement so that all land-grant 
institutions would receive one-to-one matching funds from their 
respective state. This inequity in funding to HBCUs by states has been 
well documented since the founding of these institutions, and funding 
at these schools was very poor and not equitable compared to white 
institutions (Allen & Jewell, 2002; Redd, 1998). While all states are 
meeting the one-to-one matching requirement for their 1862 
institutions, the majority of states do not meet this obligation for 
1890 land-grant universities (see Figure 2) requiring these 
institutions to apply for a waiver of the one-to-one match requirement 
or forfeit their funding. The U.S. Department of Agriculture still 
requires 1890 land-grant institutions to come up with at least 50 
percent of the match.
Figure 2: Evans-Allen and Extension One-to-One Matching Status to 1890 
        Land-Grant Universities by State, 2012
        
        
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          Source: Association of Public and Land-grant Universities 
        Office of Access and Success analysis of U.S. Department of 
        Agriculture extension and Evans-Allen Funding, 2013.
          Note: In some cases though institutions may not have received 
        a waiver, the match comes from general funds instead of a 
        specific line-item.

    From 2010-2012, 61.2 percent (11 out of 18) of the 1890 land-grant 
institutions did not receive 100 percent of the one-to-one matching 
funds from their respective states for extension or research funding. 
In terms of dollars, 1890 land-grant universities did not receive 
$31,828,918 in extension funding due to states not meeting the one-to-
one match requirement (see Table 1) between 2010-2012, and 1890 land-
grant universities did not receive $24,798,282 in research funding due 
to states not meeting the one-to-one match requirement (see Table 2) 
from 2010-2012. Combined, this is a net loss of $56,627,199. It is also 
not clear if the remaining eight states where 1890 institutions have 
not applied for a waiver are also losing millions of dollars because 
many do not have a specific line-item that provides these matching 
funds and they are taken from the institutions general agriculture 
allocation. For example, in FY14, Maryland will provide the University 
of Maryland Eastern Shore (UMES) with a specific line-item match for 
USDA matching funds for the first time. Historically, the match for the 
agriculture funds at UMES was derived from the general agriculture 
appropriation and was not specifically identified as a match. When 
these funds are not identified as a match and are taken from general 
funds, it results in a net loss to the institution. Budget reductions 
to state institutions general funds also requires institutions to 
reduce their state match significantly. Without a separate line-item 
allocation to ensure that the one-to-one match is met each year, it is 
unclear if the requirement is being met by all states, including those 
that have not required a waiver. While the matching provided by states 
to institutions has increased significantly over the last 2 decades, 
1890 land-grant universities in many states still do not receive the 
funding necessary to meet the one-to-one requirement.

                        Table 1: 1890 Land-Grant Universities Extension Funding 2010-2012
                                                2010-2012 Totals
----------------------------------------------------------------------------------------------------------------
                                                    100% Match
   State        Institutions     Total to State    Requirement     Total  Waiver   State  Actual  State  Percent
                                                      Total          Requested      Match Total     Match Total
----------------------------------------------------------------------------------------------------------------
AL           Alabama A&M             $6,337,562       $6,337,562              $0      $6,337,562            100%
AL           Tuskegee                $6,337,562       $6,337,562      $2,195,669      $4,141,893             65%
AR           University of           $5,555,679       $5,555,679      $1,867,658      $3,688,021             66%
              Arkansas, Pine
              Bluff
DE           Delaware State          $3,486,215       $3,486,215              $0      $3,486,215            100%
FL           Florida A&M             $5,435,344       $5,435,344      $2,717,632      $2,717,713             50%
GA           Fort Valley State       $7,575,368       $7,575,368              $0      $7,575,368            100%
KY           Kentucky State          $9,473,491       $9,473,491      $3,569,427      $5,904,064             62%
LA           Southern                $4,971,901       $4,971,901              $0      $4,971,901            100%
              University
MD           University of           $3,943,556       $3,943,556              $0      $3,943,556            100%
              Maryland, Eastern
              Shore
MS           Alcorn State            $5,931,055       $5,931,055              $0      $5,931,055            100%
MO           Lincoln University      $9,559,897       $9,559,897      $5,033,586      $4,526,311             47%
NC           North Carolina A&T     $10,736,846      $10,736,846      $3,756,038      $6,980,808             65%
              State
OK           Langston                $5,856,454       $5,856,454              $0      $5,856,454            100%
              University
SC           South Carolina          $5,448,885       $5,448,885      $2,724,443      $2,724,442             50%
              State
TN           Tennessee State         $8,411,095       $8,411,095              $0      $8,411,095            100%
TX           Prairie View A&M       $12,562,718      $12,562,718      $6,055,922      $6,506,796             52%
VA           Virginia State          $7,097,437       $7,097,437      $2,270,574      $4,826,863             68%
WVA          West Virginia           $4,025,156       $4,025,156      $1,637,969      $2,387,187             59%
              State
                                --------------------------------------------------------------------------------
  Grand Totals                     $122,746,221     $122,746,221     $31,828,918     $90,917,304             74%
----------------------------------------------------------------------------------------------------------------
Source: U.S. Department of Agriculture, 2013.


                 Table 2: 1890 Land-Grant Universities Evans-Allen (Research) Funding 2010-2012
                                                2010-2012 Totals
----------------------------------------------------------------------------------------------------------------
                                                    100% Match
   State        Institutions     Total to State    Requirement     Total  Waiver   State  Actual  State  Percent
                                                      Total          Requested      Match Total     Match Total
----------------------------------------------------------------------------------------------------------------
AL           Alabama A&M             $6,678,810       $6,678,810              $0      $6,678,810            100%
AL           Tuskegee                $6,629,632       $6,629,632        $312,615      $6,317,017             95%
AR           University of           $5,734,629       $5,734,629      $1,234,076      $4,500,553             78%
              Arkansas, Pine
              Bluff
DE           Delaware State          $3,132,109       $3,132,109              $0      $3,132,109            100%
FL           Florida A&M             $5,287,691       $5,287,691      $3,068,010      $2,219,682             42%
GA           Fort Valley State       $7,640,470       $7,640,470              $0      $7,640,470            100%
KY           Kentucky State          $9,124,875       $9,124,875      $1,677,140      $7,447,735             82%
LA           Southern                $5,086,583       $5,086,583              $0      $5,086,583            100%
              University
MD           University of           $3,836,233       $3,836,233              $0      $3,836,233            100%
              Maryland, Eastern
              Shore
MS           Alcorn State            $8,022,396       $8,022,396              $0      $8,022,396            100%
MO           Lincoln University      $7,307,444       $7,307,444      $3,735,087      $3,572,357             49%
NC           North Carolina A&T     $10,513,898      $10,513,898      $2,845,912      $7,667,986             73%
              State
OK           Langston                $5,860,825       $5,860,825              $0      $5,860,825            100%
              University
SC           South Carolina          $5,691,927       $5,691,927      $3,304,647      $2,387,280             42%
              State
TN           Tennessee State         $8,322,683       $8,322,683              $0      $8,322,683            100%
TX           Prairie View A&M       $12,382,874      $12,382,874      $6,315,445      $6,067,429             49%
VA           Virginia State          $7,096,901       $7,096,901        $913,367      $6,183,534             87%
WVA          West Virginia           $3,757,225       $3,757,225      $1,391,983      $2,365,242             63%
              State
                                --------------------------------------------------------------------------------
  Grand Totals                     $122,107,205     $122,107,205     $24,798,282     $97,308,924             80%
----------------------------------------------------------------------------------------------------------------
Source: U.S. Department of Agriculture, 2013.


     Table 3: 1890 Land-Grant Universities Combined Extension & Evans-Allen Act Funding (Research) 2010-2012
                                                2010-2012 Totals
----------------------------------------------------------------------------------------------------------------
                                                    100% Match
   State        Institutions     Total to State    Requirement     Total  Waiver   State  Actual  State  Percent
                                                      Total          Requested      Match Total     Match Total
----------------------------------------------------------------------------------------------------------------
AL           Alabama A&M            $13,016,372      $13,016,372              $0     $13,016,372            100%
AL           Tuskegee               $12,967,194      $12,967,194      $2,508,284     $10,458,910             81%
AR           University of          $11,290,308      $11,290,308      $3,101,734      $8,188,574             73%
              Arkansas, Pine
              Bluff
DE           Delaware State          $6,618,324       $6,618,324              $0      $6,618,324            100%
FL           Florida A&M            $10,723,035      $10,723,035      $5,785,641      $4,937,394             46%
GA           Fort Valley State      $15,215,838      $15,215,838              $0     $15,215,838            100%
KY           Kentucky State         $18,598,366      $18,598,366      $5,246,567     $13,351,799             72%
LA           Southern               $10,058,484      $10,058,484              $0     $10,058,484            100%
              University
MD           University of           $7,779,789       $7,779,789              $0      $7,779,789            100%
              Maryland, Eastern
              Shore
MS           Alcorn State           $13,953,451      $13,953,451              $0     $13,953,451            100%
MO           Lincoln University     $16,867,341      $16,867,341      $8,768,673      $8,098,668             48%
NC           North Carolina A&T     $21,250,744      $21,250,744      $6,601,950     $14,648,794             69%
              State
OK           Langston               $11,717,279      $11,717,279              $0     $11,717,279            100%
              University
SC           South Carolina         $11,140,812      $11,140,812      $6,029,090      $5,111,722             46%
              State
TN           Tennessee State        $16,733,778      $16,733,778              $0     $16,733,778            100%
TX           Prairie View A&M       $24,945,592      $24,945,592     $12,371,367     $12,574,225             50%
VA           Virginia State         $14,194,338      $14,194,338      $3,183,941     $11,010,397             78%
WVA          West Virginia           $7,782,381       $7,782,381      $3,029,952      $4,752,429             61%
              State
                                --------------------------------------------------------------------------------
  Grand Totals                     $244,853,426     $244,853,426     $56,627,199    $188,226,227             77%
----------------------------------------------------------------------------------------------------------------
Source: U.S. Department of Agriculture, 2013.

Survey of 1890 Land-Grant Universities
    In a 2013 survey of 1890 land-grant universities conducted by the 
APLU Office for Access and Success, 50 percent of institutions 
indicated that they did not receive one-to-one matching funds from 
their state (See Figure 3) and 70 percent of institutions indicated 
that they had requested a waiver between 2008 and 2013 (see Figure 4). 
Further, only ten percent of respondents (one institution) indicated 
that the 1890 land-grant institutions received more than a one-to-one 
match (see Figure 5), and 80 percent of respondents noted that the 1862 
land-grant institutions receive more than a one-to-one matching of 
funds from their state (See Figure 6). This further underscores the 
under-funding of 1890 land-grant institutions in comparison to 1862 
land-grant universities in the same state. Figure 7 shows that since 
2008, there has been an increase in 1890 land-grant institutions 
receiving waivers for the one-to-one matching requirement. When asked 
what entity in the state makes the final decision on whether or not 
your institution receives matching funds, 90 percent of survey 
respondents indicated that the state legislature was responsible for 
the making the decision on matching funds while only ten percent 
indicated the governor as the final decision maker. The survey also 
asked respondents to briefly describe the process to secure matching 
funds in their state (See Figure 9). The responses received ranged from 
a request being made to the legislature by the university to the 
absence of any formal process to secure matching funds. The responses 
show that there is a need to standardize the process of how requests 
for funding for matching funds are handled on a state-by-state basis.
Figure 3: Land-Grant Universities Matching Survey, 2013
Question: Does your institution receive 100 percent of one-to-one 
        matching funds from your state for the Agriculture funding 
        received from USDA?
        
        
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          Source: Association of Public and Land-grant Universities, 
        Office of Access and Success 1890 Matching Survey, 2013.
Figure 4: Land-Grant Universities Matching Survey, 2013
Question: Has your institution ever requested a waiver from USDA for 
        not meeting the One-to-One Matching Requirement between 2008 
        and 2013?
        
        
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          Source: Association of Public and Land-grant Universities, 
        Office of Access and Success 1890 Matching Survey, 2013.
Figure 5: Land-Grant Universities Matching Survey, 2013
Question: Does your institution receive more than 100 percent of one-
        to-one matching funds from your state for the Agriculture 
        funding received from USDA?
        
        
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          Source: Association of Public and Land-grant Universities, 
        Office of Access and Success 1890 Matching Survey, 2013.
Figure 6: Land-Grant Universities Matching Survey, 2013
Question: Does your state's 1862 land-grant institution receive more 
        than 100 percent one-to-one matching funds from your state for 
        Agriculture Funding received from USDA?
        
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          Source: Association of Public and Land-grant Universities, 
        Office of Access and Success 1890 Matching Survey, 2013.
Figure 7: Land-Grant Universities Matching Survey, 2013
Question: In what year(s) has your institution received a waiver from 
        USDA for the One-to-One Match Requirement? (Select All That 
        Apply)
        
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          Source: Association of Public and Land-grant Universities, 
        Office of Access and Success 1890 Matching Survey, 2013.
Figure 8: Land-Grant Universities Matching Survey, 2013
Question: What entity in your state makes the final decision on whether 
        or not your institution receives one-to-one matching funds? 
        
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          Source: Association of Public and Land-grant Universities, 
        Office of Access and Success 1890 Matching Survey, 2013.
Figure 9: Land-Grant Universities Matching Survey, 2013
Question: Please briefly describe the process to secure matching funds 
        in your state? 
       
       
       [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          Source: Association of Public and Land-grant Universities, 
        Office of Access and Success 1890 Matching Survey, 2013.
Moving Forward: Recommendations for Policy Makers
    The disparities in matching funds in the nation's land-grant system 
must be corrected. States must meet their obligation that was 
established under the Morrill Acts to equally fund the land-grant 
system in their states that provide research and extension services 
that benefit rural farmers and communities in their respective states. 
More must be done on both the Federal and state level to ensure that 
match funding for 1890 land-grant institutions is brought to parity 
with their 1862 land-grant counterparts. We do not aim to introduce 
through these recommendations a zero sum game where money should be 
taken from 1862s to accomplish the goal of parity for 1890s. The money 
received by both sets of institutions is important to the overall 
strength of the land-grant system and the contributions of both are 
important to the state. It is in the best interest of the state to 
fully fund the land-grant system, and we propose the following policy 
recommendations to strengthen the entire land-grant system:
Recommendation 1
    States should ensure that 1890 land-grant Universities receive the 
One-to-One Matching of Funds from the state in a separate line-item 
budget.

    State legislators, governors and system and institutional governing 
boards should ensure that yearly budgets to 1862 and 1890 land-grant 
universities automatically include a separate line-item to match the 
Federal dollars received for land-grant institutions. This would not 
only ensure that all 1862 and 1890 land-grant universities receive the 
one-to-one match that is required under Federal law, but also ensures 
that universities do not have to make up the deficit for the funds 
through general operating dollars that are intended to be spent on 
academic programs.
Recommendation 2
    States should ensure that both 1862 and 1890 land-grant 
universities receive the percent of matching funds in their 
appropriation dollars.

    State legislators, governors and system and institutional governing 
boards should ensure that the percent of formula funds matching is the 
same for 1862 and 1890 land-grant universities because this is the only 
way that parity in funding can be reached. While each institution 
receives their grant allocations from the Federal Government based on a 
Federal formula, some states go above and beyond the matching 
requirement for their 1862 land-grant institutions but do not even meet 
the minimum 100 percent one-to-one match requirement for many of their 
1890 land-grant institutions. This means that while an 1862 institution 
(which receives more in land-grant funding based on institutional size 
and other factors) can receive 2:1 or 12:1 matching funds, the 
corresponding 1890 institutions receive less than and up to a one-to-
one match. The under-funding of HBCUs has been a persistent problem for 
many 1890 land-grant institutions in general, and it is time that these 
institutions receive their Federal match. This does not mean that 1862s 
should not continue to receive the funding they currently receive, but 
it does mean that more money should be invested into 1890 institutions 
in these states.
Recommendation 3
    States should ensure that the process to request and receive 
matching funds is the same for 1862 and 1890 land-grant universities.

    States should create standardized and automated processes for the 
request and receipt of matching funds from the state. The results of 
the survey show that the processes that are currently used by states 
vary greatly and can often be different for 1862 institutions versus 
1890. For example, one 1890 land-grant institution noted that while it 
had to specifically make a request for matching funds to the state 
legislature, the same funding was provided to the 1862 land-grant 
university without making a specific request before the same 
legislature and received much more money than required by the one-to-
one matching requirement. The process in each state should be reviewed 
to ensure equity in funding.
Recommendation 4
    Federal legislators should provide oversight to ensure that states 
meet their obligation for providing the one-to-one matching requirement 
and should incent states to provide the same percentage of formula 
match funding to both 1862 and 1890 land-grant universities within 
their state.

    States should no longer be allowed to not meet their obligation of 
providing matching funds to 1890 land-grant institutions. The Federal 
Government should provide more mechanisms to ensure that institutions 
receive the matching funds from their states. It should not be left up 
to 1890 land-grant institutions themselves to use the waiver process in 
lieu of not receiving matching funds from the state.
Conclusion
    The above recommendations represent a path forward to ensure that 
1890 land-grant universities can finally receive the one-to-one 
matching funds. To be land-grant but unequal is a strange place to be 
for a land-grant system that was created to bring education to 
agricultural and industrial citizens in each state. Staying true to the 
original intent of the Morrill Acts, 1890 land-grant universities have 
contributed and continue to contribute greatly to research, extension 
services and academic training to citizens and farmers. However, many 
of these institutions have been doing so in states that have not met 
their obligation to provide matching funds to these institutions. This 
must be changed and rectified. Each state has an obligation to ensure 
these changes not only for the 1890 land-grant institutions but also 
for the citizens and farmers of each state that are served by these 
universities.
    For the executive summary, visit www.aplu.org/OASresearch.
References
    Association of Public and Land-grant Universities (2013). 1890 
Land-grant Universities One-to-One Matching Survey. Washington, D.C.: 
APLU Office of Access and Success.
    Association of Public and Land-grant Universities (2012). The Land-
grant Tradition. Washington, D.C.: author.
    Allen, W.R., & Jewell, J.O. (2002). A backward glance forward: 
Past, present, and future perspectives on historically black colleges 
and universities. Review of Higher Education, 25(3), 241-261.
    Brown, M.C., Donahoo, S., & Bertrand, R.D. (2001). The black 
college and the quest for educational opportunity. Urban Education, 
36(5), 553-571.
    Evans-Allen Act of 1977.
    Hatch Act of 1887.
    Morrill Act of 1862, sec 4.
    National Agricultural Research, Extension, and Teaching Policy Act 
of 1977.
    Provasnik, S., Shafer, L.L., & Snyder, T.D. (2004). Historically 
black colleges and universities, 1976-2001 (No. NCSE 2004 062). 
Washington, D.C.: Government Printing Office.
    Redd, K.E. (1998). Historically black colleges and universities: 
Making a comeback. New Directions for Higher Education, 26(2), 33-43.
    Roebuck, J., & Murty, K. (1993). Historically black colleges and 
universities: Their place in American higher education. Westport, CT: 
Praeger Publishers.
    Smith-Lever Act of 1914.
    Wilson, R. (1990). Can black colleges solve the problem of access 
for black students? American Journal of Education, 98(4), 443-457.
About the Authors
    John Michael Lee, Jr. is Vice President for the Office for Access 
and Success (OAS) and is responsible for advancing Public Black 
Universities, Hispanic-Serving Institutions, and Tribal Colleges and 
supporting the APLU Council of 1890 Universities; Commission on Access, 
Diversity and Excellence; and the OAS Advisory Board. His research 
interests include student access, participation, and success in higher 
education; student recruitment, retention, and graduation; student 
development; minority serving institutions (HBCUs, HSIs, and Tribal 
Colleges); higher education diversity; and education policy.
    He earned a Ph.D. in higher education administration from New York 
University, an MPA with a concentration in economic development from 
Georgia State University, and a bachelor of science in computer 
engineering from Florida A&M University.
    Samaad Wes Keys is the program assistant for the OAS and is 
responsible for research, managing collaborative partnerships and 
initiatives to meet the key organizational objectives for advancing 
college access and success for all students, with particular attention 
paid to underrepresented groups at the pre-college and college levels. 
His research interests are focused on postsecondary education policy, 
minority student access and success, and minority-serving institutions. 
He holds a deep interest in the for-profit sector of higher education 
and how these institutions are shaping the future direction of higher 
education.
    He is currently a doctoral candidate at the University of Georgia's 
Institute of Higher Education. He earned a master's degree from Central 
Michigan University in educational curriculum and instruction and a 
bachelor of arts degree from Morehouse College in psychology.
Suggested Citation
    Lee, J.M. and Keys, S.W. (2013). Land-grant But Unequal: State One-
to-One Match Funding for 1890 Land-grant Universities. (APLU Office of 
Access and Success publication no. 3000-PB1). Washington, D.C.: 
Association of Public and Land-grant Universities.
About APLU
    The Association of Public and Land-grant Universities (APLU) is a 
research, policy, and advocacy organization representing 223 public 
research universities, land-grant institutions, state university 
systems, and related organizations. Founded in 1887, APLU is the 
nation's oldest higher education association with member institutions 
in all 50 states, the District of Columbia, four U.S. territories, and 
Canada. Annually, member campuses enroll four million undergraduates 
and 1.2 million graduate students, award over one million degrees, 
employ over one million faculty and staff, and conduct $39 billion in 
university-based research.
About The Council Of 1890 Universities
    APLU's Council of 1890 Universities collectively represents the 
interests of 1890 land-grant institutions including the University of 
the District of Columbia and the University of the Virgin Islands. The 
Council seeks to maintain, insure and increase funding, to present a 
unified approach for presentation of views regarding these institutions 
and to serve as a forum to share ideas and resources. The Council works 
with other 1890 associations in developing a comprehensive agenda for 
APLU regarding Congressional and Federal policies and programs 
impacting 1890 institutions.
About OAS
    APLU's Office for Access and Success (OAS) is dedicated to equity, 
access, and educational excellence for all Americans with a special 
focus on under-served students and minority-serving institutions. OAS 
is primarily responsible for supporting the APLU Council of 1890 
Universities; the Commission on Access, Diversity and Excellence 
(CADE); Hispanic-Serving Institutions; and the OAS Advisory Board. To 
reach the authors, please e-mail <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a8c7c9dbe8c9d8c4dd86c7dacf86">[email&#160;protected]</a>
Acknowledgements
    This report was written and edited by John Michael Lee, Jr., Vice 
President for the Office of Access and Success (OAS) at APLU and Samaad 
Wes Keys, program assistant in OAS at APLU. The authors would like to 
thank M. Peter McPherson, President of APLU; Howard Gobstein, Executive 
Vice President; and Michael Tanner, Chief Academic Officer and Vice 
President; Ian Maw, Vice President for Food Agriculture & Natural 
Resource; Eddie Gouge, Senior Associate Director of Federal Relations--
Food and Agricultural Sciences; Christine Keller, Associate Vice 
President for Academic Affairs and Executive Director of the Voluntary 
System of Accountability; Jennifer Poulakidas, Vice President for 
Congressional and Governmental Affairs, Jeff Lieberson, Vice President 
for Public Affairs and Troy Prestwood, Public Affairs Representative in 
Public Affairs for their many contributions to this effort.
    We would also like to the thank the staff at the United States 
Department of Agriculture (USDA) and the National Institute for Food 
and Agriculture (NIFA) for their assistance with securing the data 
necessary to make this report possible.
                                 ______
                                 
 Prepared Statement of Laurence B. Alexander, J.D., Ph.D., Chancellor, 
          University of Arkansas at Pine Bluff, Pine Bluff, AR
    Thank you Honorable Chairman Conaway, Ranking Member Peterson, and 
Members of the House Committee on Agriculture for providing this 
opportunity for me to provide written testimony for the Congressional 
hearing.
    My name is Laurence B. Alexander and I am the Chancellor of the 
University of Arkansas at Pine Bluff.
    The University of Arkansas at Pine Bluff is an 1890 land-grant, 
historically black college/university (HBCU) with a diverse student 
population of more than 2,500 students, more than 30 undergraduate and 
graduate degree offerings, including a Ph.D. Program in Aquaculture/
Fisheries. Our talented faculty members are among the most diverse of 
any university within the state. As the second oldest higher education 
institution in Arkansas, our aim has remained the same over the years--
to provide a high quality, affordable education with a personal touch.
    For more than 140 years, the University of Arkansas at Pine Bluff 
has worked to create an environment that infuses excitement into 
learning, affords opportunities for personal growth and productivity 
while providing a basic need to its students--a chance to advance. The 
15:1 student-to-teacher ratio makes it possible to maintain a learning 
environment with close interaction between students and faculty while 
offering challenging curricula which encourage our students to seek and 
fulfill their potential. Our land-grant academic programs and STEM 
Academy lead the charge in these areas.
    Out-of-class experiences and student involvement includes more than 
120 student organizations, an internationally renowned Vesper Choir, 
Marching Band, Concert Bands, Wind Symphony, nationally recognized 
spirit and debate teams, award-winning theater department and 
accomplished athletics program.
Land-Grant Programs
    The School of Agriculture, Fisheries and Human Sciences is an 
integral part of the University of Arkansas at Pine Bluff and 
administers the 1890 research and extension land-grant programs at the 
University. The School consists of three academic departments: 
Agriculture, Fisheries and Human Science. Approximately $7.7 million in 
combined Federal and state funds (Evans-Allen, Extension and State 
Match) support 15 approved ongoing research and extension projects. 
While most of the research is conducted at the UAPB campus site, some 
activities are occurring at the UAPB Lonoke and Marianna farm sites. 
Additional research studies were conducted on private cooperating farm 
sites in Jefferson, Lee, St. Francis, Monroe and Phillips counties and 
in collaboration with other institutions such as the Felsenthal 
National Wildlife Refuge. Through collaborations with other colleges 
and universities, both in the U.S. and internationally, the School of 
Agriculture, Fisheries and Human Sciences strives to help improve the 
quality of life for people in Arkansas, the nation, and the world. The 
School's Office of International Programs, is vital to achieving global 
effectiveness and success.
    Seven new Evans-Allen research projects conducted by School 
researchers were approved and seven Evans-Allen projects were 
completed. The knowledge gained by these research activities is 
extended to families and communities through a variety of outreach and 
Extension programs. The extension program has structured programs in 29 
counties with staff housed in ten of those counties.
    Research and Extension in Agriculture are conducted in the areas of 
biotechnology, plant science, animal science, water quality and 
agricultural economics. The efforts in the Department of Human Sciences 
are directed toward human nutrition, food safety and family life. A 
newly developed project in the textiles program includes the 
utilization of new applications for biomaterials such as traditional 
fibers and new modified regenerated proteins like spider silk and 
cellulosic fibers in relation to aspects of sustainability of 
materials.
    The Agriculture and Human Sciences components of the Research and 
Extension programs are designed to provide information and assistance 
to small-scale and limited resource farmers and disadvantaged families 
and youth.
    Last, but not least, our nationally known Aquaculture/Fisheries 
program supports both the state's aquaculture industry and recreational 
fishing. The latter serves as an avenue for enhancing tourism as an 
economic engine for the state.
Selected Land-Grant Impacts
    Some of the impacts that our land-grant research and extension 
programs have yielded center around sweet potatoes, rice, catfish, bait 
fish and locally grown produce. I will briefly detail the more 
significant impacts we have had in the above mentioned areas with a 
sampling of the research conducted at UAPB:
    UAPB is working to identify a number of major viruses that 
detrimentally affect the sweet potato crop in the state of Arkansas. 
Our researchers can now advise producers to not use their own seeds 
over a period of time as higher accumulation of viruses may lead to 
yield loss. This knowledge could save producers thousands of dollars 
over a period of time.
    To help solve inefficiencies in commercial production of baitfish 
and keep down feed costs, UAPB scientists are testing new diet 
ingredients and feeding strategies using prebiotics with golden 
shiners. The study will direct producers to a feed that can produce a 
hardy, disease-resistant product that will increase profitability.
    A UAPB study examined the increased demand for fresh and chilled/
frozen seafood while the market size and share of U.S. farm-raised 
catfish were declining. It found that the catfish industry needs to 
develop market-specific strategies to gain further market share in the 
U.S.
    Through a collaborative effort between UAPB, the East Arkansas 
Enterprise Community and the Arkansas Delta Seeds of Change, several 
schools now have fresh, locally grown fruits and vegetables to meet the 
``color my plate'' guidelines. As a result, school districts in 
Arkansas have added more fresh fruits and vegetables to school lunch 
and summer feeding programs to meet USDA guidelines and to provide 
healthier choices to school children.
STEM Scholars Academy
    I would also like to call attention to our STEM Scholars Academy at 
UAPB. The Academy is a well-integrated set of enrichment programs 
designed to help meet local, state and national human resource needs in 
STEM areas. The STEM Scholars Academy reflects the land-grant mission 
and the University's mission with a particular emphasis on helping to 
increase the pool of well-prepared underrepresented minorities in STEM 
majors and careers.
    Currently, there are three enrichment initiatives, including the 
NSF-funded HBCU-UP Comprehensive Implementation grant which is 
foundational to the STEM Academy; the NSF-funded Arkansas Louis Stokes 
Alliance for Minority Participation grant which is reflective of best 
practices learned in the HBCU-UP STEM Academy; and the U.S. Department 
of Education funded M.Ed. degree in Science and Mathematics Education 
Program. All are designed to help meet research, teaching and industry 
needs in science areas, with a particular emphasis on diversity in 
these critical areas. The Arkansas Science and Technology Authority is 
also a major partner in these initiatives.
    Key components of the STEM Academy initiatives include a Guest 
Lecture Series, Advisory Board, Pre-First Year Summer Institutes/
Academy, hands-on research/mentoring experiences, internships, study 
groups, curricula and infrastructure upgrades. Currently, the STEM 
Academy has 229 undergraduates and six graduate students. The 
disciplines include: chemistry, mathematics, physics, computer science, 
biology, plant science, animal science, and industrial technology.
    The UAPB STEM Scholars Academy has helped to transform education 
efforts within the science, engineering and mathematics disciplines at 
the University by producing a well-designed model of intervention that 
sharpens the students' skills in teamwork, research, STEM content, 
technical writing and professional presentations. As a result, we have 
experienced an increase in STEM enrollment from 21.3% to 33.2% (Fall 
2005 to Fall 2014). The number of bachelor degrees conferred in STEM 
majors has increased from 76 to 124 (2005-2014), a 63.2% increase since 
the development of the Academy.
    Today, the STEM Scholars Academy serve as strong beacons to 
students, their parents, organizations and agencies, shedding light on 
the importance of STEM research and educational programs. These 
programs are critical for creating well prepared and diverse STEM 
graduates. These programs also provide a spring board for STEM career 
growth while at the same time helping the U.S. to remain competitive in 
the global economy.
Continuing Challenge
    One of the major challenges that our university faces is securing 
the full state match for the university's annual Evans-Allen and 
Extension funding. The annual effort to secure the full match deters 
the university from more fully serving its clientele through research 
and Extension efforts. Each biennium the University has to diligently 
work to secure the state match. Since the inception of this Federal 
requirement, the university has not been successful in securing the 
state match and has had to request a waiver each year from USDA-NIFA to 
receive our full Federal funding allocation.
    We are concerned that any decreases in Evans-Allen and Extension 
funding will further hamper our ability to serve our clientele through 
our research and Extension efforts.
Concluding Statement
    I will close my written testimony by saying that I am honored to 
have the opportunity to submit my testimony for the Congressional 
hearing. On behalf of all of the students, faculty, staff and citizens 
of the great State of Arkansas who are associated with our land-grant 
programs and mission, we at the University of Arkansas at Pine Bluff 
thank you for your continued support.
                                 ______
                                 
  Prepared Statement of Dr. Ray L. Belton, President and Chancellor, 
      Southern University and A&M College System, Baton Rouge, LA
    Mr. Chairman, Honorable Members of the Committee, fellow 1890 land-
grant university leaders, ladies and gentlemen, good morning! I am Ray 
Belton, the President and Chancellor for the Southern University and 
A&M College System of Louisiana. It is an honor for me to be here today 
to participate, observe and to share some comments on such an important 
and historical occasion--125th celebrations of 1890 land-grant 
institutions, where Southern University and A&M College is recognized 
as one among these great institutions.
    It is my pleasure to provide this testimony to the House 
Agriculture Committee of the United States House of Representatives. My 
testimony consists of a brief overview of the Southern University A&M 
College System, it's five campuses, and highlight some features of 
agricultural and related programs as they exist. Moreover, this 
testimony will address future goals and funding opportunities needed to 
help Southern University continue to provide quality educational, 
research and extension services to the citizens of Louisiana.
    Southern University and A&M College is the only HBCU System in the 
United States of America. The System consists of five campuses: 
Southern University and A&M College--Baton Rouge, a comprehensive 
institution offering 4 year, graduate, professional, and doctorate 
degree programs; Southern University at Shreveport Louisiana, a 2 year 
junior commuters college, designed as an extension of Southern 
University--Baton Rouge for the students in the Shreveport--Bossier 
City and surrounding areas; Southern University--New Orleans, a 4 year 
urban institution that offers personalized co-curricular programs; 
Southern University Law Center, a traditional law program inclusive of 
outstanding clinical and externship, joint degree and studies abroad 
programs; Southern University Agricultural Research and Extension 
Center, an entity whose mission is to conduct basic and applied 
research and disseminate such information nationally, as well as 
statewide.
    The agriculture and related programs are housed on the SUBR and Ag 
Center campuses. First, let me provide a few general highlights of 
SUBR, our flagship campus. It consists of five colleges with bachelor 
degree programs in various disciplines to include agricultural, family 
and consumer sciences. It also provides eighteen (18) master degree 
programs and five (5) Ph.D. programs. The University's College of 
Nursing and Allied Health has been ranked among the top 10 producers of 
African-American nurses in the nation. It was named Nursing School of 
the Year by reputable association, the Louisiana State Nurses 
Association and the Louisiana Nurses Foundation. The Southern 
University's Marching Band--the Human Jukebox--was recognized among the 
top marching bands in the 2015 Historically Black Colleges and 
Universities Digest's national awards competition.
    The College of Engineering is one of the country's top 10 producers 
of African-American engineers, and its graduates hold significant, 
creative and administrative positions in such companies as IBM, 
ExxonMobil, Entergy Corp., Caterpillar Corp., Raytheon, Dow Chemical, 
Chevron and others. Noted alumni include the following: Russel L. 
Honoree, retired Lieutenant General, U.S. Army and leader of the 2005 
Task Force Katrina; the late Freddye Scarborough Henderson, founder of 
the first African-American travel agency in the country; and Joseph 
Steward, former Vice President, Kellogg Company. These are some 
examples of noteworthy graduates from Southern University A&M College 
programs.
    Many of the graduates of the division of Agricultural, Family and 
Consumer Sciences hold responsible positions within USDA and private 
industry. Southern University's first patent emanated from the Division 
of Agricultural, Family and Consumer Sciences in which a method and 
apparatus of reducing calcium in aquatic waste to be used as plant and 
animal feed. In 2014, the Urban Forestry program helped Southern 
University to earn the designation of Tree Campus USA, becoming the 
first HBCU in Louisiana and only the 4th in the nation to receive the 
designation.
    Academics, Research and Extension at Southern University: Southern 
University has directly and indirectly benefits students, farmers, 
agribusiness men and residents of Louisiana through programs funded in 
large measures through the House Agriculture Committee to the United 
States Department of Agriculture, for the enhancement of the land-grant 
programs.
    Thousands of students have graduated with Bachelor of Science 
degrees in agriculture and are successfully employed throughout USDA, 
the private sectors, self-employed as farmers and owners, and 
practicing agribusiness men in farm related businesses. Additionally, 
Southern University has a nationally recognized and accredited Urban 
Forestry and Natural Resources department, one of a few in the United 
States, that offers a B.S., M.S. and Ph.D. degrees in Urban Forestry 
and Natural Resources. To date, more than 300 students have received 
degrees at the various levels from this department. These graduates are 
highly recruited by the USDA, the university community and the private 
sector. The Division of Agricultural, Family and consumer Sciences 
(DAFCS) ranks first in undergraduate student retention out of the 
university's nine undergraduate degree colleges and schools; first in 
average grant funding per faculty over the last 6 years; and seventh in 
the number of African-Americans with bachelor's degrees in the 
agricultural sciences among 1890 land-grant universities. Southern's 
first patent was received for method and apparatus of reducing calcium 
in aquatic waste to be used as plant and animal feed. In 2014, the 
Urban Forestry program helped Southern University to earn the 
designation of Tree Campus USA, becoming the first HBCU in Louisiana 
and only the 4th in the nation to receive the designation.
    As stated earlier, the Ag Center's mission is to conduct basic and 
applied research and disseminate the discovered information nationally, 
as well as statewide. The Center's practices are based on practical 
research, qualitative and quantitative research results. The research 
and extension programs support the academic offerings by promoting 
faculty and student research; outreach leading in the various 
disciplines of agriculture and natural resources. Further, it also 
provides our students with real global experiential learning and 
competencies. Beyond supporting academic programs, research and 
extension continue to connect farmers, rural communities, and urban 
residents with opportunities for success. For example, given the 
importance of beef cattle production to small farmers in Louisiana, 
Southern University is engaged in a major research program designed to 
maximize income for small land holders by improving efficiency in land 
use through upgraded pasture production and, expanded grazing practice, 
by having both beef cattle and goats to sequentially graze the same 
pasture. The results of this project are being well received by our 
farmers.
    Niche crop production and value-added commodities such as hibiscus 
and mushroom are providing several promising opportunities for farmers 
to have other profitable crops to put in crop production mix.
    Additionally, the cooperative extension program has graduated over 
65 small farmers from across the State of Louisiana in a 20 hour whole 
farm-planning curriculum through the State Leadership Development 
Institute. As results of this training, small farmers are realizing 
increased farm productivity and income.
    Finally urban agriculture and gardening are being integrated into a 
research, educational and nutritional program. With Louisiana ranking 
49th in the country in obesity and having sixty-four percent of its 
adults either overweight or obese, Southern University AgCenter has 
developed interactive hands-on group sessions and in-home nutrition 
notes on dietary quality, physical activity and safety are also being 
provided to under-served families in rural and urban communities.
    Future Goals and Funding Needs: The funds are essential for the 
future of agriculture and forestry in Louisiana and America as well as 
having helped to improve technology transfer abroad to a growing 
population and decreasing availability of land; growing demand for 
sustainable urban forestry, urban agriculture and the need to restore 
vast amount of urban and urban-rural interface ecosystems (including 
restoration of our wetlands). Additionally, the cooperative extension 
program has graduated approximately 65 small farmers from across the 
state of Louisiana in Whole Farm Planning sessions through the Regional 
and State Leadership Development Institutes. The farmers received in 
excess of 200 hours of instruction and traveled throughout the southern 
states and the State of Louisiana to become more familiar with best 
practices in agriculture. The Cooperative Extension Program works with 
farmers assisting them with specialized/individualized training to meet 
their needs. The overall goal of trainings and workshops is to increase 
the profitability and sustainability of the small farm operations. 
Instructional areas provided by agents, specialists and external 
collaborators include record keeping, variety selection, production, 
resource inventory, and estate planning and risk management. Research 
and extension programs will be critical to help develop successful 
models where farming, environmental issues, urban living can all co-
exist while improving access to quality affordable food.
    Many challenges exist that affect efforts to address needed issues 
of clientele groups through land-grant programs at the university. 
Additional resources are needed to fully support on-going and expanded 
initiative at the university. Some are as follows:

  <bullet> continue and expand the work on increasing profitability 
        among small farm families.

  <bullet> continue efforts to address obesity and related issues.

  <bullet> continue the work toward enhancing economic development 
        activities in underprivileged and unfortunate communities.

  <bullet> enhance the work of preparing students for career 
        opportunities in the food, fiber and agricultural industries.

    In addition to a need for resources to expand these on-going 
initiatives, similar resources and funding opportunities are needed to 
support proposed centers of excellence:

  <bullet> Create an integrated center to benefit Small Farms, Ranchers 
        and Forest Landowners in high poverty areas.

  <bullet> Establish a virtual center to support the science, 
        technology, engineering, agriculture, and mathematic (STEM) 
        pipeline of students and to address the growing need of 
        talented career candidates to meet future workforce needs.

  <bullet> Create a center the satisfy the nation's need in the areas 
        of international engagement and global food security to 
        increase international cooperation, trade and development.

    It has been observed and recognized that many of the 1890 land-
grant institutions including Southern University A&M College have not, 
on a consistent basis been awarded the required 1:1 Federal match 
funding of land-grant programs through state appropriation. This has 
been a challenge for Southern University as it has been for many 
institutions when securing the required and deserved match of dedicated 
funding. Therefore, we join others in support of proposed legislation 
to amend current Federal mandates which could strengthen and close the 
gap of disparity in receiving match funding requirements for 1890 
colleges and universities in the future.
    Again, thank you for affording me the opportunity to share comments 
about Southern University; present programmatic engagement in land-
grant initiatives, future goals and funding opportunities, and above 
all the need for enhanced funding.
                                 ______
                                 
   Prepared Statement of Raymond M. Burse, President, Kentucky State 
                       University, Frankfort, KY
The 1890s--Building on Yesterday, Finding Answers Today, and Preparing 
        for Tomorrow--Celebrating 125 Years of Providing Access and 
        Enhancing Opportunities
    To Chairman Mike Conaway, Ranking Member Collin Peterson, and 
Members of the House Committee on Agriculture, I am Raymond M. Burse, 
President of Kentucky State University, and I am honored to submit my 
written testimony for the official hearing record.
    This recognition of the 125th anniversary of the Second Morrill Act 
serves as an opportunity to highlight the innovative research and 
significant contributions of the 19 land-grant universities across the 
country. The Second Morrill Act of 1890 has afforded this network of 
universities 125 years of access to education and excellence, an 
achievement that we celebrate today.
Kentucky State University Historically
    From its modest beginnings as a small normal school for the 
training of black teachers, Kentucky State University has grown and 
evolved into a land-grant and liberal arts institution that prepares a 
diverse student population to compete in a multifaceted, ever-changing 
global society. The university, chartered in May 1886 as the State 
Normal School for Colored Persons, was only the second state-supported 
institution of higher learning in Kentucky. During the euphoria of 
Frankfort's 1886 centennial celebration, when vivid recollections of 
the Civil War remained, the city's 4,000 residents were keenly 
interested in having the new institution located in Frankfort. Toward 
that end, the city donated $1,500, a considerable amount in 1886 
dollars, and a site on a scenic bluff overlooking the town. This united 
display of community enthusiasm and commitment won the day. The new 
college was located in Frankfort in spite of competition from several 
other cities.
    With the passing of the Second Morrill Act in 1890, KSU became the 
second land-grant institution in Kentucky, a designation that allowed 
the school to establish home economics, agriculture and mechanics 
departments.
Kentucky State University Today
    Today, KSU serves a student population of approximately 2,000 
through the College of Agriculture, Food Science, and Sustainable 
Systems, the College of Arts and Sciences, the College of Business and 
Computer Science and the College of Professional Studies. KSU's 882 
acre campus includes a 204 acre agricultural research and demonstration 
farm and a 306 acre Environmental Education and Research Center.
    KSU, building on its legacy of achievement as a historically black, 
liberal arts and 1890 land-grant university, affords access to and 
prepares a diverse student population of traditional and non-
traditional students to compete in a multi-faceted, ever-changing 
global society by providing student-centered learning while integrating 
teaching, research, and service through high-quality undergraduate and 
select graduate programs.
    Kentucky State University is committed to keeping relevant its 
legacy of service by proactively engaging the community in partnerships 
on civic projects driven by the objective of positively impacting the 
quality of life of the citizens of the commonwealth.
    The College of Agriculture, Food Science, and Sustainable Systems 
at KSU works to uphold the mission of the university through its 
commitment to research, service, and teaching in the food and 
agricultural sciences. The College is organized around five divisions 
including, Agriculture and Natural Resources, Aquaculture, 
Environmental Studies and Sustainable Systems, Food and Animal Science, 
and Family and Consumer Sciences. Each division works to resolve 
agricultural, educational, economic, and social problems of the people 
of the Commonwealth of Kentucky while fulfilling the principles upon 
which the Morrill Act was founded: research, extension and teaching.
    KSU boasts the largest multi-disciplinary organic agriculture 
program in the 1890's land-grant system with nationally and 
internationally recognized research programs in aquaculture, organic 
agriculture, sustainable biofuel feedstock production, alternative 
fruit and nut crops, ecological entomology, alternative pesticides and 
water quality, goat production, obesity and human health, and 
apiculture.
Leading Research in Aquaponics
    With interest in aquaponics having grown considerably in recent 
years, KSU's Aquaculture Program, our ``Program of Distinction,'' is 
widely recognized as a leader in the field. More specifically, the 
program has led research in the areas of paddlefish culture, freshwater 
prawn culture, Koi breeding, production of feed-trained largemouth 
bass, and fish meal replacement research. Using a customized raft 
design based on the University of the Virgin Islands system, the six 
rafts available to researchers and housed in the KSU Aquaculture 
Research Center, provide the unique ability to conduct replicated 
research trials. Upcoming research will evaluate the microbial profile 
of the aquaponics system and screen for potential harmful bacteria at 
different points in the system. Additional aims include the development 
of an online academic course in aquaponics that will cover aspects such 
as the design, construction and management of the aquaponics system, 
fingerling and plant production, economics, and food safety.
Meeting the Needs of Farmers and Consumers
    Taking on a problem common among both commercial and home vegetable 
and fruit growers, identifying and managing insect pests and diseases, 
KSU researchers are working to develop biologically-based, sustainable 
insect pest management options and strategies for sweet corn and 
blackberry production.
Promoting Healthy Living Through Outreach Across Kentucky
    According to the Center for Disease Control and Prevention, 
approximately 30% of the adult population in Kentucky and 25% of 
Kentucky's children are either overweight or obese. In both cases, 
Kentucky ranks in the top ten of most obese states in the nation. In an 
effort to combat this epidemic, researchers and Extension specialists 
at Kentucky State University's College of Agriculture, Food Science, 
and Sustainable Systems have developed programs to teach and encourage 
healthy eating habits and physical activity in youth and families. 
SHAPE UP KSU, a program through which 376 undergraduate students have 
received health screenings for their height, weight, waist 
circumference, body mass index (BMI), body fat percentage, blood 
pressure, and fasting lipid and glucose concentrations was developed to 
this end. A second program, the Center for Family Nutrition and 
Wellness Education, has boosted KSU's College of Agriculture, Food 
Science, and Sustainable Systems' efforts in better addressing the 
obesity challenge among the vulnerable populations in the Bluegrass 
Region. And yet a third endeavor, KSU's Expanded Food and Nutrition 
Education Program, summer programs enrolled students in grades ranging 
from kindergarten to eighth grade and provided them education on health 
and nutrition and the importance of physical activity. Such innovations 
have been made possible by research made possible in part by land-grant 
funding.
Conclusion
    In conclusion, it is my hope that you will consider the gains made 
by all 1890 universities as well as the potential for further 
advancement as you move forward in this process. With continued funding 
and support, Kentucky State University is poised to set itself as a 
leading institution of research an innovation in agriculture. Thank 
you, Mr. Chairman, Ranking Member, and Members of the Committee, for 
your time and consideration.
                                 ______
                                 
  Prepared Statement of Pamela V. Hammond, Ph.D., Interim President, 
               Virginia State University, Petersburg, VA
    Mr. Chairman, Ranking Member, and Members of the Committee, thank 
you for the opportunity to address you today and include our testimony 
in the record. I am Dr. Pamela V. Hammond, Interim President of 
Virginia State University (VSU). Founded in 1882, when the Virginia 
Legislature passed a bill to charter the Virginia Normal and Collegiate 
Institute. After several years of legal battles and name iterations, in 
1979, the legislature passed a bill changing our name to the present 
Virginia State University. By our centennial year, we were fully 
integrated with a student body of nearly 5,000, approximately 250 
faculty, a library of over 200,000 books, a 236 acre campus and the 416 
acre Randolph Farm.
    The Importance of VSU as an 1890 University: We play a significant 
role in addressing agricultural, educational, health and STEM issues 
throughout Virginia and in partnerships with other states. We are 
uniquely prepared and positioned to address the critical needs of 
diverse, limited resource and challenged communities; we have the 
ability to adapt and adjust to the changing needs of clientele; and we 
have the research and scientific knowledge and community engagement 
credibility to solve complex and ordinary issues. While we are 
positioned and ready to address many critical issues, more often than 
not, we continue to receive inadequate Federal and state funding to 
accomplish goals. To put it simply, if we had more, we are talented and 
creative enough to accomplish more. The 1890 universities have a role 
to play in addressing the five national priorities identified by USDA/
NIFA (National Institute of Food and Agriculture):

  <bullet> Global Food Security and Hunger.

  <bullet> Childhood Obesity.

  <bullet> Sustainable Energy.

  <bullet> Climate Change.

  <bullet> Food Safety.

    We have unique niches in the areas of alternative and sustainable 
agriculture, value-added production, aquaculture and small ruminants 
(sheep and goats), and small fruits and vegetables with an ability to 
add diversity, local impact and safer foods to the food supply chain. 
We have strengths in environmental and water quality, natural resource 
management, and family, community and youth development. Our close 
connections and credibility with small farmers and rural communities 
are sought after by other organizations. We work with them to enhance 
economic development and profitability and sustainability of 
agricultural enterprises. We address the health and nutritional 
challenges of our communities and develop solutions to hunger and 
nutritional issues. The 1890 universities have produced more minority 
educators, agricultural professionals, health professionals, military 
leaders and scientists of color than any other universities in the 
nation. However, we continue to receive minimal Federal and state 
funding when compared to our sister 1862 land-grant institutions. This 
is exacerbated by changes in Federal financial aid policies that 
disproportionately impact students who attend 1890 universities. 
Ultimately, this threatens enrollment, retention, auxiliary services 
and the capacity of our universities to prepare more leaders, 
innovators and graduates of color in STEM and food and agricultural 
sciences and other high demand fields. Additionally, our challenges in 
reaching and preparing youth for leadership, science, technology and 
agriculturally-based professions, limit our selection pool for higher 
education and occupational advancement.
    A Major Challenge in Funding and Disparities for 1890 Universities: 
Federal and state funding formulas for land-grant universities are 
provided through the Federal farm bill. The use of these funds is 
guided by Sections 1444 and 1445 of the National Agricultural Research, 
Extension, and Teaching Policy Act of 1977 (NARETPA) and Section 1449 
of NAREPTA. Section 1449 outlines the expectation that each state 
adheres to a 100% Federal match requirement: National and worldwide 
economic challenges have impacted state and Federal funding levels. 
Federal funding levels are continuously eroding. Based upon the 100% 
state matching requirement, each dollar lost in Federal funding results 
in another dollar lost in state funding. This doubles the loss of every 
Federal dollar to an 1890 university. Our 1862 partners receive 
significantly more state and Federal funding, along with more local 
funding to conduct research and extension programming. As state budgets 
become more strained, it becomes increasingly difficult to advocate for 
state dollars to support valuable research and extension programs. The 
chart below shows the disparity in Federal funding for 1890 and 1862 
universities.

------------------------------------------------------------------------
 FY 2014 Budget for 1890 Research,
   Teaching and Extension Federal      FY 2014 Budget for 1862 Research
              Funding                   and Extension Federal Funding
------------------------------------------------------------------------
$35 Million (1890 Extension and      $515 Million (Smith-Lever and Hatch
 Evans-Allen)                         Funding)
------------------------------------------------------------------------
Source. USDA/NIFA http://www.csrees.usda.gov/newsroom/news/2014news/
  02261_1890_grants.html (Feb. 26. 2014).
Editor's note: The hyperlink for the press release referred to is http://
  nifa.usda.gov/press-release/usda-awards-grants-support-research-
  teaching-and-extension-programs-1890-historically.

    Additional Challenge--The Matching Requirement for Competitive 
Grants: For 1890 universities, the Federal matching requirement of many 
larger grants limits our ability to apply for competitive funding. We 
are typically limited to the grants earmarked for the 1890 universities 
such as 1890 Capacity Building Grants, 1890 Facilities Grants and 
others. While these funding streams have kept us alive for years, it 
has meant that we are limited in our capacity to apply for and garner 
more funding. We have the interest and capabilities to apply for many 
of the grants available to 1862 institutions; however, we are unable to 
meet the matching requirements unless we have an established Research 
Foundation, or a large state or private funding source. Thus, we often 
leave valuable dollars on the table. This also shows why formula 
funding keeps us alive and is critical to our existence. If left to 
rely solely on competitive grant dollars only, which appears to be the 
trend in the way Federal funds are dispersed, many of our 1890 
universities would struggle to exist.
    Our Precious Small and Limited Resource Farmers, Being Squeezed 
Out: The average age of a farmer in the Commonwealth of Virginia is 68 
years. Without a farm management plan, a land/farm transition plan, and 
the willingness of a new generation of family members to continue 
farming the family land, we stand to lose valuable agriculture 
producers, valuable land and valuable food sources. African-American 
farmers are a more vulnerable group. Each year more farm bill funding 
supports the nation's supplemental nutrition programs, and less funding 
is earmarked for producer programs--particularly small farmers and 
rural communities. In the past, a significant amount of funding had 
been provided in the farm bill to work with Small Farmers through the 
``[Section] 2501 Outreach to Socially Disadvantaged Farmers and 
Ranchers.'' In the most recent farm bill, funding for this program was 
literally wiped out, thereby challenging 1890 universities to make 
critical decisions of how to source the program. Many decided they 
could no longer source the program and simply had to end it. These 
programs were critical in providing valuable resources and technical 
assistance to keep farmers and their rural communities economically 
sustained and flourishing.
    VSU Can Augment Positive Impact with Increased Funding of 1890's 
Extension; Evans-Allen Research; and 1890 Capacity Building and 1890 
Facilities Funds in the farm bill. VSU is positioned to: Develop Small 
Farm Marketing Incubators--Enhancing Local Food Distribution in 
Regionally Based Food Value Chains; Hire Extension Agents to increase 
the profitability and sustainability of Small and Limited Resource 
Farmers through Small Farm Outreach; Develop Value-Added Farm Product 
Infrastructure and Marketing for Small Poultry, Ruminants, and 
Specialty Crops; Conduct Multi-State research on Nutrient Dense Food 
Production, Marketing and Consumer Education; Help Eradicate Food 
Deserts and Food Insecurity, through the continued development of Urban 
Agriculture Centers, Address Obesity and Health Disparities in Urban 
and Rural Communities; Develop new 4-H Youth Programs focused on STEM 
and Agricultural Fields of Study, Increase Research on New Pest 
Resistant and Drought Resistant Crop Varieties; Develop Online Courses, 
Videos, and Interactive Publications addressing client need and 
increase our Outreach Capacity; Establish a Small Farm Entrepreneurship 
and Family Resource and Financial Management Center; Employ Extension 
Specialists in the areas of Healthcare and Child and Human Development, 
Gerontology, Nutrition and Animal and Poultry Science.
    With increased 1890 Facilities Funding--VSU would build/expand 
facilities to: Increase laboratory and classroom space at Randolph 
Farm; Establish a new degree program in Veterinary Technology; Develop 
a fully equipped small ruminant parasitology laboratory, addressing 
emerging Animal and Plant Science Issues; Increase focus on Food Safety 
and Food and Nutrition Science; Establish food processing facilities to 
increase value-added plant and animal products; Increase capacity to 
conduct research and Extension education in Urban Food Production; 
Develop VSU's Small Ruminant Extension and Research Center for the 
sustainable/low-input production of meat goats and hair sheep; Design 
and implement a USDA-inspected mobile processing slaughter unit, 
providing outreach programs on humane and safe small ruminant 
slaughter, meat processing, and waste composting.
    With Current Federal and State Funding Support, VSU has 
accomplished: Including, but not limited to--Renovation and increased 
laboratory facilities in areas of Agricultural Engineering, Hospitality 
Management Program, Small Ruminant Research, Aquaculture, Horticulture 
and Extension Facilities; Increased aquaculture research and extension 
capacity constructing a Fish Processing Plant and Hatchery; 
construction of new greenhouses increased research capacity and 
environmental impact for Extension Research and Teaching; 
infrastructure improvements at Randolph Farm increased capacity 
supporting experiential learning for small farmers and students; 
Constructed a wetlands area for research and extension determining the 
impact that wetlands have on absorbing herbicides and pesticides, 
including herbicide and pesticide storage areas meeting EPA standards; 
installation of infrastructure improving communication by offering 
distance learning opportunities to clientele.
    1890 Capacity Building Funds: Implemented summer youth programs 
engaging students in agriculture, human sciences and STEM fields of 
study; Lead Water Quality Research and preventing wastewater from 
entering Virginia's Chesapeake Bay.
    Evans-Allen and State Research Funds: Generated an average of 
$4,000,000 annually in competitive external grant funds to conduct 
basic and applied research projects; Lead a statewide study to 
eradicate food deserts and food insecurity in Virginia; implemented a 
pilot-scale research module for improving the health of Virginia's 
Chesapeake Bay through removing harmful nutrients from wastewater 
entering Virginia's Chesapeake Bay; Lead new research in the production 
of hops to help small farmers meet the needs of a growing craft brewery 
industry; Conduct research and lead extension efforts to build urban 
sustainable food systems providing access to fresh healthy affordable 
food and nutrition education to challenged communities; Partner with a 
new Virginia-based industries to develop optimal crop varieties for 
product lines and conduct food science research; Utilize food science 
research to develop practical post-harvest handling and storage methods 
lengthening the shelf-life of niche crops.
    1890 Extension Funds: In excess of 50,000 individuals directly 
participate in VSU Extension programs annually; Help improve Virginia's 
economic development by assisting small farmers in generating more than 
$1.9 million in the past 2 years; Our Marketing and Agribusiness 
Program helped small and limited resource farmers generate $750,424 in 
local sales; VSU partnered with private-sector interests in local foods 
sales leading to the innovation of local food start-up businesses 
grossing $640,000 from 1,600 customers in the Richmond area, 
participating small farmers earned $400,000, in a single year; VSU's 
Small Farm Outreach provided technical assistance to 396 limited-
resource farmers to improve farm production, marketing, prepare 
business and marketing plans, and apply for USDA farm programs; 182 
Virginia farm businesses saved $139,150 and 175 earned a combined 
$151,400; Alternative Agriculture programs trained 520 landowners 
(representing 330 Virginia farms), helped 80 farmers transition to 
alternative enterprises and assisted 60 farmers increase farm incomes 
an average of $6,000 per farm, VSU, in partnership with The Virginia 
Berry Growers Association, assisted farmers in growing and marketing 
fresh berries to local industries (35 farmers have reached sales levels 
of $250,000); Our Aquaculture Program partnered with local farmers to 
expand local aquaculture enterprises and generate $445,750 in income, 
In Winter 2014, VSU and Virginia Cooperative Extension initiated a new 
partnership with Hampton Roads area farmers and the successful Richmond 
area food hub enterprise called ``The Farm Table.'' Resulting in 12 
farmers signed up to sell directly to the new food hub for 300 weekly 
Hampton Roads customers with subscription boxes valued at $25 for 40 
weeks, over the 2014 growing season, participating area farmers earned 
a total of $100,000.00 ($8,333.00 per farm, on average).
    Preparing our youth: VSU hosts a student run farmer's market, the 
``Farm Stars Program,'' generating approximately $11,000.00 in annual 
sales; Through 4-H youth development and Summer Enrichment Programs, 
more than 500 youth are educated annually through a series of 
residential and day camps (4-H Intermediate Congress, The Future of 
You, Kids-Tech University, Summer Agriculture Program, and Meaningful 
Watershed Educational Experiences [MWEE]), ``Ag Discovery'' summer 
enrichment program to provide experiential learning in Animal Science, 
Biology and Veterinary Medicine to youth from states across the U.S.; 
Hosting Randolph Farm Tours providing experiential learning, for over 
1,400 youth annually, in ages ranging from 8-18 years old.
    Concluding Statement: As Interim President of Virginia State 
University, I am honored to have this historic opportunity to testify 
before you on behalf of the administrators, faculty, staff and students 
of our prestigious College of Agriculture's research, academics and 
extension programs. Thank you for your valued consideration, 
partnership, and continued support. We look forward to the next 125 
years of land-grant university successes impacting agriculture and the 
lives of Virginians.
            Sincerely,
            
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
Pamela V. Hammond,
Interim President.
                                 ______
                                 
  Prepared Statement of Andrew Hugine, Jr., Ph.D., President, Alabama 
         Agricultural and Mechanical University, Huntsville, AL
The 1890s--Building on Yesterday, Finding Answers Today, and Preparing 
        for Tomorrow--Celebrating 125 Years of Providing Access and 
        Enhancing Opportunities
    Chairman Conaway, Ranking Member Peterson, and to each of you, 
distinguished Members of the United States House of Representatives, I 
bring you greetings as the President of Alabama Agricultural and 
Mechanical University, Normal, Alabama in the City of Huntsville, 
Alabama.
    As you may have been or are now aware, the year 2015 marks the 
125th anniversary of the Morrill Act of 1890 that established black 
land-grant colleges and universities. These 1890 land-grant 
institutions of higher learning continue to be major educational 
resources for the nation, as well as key sources of African-American 
leaders, who render valuable service to their communities, the nation, 
and the world. Currently, there are 19 black land-grant colleges and 
universities throughout the United States.
    Our existence is credited to Senator Justin Smith Morrill, an 
abolitionist who had a vision that education would be for all social 
classes, and offered a shift from predominantly classical studies to 
applied studies. This shift, through the First (1862) and Second (1890) 
Morrill Acts, prepared students for the real world and advanced the 
nation, by providing an opportunity to educate all classes of 
citizenry.
    Alabama Agricultural and Mechanical University (AAMU), a 
beneficiary of the 1890 Act, is a traditional, yet progressive 1890 
land-grant institution with a tri-fold focus of teaching, research, and 
outreach, where academic excellence is a strong commitment.
    Our founder, William Hooper Council, an ex-slave, opened the doors 
of this University on May 1, 1875 to 61 students with a state 
appropriation of $1,000 per year. His vision was consistent with the 
vision Senator Morrill had in the land-grant Acts, ``to provide for the 
education of my people.'' Thus, our presence and successes were further 
cultivated through the Morrill Act of 1890 and our becoming a land-
grant institution; providing additional monies for practical and 
mechanical subjects, such as engineering, agriculture, and 
architecture. After several name modifications, the Alabama Board of 
Education adopted a resolution on June 26, 1969, which presented the 
current and final name of Alabama Agricultural and Mechanical 
University.
    For the past 140 years, AAMU has thrived and can boast of more than 
37,000 alumni and counting. Among that number are several renowned 
public and community figures.
    Today, as a part of the 1890 land-grant university system, AAMU has 
a School of Graduate Studies and four Colleges--Business & Public 
Affairs; Education, Humanities, & Behavioral Sciences; Engineering, 
Technology & Physical Sciences, and Agricultural, Life & Natural 
Sciences (CALNS).
    The research and instruction of the CALNS encompasses the 
biological and environmental sciences, community and regional planning, 
family and consumer sciences, and food and animal sciences with a focus 
of changing lives through the use of science and technology in 
agriculture.
    The varied research efforts that allow us to maintain a relevant 
impact include identification of foods, and food ingredients and spices 
in the mitigation of various forms of cancer. We have also made 
significant inroads in research involving biofuels, geospatial 
information studies (GIS); forestry and wildlife management, and 
silvopasture management, just to name a few. Through our efforts in 
grantsmanship, CALNS has established a combination of meteorological 
and soil profile stations (Alabama MesoNet System) across Alabama and 
three counties in southern Tennessee. In addition, there are three Eddy 
Covariance Systems sited in three of our dominant ecosystems. They 
monitor soil carbon sequestration dynamics and energy of forested 
biomes.
    Against this background, and with our course offerings, manpower 
and laboratory equipment, a center of excellence in GIS (under the 
sponsorship of the National-Intelligence Agency and the United States 
Geological Survey) was recently established. Furthermore, AAMU is an 
integral player in working with the Forest Service, the U.S. Fish and 
Wildlife Service, Alabama Department of Conservation, Southeastern 
Cooperative Wildlife Disease Study and others to reduce the spread of 
the fungal White-Nose Syndrome (WNS) in bats, which has caused the 
death of at least six million bats. Arresting this disease is critical, 
as bats are an important part of forest ecosystems, helping to control 
forest and agricultural insect pests. Insectivorous bats likely save 
the U.S. agricultural industry at least $3 billion each year, 
approximately $74 per acre for the average farmer. The presence of this 
disease was discovered in Alabama by an AAMU wildlife scientist.
    Our Small Farms Research Center is influential in the education of 
new and beginning farmers and ranchers, particularly those with limited 
resources throughout all 67 counties via shared information, 
conferences and hands-on workshops.
    The university is committed to attracting and educating the next 
generation of agriculturalists. As such CALNS is responsible for on-
line delivery of courses in the Alabama Black-Belt Region, one of the 
poorest regions in Alabama. Through these courses, high school students 
are given assistance in their preparation for college/university 
studies.
    Our international engagements are also noteworthy. Collaborative 
research, teaching and student and faculty exchange programs have been 
established in China, Costa Rica, Brazil, Ghana, Uganda, and Nigeria; 
other like collaborations are in their early developmental stages. Of 
particular note, is the Confucius Institute. AAMU is one of only 107 
universities nationwide to host such a prestigious entity. The 
Confucius Institute, through its furtherance of Chinese language and 
culture, will facilitate economic partnerships, particularly those 
related to agriculture, between our nations.
    The outreach arm of the CALNS is the Alabama Cooperative Extension 
System, which collaborates with Auburn University to achieve a 
statewide extension service. The AAMU location focuses on the life-
changing Urban Affairs and New Nontraditional Programs for individuals, 
families, children and youth, entrepreneurs, 4-H, animal producers, and 
more. Its ultimate goal is to improve and sustain lives, homes, 
communities, businesses, and the environment. Additionally, for the 
past thirteen years, the Alabama Cooperative Extension System has 
conducted a successful aging initiative, due to the keen awareness of 
the demands of our aging population for transportation, housing, 
healthcare, finances and food security. Statistically, there are over 
35 million people in America that are 65 years old or older and that 
number will double to 70 million in 20 years; accounting for more 
people over 65 than under 18.
    The physical campus of AAMU is situated on more than 2,300 scenic 
acres, a 5 minute commute from downtown Huntsville, which was in fact, 
its original site. The campus has the unique distinction of being laid 
out in 1928, by Frederick Law Olmsted, Sr., designer of New York's 
Central Park.
    In addition to the campus proper, there are two off-site facilities 
that serve the university and community, as well. The first is where a 
vast amount of our agricultural research is done, on over 980 acres of 
land at the Winfred Thomas Agricultural Research Station in Hazel 
Green, AL; approximately 10 miles from the campus. Second, the 
Agribition Center is a facility that is located in an industrial area, 
and hosts community events ranging from horse and cattle expositions to 
organizational meetings.
    With over 5,300 students, including graduate and undergraduate 
combined, there are at least 44 states and 11 countries represented at 
our University, with over 40% of all students being first generation 
college attendees. Our student-faculty ratio is 20:1, thereby ensuring 
that our students receive the specialized attention and support that 
they need to be successful.
    The accomplishments of the University are vast. We have compiled 
140 Points of Pride that pinpoint many of our University's faculty, 
alumni and student successes. The complete listing can be found at 
http://www.aamu.edu/news/2011/Pages/Points-of-Pride---140.aspx; 
however, I have selected a few to be specifically mentioned:

  <bullet> AAMU would be ranked in the Top 10 nationally, according to 
        news reports, if the effectiveness of higher education 
        institutions were ranked by criteria set by U.S. President 
        Barack Obama

  <bullet> AAMU is accredited by the Southern Association of Colleges 
        and Schools Commission on Colleges.

  <bullet> AAMU is the only 1890 land-grant university with three Ph.D. 
        programs in science, technology, engineering and mathematics 
        (STEM) areas. The fourth Ph.D. program (and state's only one) 
        focuses on Reading/Literacy.

  <bullet> The Department of Food and Animal Sciences offers the only 
        Institute of Food Technologists (IFT) certified food science 
        program at a historically black college or university (HBCU) in 
        the U.S. The Food and Animal Sciences Department is one of two 
        and the oldest Ph.D. food science program among HBCUs in the 
        U.S.

  <bullet> AAMU ranks second in the nation in awarding undergraduate 
        degrees in natural resources and conservation to African-
        Americans (DIVERSE, 2014).

  <bullet> AAMU is the eighth largest producer of undergraduate degrees 
        to African-American minorities in agriculture and related 
        sciences (DIVERSE, 2014).

  <bullet> AAMU ranks eighth in the nation in awarding master's degrees 
        to African-Americans in the fields of both biological/
        biomedical sciences and physical sciences (DIVERSE, 2014).

  <bullet> AAMU contributes directly to the defense of the country and 
        has commissioned nearly 900 officers through its ROTC since the 
        program's inception.

  <bullet> AAMU's forestry program is accredited by the Society of 
        American Foresters and is the only such program at an HBCU.

  <bullet> AAMU is second in the nation in the awarding of 
        undergraduate degrees in mathematics and statistics to African-
        Americans (DIVERSE, 2014).

  <bullet> AAMU ranks fifth in the awarding of degrees to African-
        Americans in the field of engineering (DIVERSE, 2014).

    In closing, I would like to sincerely express my gratitude for the 
opportunity to present Alabama Agricultural and Mechanical University 
to such an august assembly of officials. With continued funding and 
support, we expect to remain among the Top 20 largest employers in the 
region, as well as make our economic impact felt throughout the region 
(according to the Center for Business and Economic Research at the 
University of Alabama's Culverhouse College of Commerce--$350M).
                                 ______
                                 
  Prepared Statement of Alfred Rankins, Jr., Ph.D., President, Alcorn 
                      State University, Lorman, MS
    Good morning. Chairman Conaway, Ranking Member Peterson, and 
distinguished Members of the House Committee on Agriculture. Thank you 
for allowing me to enter this written statement for the record.
    On behalf of our more than 3,639 students, 677 faculty and staff, 
and 25,000 alumni thank you, Mr. Chairman, for this opportunity.
Our History
    Founded in 1871, 6 years after the Civil War ended, Alcorn State 
University traces its heritage to the Morrill Acts. Alcorn State is 
unique among the 1890s institutions because it, also, received funding 
from the first Morrill Act, making it America's oldest public 
historically black land-grant institution. Alcorn is, also, 
Mississippi's second oldest state-supported university. We now attract 
a racially and ethnically diverse student body from 40 states and more 
than 20 countries. We educate those of limited means, as well as the 
affluent. Alcorn's programs engage students in applied and basic 
research while stimulating intellectual development of life-long 
learning. We remain a leader in Agricultural education, annually 
conferring degrees in Agribusiness Management, Agricultural Economics 
and Agricultural Science.
    Agriculture, as you are aware, is critical to Mississippi's and 
America's economy. Mississippi agriculture, representing $7.4 billion 
is the top industry in the state, directly and indirectly employing 
approximately 39% of the state's workforce. The state's agriculture 
enterprises include more than 11 million acres of farmland, 19.7 
million acres of forestland, 14,000 miles of streams and 640,000 acres 
of pond and lakes. The leading agricultural products in the state 
include:

 
 
 
    <bullet> Poultry--MS broilers    $2.5 billion, eggs $215 million
    <bullet> Forestry                $1.17 billion
    <bullet> Soybean                 85.14 million bushels at $993
                                      million
    <bullet> Cotton                  $331 million
    <bullet> Cattle & Calves         $289 million
    <bullet> Catfish                 $178 million
    <bullet> Rice                    $141 million
 

    The strength of the Mississippi agriculture is due, in large part, 
to the strength of the two state's land-grant universities--of which 
Alcorn is the oldest. With the research and outreach of these two 
institutions--Alcorn State University and Mississippi State 
University--we have been able to improve agriculture in our state 
through research and extension services. Our extension employees 
continue to work with our growers to move them to new levels in both 
rural and urban communities.
Research Initiatives
Patents
    In 2006, a patent was received by scientists at Alcorn State that 
could help to reduce the risk of heart disease without the use of 
prescription medicines. Supplements of this vegetable crop fed to human 
subjects with high blood cholesterol showed significant reduction in 
`bad' cholesterol and increase in `good' cholesterol. The patent for 
waterleaf was the first ever received by Alcorn State. Further research 
is continuing to develop the patent.
    Dr. Yufeng Zheng, associate professor in the Department of Advanced 
Technologies, is the principal inventor for the utility patent 
(8,917,914), ``Face recognition system and method using face pattern 
words and face pattern bytes,'' that was recently issued to Alcorn 
State. The present invention provides a novel system and method for 
face recognition utilizing facial features. The system and method of 
the invention comprise creating face patterns called ``face pattern 
words'' and ``face pattern bytes'' for face identification.
Swine Development Center
    Scientists in the Department of Agriculture are making their mark 
in the heart disease prevention arena with their published findings 
that vegetable purslane leaves lower the risk of cardiovascular disease 
in humans. Heart disease continues to be a leading cause of mortality 
and morbidity in the United States. As a result of these concerns for 
potential side effects and consequent increase in health care costs, 
there is a growing demand for non-traditional and/or diet related 
approaches to lower blood lipids and cholesterol, and prevent 
cardiovascular disease and stroke. In a feeding trial conducted at 
Alcorn State, Scientists explored the efficacy of purslane leaves in 
lowering cardiovascular diseases risk in patients with high blood 
cholesterol and other blood lipids.
    The study demonstrated that using a novel food product rich in 
omega-3 fatty acids, pectin, and other essential nutrients, produced a 
marked improvement in the lipid profile of the patients, LDL-
cholesterol (bad cholesterol) was reduced by 27%, suggesting a 
remarkable improvement in heart disease risk, a primary culprit in the 
development of cardiovascular disease and stroke.
Experiment Station
    Scientists at the Alcorn State Experiment Station are currently 
evaluating the effects of progesterone supplementation on the survival 
of transferred embryos; this process is needed in order to release 
mechanisms used by progesterone to alter the survival of the embryos in 
cattle. The strategy evaluated and recommended by our scientists to 
supplement progesterone is now being used by many farmers practicing 
embryo transfer as a means to improving the fertility and genetics of 
herds.
    Dr. Victor Njiti is looking at ways to reduce the high cost of 
sweet potato production by limiting the number of harvesting operations 
through reduced vine growth. Further, we have expanded the market for 
sweet potato through increased industrial utilization and human 
consumption. Technology has been developed to process sweet potato into 
high quality chips, and is now being prepared for patent and 
transferred to industry.
Delta Obesity
    The Department of Human Sciences secured a grant through Delta 
Obesity Prevention Research Unit (OPRU), Adaptation and Adoption of the 
Dietary Guidelines by African-American Children in Southwest 
Mississippi. The ongoing project promotes investigation of the impact 
of nutrition education (alone or combined with physical fitness) on the 
adoption of the Dietary Guidelines for Americans (DG) among rural, 
limited-resource African-American middle school children. The project 
will add to the body of knowledge regarding low income, rural African-
American adolescents' understanding of the Dietary Guidelines as it 
applies to their individual lives. The project will also help to 
determine if increased knowledge of the Dietary Guidelines 
recommendations alone or paired with physical activity within its 
population can impact adoption of the Dietary Guidelines.
    A feasibility study on obesity is currently underway in Fayette, 
Mississippi with middle school-aged children.

  <ctr-circle> Focus group discussions were conducted with adult women 
        (28 women from Warren, Claiborne, and Jefferson Counties), and 
        children in Jefferson County (63 males and 99 females).

  <ctr-circle> The feasibility study exposed 287 middle school-aged 
        children to nutrition education focused on following the 
        Dietary Guidelines for Americans.

  <ctr-circle> One conclusion drawn from the focus groups is that there 
        is a significant need for marketing to encourage these cultural 
        groups to utilize the website, Mypyramid.gov.
Extension Program
    The Alcorn State University Cooperative Extension Program provides 
educational programs to help Mississippians improve the quality of 
their lives. In 2014, the Alcorn State University Cooperative Extension 
Program completed the second year of its long range plan which 
represents many of the accomplishments of Extension's educational 
programs. These efforts were supported through the cooperation of 
county, state and Federal Government, and a diverse group of 
organizations and individuals. One of our major programs (Expanded Food 
and Nutrition Education Program (EFNEP)) promotes optimum nutrition and 
healthy lifestyle management. Nutritional needs change throughout life 
and have a direct impact on health, quality of life and ability to 
achieve physical and mental potential. Diet related risks involved in 
chronic diseases can be lowered through changed behaviors and positive 
pregnancy outcomes can result from better prenatal nutrition.
    Program Impacts:

  <ctr-circle> Over 5,000 participants increased awareness of need to 
        have good nutrition habits; 8,480 participants increased 
        knowledge that promotes health; and 15,849 participants 
        increased attitudes and aspirations that are indicative of a 
        need for good health.

  <ctr-circle> Nearly 723 person showed a decrease in high blood 
        cholesterol; 663 showed a decrease in high blood pressure; 292 
        showed a decrease in high blood sugar; and 1,000 showed a 
        decrease in excess weight.

  <ctr-circle> Approximately 2,538 parents adopted food behaviors 
        consistent with the Dietary Guidelines and Food Guide Pyramid.

    The Family Nutrition Program supported by the USDA Food Nutrition 
Service was conducted in 40 counties with a focus on food stamp 
eligible families with 3 to 5 year old children. One agent's comment 
after finishing the four sessions was of the participants does not want 
the sessions to end. Family Nutrition participants have been hired as 
EFNEP program assistants while others come back as volunteers. In a 
letter with $1,436 of support from the United Way in Warren County, the 
grantor stated, ``You are really making a difference in the lives of 
many women and children in our community.'' Various counties reporting 
evaluation results for the low income audience, in general, indicated 
an improvement in food resource management practices for 75% to 97% of 
participants; and improvement in nutrition practices for 88% to 97% of 
participants; and improved food safety practices of 50% to 81% of 
participants.
Mississippi Small Farm and Agribusiness Center
    The Alcorn State University Mississippi Small Farm and Agribusiness 
Center (MSFAC), the only one of its kind at an 1890 institution, was 
established in 1988 by an Act of the Mississippi State Legislature to 
promote, enhance and facilitate the development and growth of small 
farms and alternative agricultural enterprises, including international 
marketing, thereby improving the economic condition of small farmers 
throughout Mississippi. The state has approximately 37,500 small farms 
that have an annual gross farm revenue of $50,000 or less. MSFAC 
provides services directly to approximately 600 farmers and indirectly 
to several thousands, with its website linking the center to farmers 
all over the state and beyond its borders. Located on the campus of 
Alcorn State, the center provides services in the following areas:

  <ctr-circle> Database and Information.

  <ctr-circle> Energy Database.

  <ctr-circle> Marketing & International.

  <ctr-circle> Agricultural Education.

  <ctr-circle> Small Farm Loan Program.

  <ctr-circle> Vegetable Industry Development.

  <ctr-circle> Natural Products Industry.

  <ctr-circle> Livestock Industry.
Student Successes
Department of Agriculture
    We are proud of our graduates who have decided to pursue advanced 
degrees in agriculture. Crystal Vance is pursuing a Ph.D. in soil 
science, with an assistantship, Louisiana State University School of 
Agriculture Plant, Environmental and Soil Sciences. During the spring 
semester, Vance presented her thesis at the Alcorn State School of 
Agriculture, Research, Extension and Applied Sciences Seminar Series. 
Her presentation was entitled, ``Plant Density Effects of Switchgrass 
(Panicum virgatum L.) On Biomass, Nutrients and Carbon Buildup on Heavy 
Soils.'' This research was funded by the United States Army. Vance 
graduated with a 4.0 GPA from the Department of Agriculture in Plant 
and Soil Science.
Department of Human Sciences
    Several undergraduate students in nutrition and dietetics are going 
on to pursue advanced degrees. Aquierra Anderson, Victoria King, and 
Kanesha Sumling. Anderson will enter the Food and Nutritional Services 
Master's Program at Tuskegee University, and King and Sumling have been 
accepted in the Belhaven University Health Administration Master's 
Program where they are hoping to acquire knowledge and skills to become 
hospital administrators.
    Over the years our graduates have gone on to be highly successful 
in their fields. You will find them in agricultural leadership roles 
all over our state, nation and the world. Indeed, we can boast of 
Alcornites who are making outstanding contributions within USDA as 
employees. Among these individuals are:
USDA/Natural Resources Conservation Service (NRCS)

  1.  Jacqueline Davis-Slay, Director Public and Private Partnership.
USDA/Agriculture Marketing Service (AMS)
  1.  Darmechie Hulbert, Agricultural Commodity Grader.

  2.  Yolonda M. Moore, Agricultural Commodity Grader.
USDA/Food Safety and Inspection Service (FSIS)
  1.  Perry Earl Davis, Deputy District Manager.

  2.  Christina Travis, Resource Manager.

  3.  Natoya Cameron, Resource Management Assistant.
Foreign Agricultural Service
  1.  Patrick Packnett.
Challenges and Opportunities
    According to the 2012 United States Census of Agriculture, there 
were 30,227 black farmers in the 18 states served by 1890 universities. 
Of that number 5,129 or 17% of those farmers reside in Mississippi. The 
2012 Agricultural Census, also, shows there has been a 30% increase in 
black farmers' ownership of farmland. Much of that increase in USDA 
program participation is credited to educating the farmers on USDA 
programs offered by 1890 universities.
    Our work with small- and limited-resource farmers is important, 
because they represent 50% of the farmland and have the potential to 
increase jobs and economic development. If funds are enhanced, we could 
do so much more in a positive way to reach and assist limited-resource 
farmers and the communities in which they live and operate.
                                 ______
                                 
                           Submitted Question
Response from Harold L. Martin, Sr., Ph.D., Chancellor, North Carolina 
        Agricultural and Technical State University
Question Submitted by Hon. David Rouzer, a Representative in Congress 
        from North Carolina
    Question. Dr. Martin, I am honored to be one of two members from 
North Carolina who get to welcome you to the House Committee on 
Agriculture and thank you for your service and leadership to our state 
and to North Carolina Agricultural and Technical State University. NC 
A&T boasts a proud tradition among the 1890 land-grant universities as 
evidenced by the College of Engineering ranking number one for the 
number of degrees awarded to African-Americans, and the School of 
Agriculture and Environmental Sciences recently becoming the largest 
school of its kind among the nation's historically black colleges and 
universities.
    Please explain A&T's commitment to the people of North Carolina as 
an institution of higher learning and its commitment to small minority 
farmers. Also, please discuss the ways in which both North Carolina 
land grant universities--NC A&T and North Carolina State University--
work together to help the agricultural industry in our state.
    Answer. Thank you so much for the question Congressman Rouzer and 
thank you for all that you that you do for the people of North 
Carolina.

    A&T's commitment as institution of higher learning

    N.C. A&T is a learner-centered community that develops and 
preserves intellectual capital through interdisciplinary learning, 
discovery and engagement, and is committed to fulfilling its 
fundamental purposes through exemplary instruction, scholarly and 
creative research, and effective public service and engagement. A&T is 
dedicated to providing ``ladders of opportunity'' to high-achieving 
students seeking a superior education and is committed to creating a 
campus climate that fosters student satisfaction and a sense of 
community. The university's academic and outreach efforts illustrate 
how campus and community collaborations enhance the quality of life for 
the citizens of North Carolina, the nation, and the world.
    A&T is ranked by the Carnegie Classification System as a 
``doctoral/research university'' and, for the past nine years, has 
ranked third among The University of North Carolina system's member 
institutions for sponsored research funding. With an enrollment of 
nearly 11,000 students, A&T is recognized as the largest among the 
nation's historically black colleges and universities, and the School 
of Agriculture and Environmental Sciences at A&T is the largest school 
of its kind among the nation's HBCUs. A&T ranks No. 1 in the nation for 
the number of baccalaureate degrees in engineering awarded to black or 
African-Americans (American Society for Engineering Education) and is 
the top producer of African-Americans with undergraduate degrees in 
STEM disciplines, arts and humanities, and education.

    A&T's commitment to small minority farmers

    In an era where family farms and farmland are rapidly disappearing 
from the American landscape, North Carolina farm census data shows that 
African-American owned farms in North Carolina are on the rise, having 
increased in number from 1,491 in 2007, to 1,637 in 2012. Overall 
acreage under cultivation in these enterprises has increased by nearly 
20,000 acres. Despite these successes, challenges loom for North 
Carolina's small farming community, and particularly, for new farmers. 
According to North Carolina farm census data, 86 percent of African-
American farms had gross sales of less than $50,000 and 51 percent of 
those farmers' sole source of income is farming. Small farmers of all 
races are also aging and nearing retirement and unfortunately, only 3 
percent are under 34 years old. A&T is committed to providing the 
education and training needed to attract and retain the next generation 
of farmers and has done so through effective community outreach and 
innovative undergraduate and graduate programs.
    A&T is striving to make small farming in North Carolina more 
profitable and more attractive, while continuing its unique mission to 
serve minorities in rural communities. Through new ideas like our Small 
Farms Collaborative and Local Foods and Health Initiative (funded 
through the 1890 Facilities Program), A&T plans to use its 492 acre 
farm as a strong community education resource for local food 
production. Elements of the farm plan mentioned include a food 
processing facility to teach entrepreneurs how to add value to North 
Carolina agricultural products, a pasture-based dairy and creamery 
producing A&T-branded yogurt, ice cream and artisanal cheeses for 
revenue production, an organic vegetable production research and 
demonstration site, a student-run farm, and land for community gardens 
that will be available to residents of the surrounding communities.

    A&T's commitment to collaboration

    At A&T we use long-range planning and evaluation to adapt our 
programs to the emerging needs and issues in the state of North 
Carolina. A&T's cooperative extension program is a responsive, high-
touch organization and one that works in direct partnership with N.C. 
State University. Together, our cooperative extension services help 
families and communities throughout North Carolina with nutritional 
programming aimed at: reducing obesity, diabetes and other chronic 
diseases; parenting classes for troubled families; financial literacy 
training; and youth development through 4-H programs. Examples of 
continued collaborations are below:

  <bullet> In addition to the nearly 500 acre University Farm--A&T's 
        largest classroom--cooperative extension also has an 
        agricultural presence in Goldsboro through the Center for 
        Environmental Farming Systems. CEFS is a consortium comprised 
        of the N.C. Department of Agriculture and Consumer Services, 
        A&T and N.C. State. The center is a premier locale for 
        extension, research, and educational programs in sustainable 
        agriculture and local food systems, with units of: small farm 
        vegetable production, dairy, beef, outdoor swine, goats, and 
        organics.

  <bullet> A&T and N.C. State also collaborated to design, implement, 
        and evaluate the Farm School educational program--a 6 month 
        intensive program that recruits new, beginning, and young 
        producers into farming. Participants are trained on business 
        and marketing planning, farm financing options, and alternative 
        agricultural enterprises. Participants also tour farms to gain 
        a better understanding of the farming enterprise.

  <bullet> A&T and N.C. State embraced local foods as a joint signature 
        program of both universities a few years ago, resulting in a 
        coordinated expanded focus on local-and-regional foods at the 
        county levels. County Extension agents have also become better 
        trained to help growers and consumers produce and buy more 
        affordable, fresh and local foods.

  <bullet> Extension agents from both universities have also partnered 
        with the N.C. Department of Agriculture Piedmont Research 
        Station in Salisbury to conduct winter squash and broccoli 
        variety trials, to determine which varieties are best grown in 
        North Carolina.

  <bullet> The cooperative extension program at A&T has created two 
        unique curricula in the areas of Family and Consumer Sciences, 
        Table for Two and Speedway to Healthy. These programs are being 
        endorsed and shared by both A&T and N.C. State extension agents 
        to help promote nutrition and health to audiences in the 
        interest of developing healthier children and families in our 
        state, and also to lower health care costs and expenses--
        including those born by taxpayers through public and 
        governmental assistance programs.

    <ctr-circle> Table for Two, a curriculum focused on improving the 
            nutrition and health of pregnant teens and their pre- and-
            post natal babies.

    <ctr-circle> Speedway to Healthy, a 1,200 foot<SUP>2</SUP>, custom-
            made exhibit of the human body's interior provides an 
            interactive teaching tool where children learn about their 
            bodies' relationship to food. Since its launch this spring, 
            the exhibit has been hosted in five counties, seen by more 
            than 2,000 elementary aged children, including more than 
            800 alone during a 3 day stop in Alexander County. As 
            school resumes, two more counties have booked the Speedway 
            in late September.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
